<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                               U.S. Senate,
   Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF NANCY ERICKSON, SECRETARY OF THE SENATE

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon, everyone, and welcome. My colleague and 
friend, the Ranking Member, Senator Hoeven, is on his way. He 
should be here shortly, and when he arrives, we will ask him to 
make any opening comments that he would like to make.
    We welcome today, to take the testimony for the fiscal year 
2013 budget request for the Secretary of the Senate, the Senate 
Sergeant at Arms, and the U.S. Capitol Police.
    This is our final hearing for fiscal year 2013, and I would 
like to thank everyone for being here. I would like to thank 
Nancy Erickson, the Secretary of the Senate; Terrance W. 
Gainer, the Senate Sergeant at Arms (SAA); and Phillip D. 
Morse, Sr., the Chief of the United States Capitol Police 
(USCP).
    This is our last hearing of the year for fiscal year 2013 
budgets for the agencies of the legislative branch. In the near 
future, my ranking member and I, along with our colleagues, 
will begin making those tough funding decisions.
    And I want to thank everyone today, particularly the 
witnesses and everyone else who has testified thus far before 
this subcommittee.
    The testimony has been vital and will continue to be vital 
in helping us prioritize everybody's priorities. That is what 
the process is all about. Lean budgets do not mean that 
employees are not doing their job. It simply means that we are 
in tough economic times, and we have to ask our employees to do 
more with less.
    The dedication and hard work of all of your staffs under 
these circumstances is commendable, and we mean that.
    The Senate is a very demanding place to work, whether it is 
behind-the-scenes requirements that allow both Senate floor and 
the committees to proceed to operate smoothly, or maintaining 
the infrastructure that allows our staffs to do their jobs 
efficiently, or ensuring the safety of everyone who enters the 
Capitol Grounds against the daily threats and those who visit 
the Capitol Grounds, as well.
    We're grateful to all of the men and women who keep the 
Senate operating flawlessly, except for the floor, and the 
Capitol a safe place to work and to visit every day.
    Ms. Erickson, we are pleased to have you here this 
afternoon, and I look forward to your testimony. For fiscal 
year 2013, your office is requesting a total of $30.1 million, 
which is the same level of funding recently provided to your 
office in fiscal year 2012. You are requesting $4.2 million for 
the Senate Information Services (SIS) program, which was 
transferred to your office from the SAA in fiscal year 2011.
    I look forward to hearing more about the specifics of your 
budget request, and how you are clearly doing more with less, 
because, obviously, that is what you are doing.
    I also look forward to receiving an update on the progress 
of the new Senate payroll system.
    Mr. Gainer, first I want to commend you for your handling 
of the recent mail threats. It was a matter of grave concern 
for all who work here and who visit here. We have come a long 
way since the anthrax attack, and your diligence in keeping our 
staffs who handle the mail safe is greatly appreciated by all 
of our colleagues across the entire Senate.
    SAA's requests for fiscal year 2013 total $205 million, an 
increase of $1.7 million more than the fiscal year 2012 enacted 
level. I look forward to hearing your priorities, given the 
tight budget that you submitted.
    Finally, Chief Morse, your fiscal year 2012 request totals 
$373.8 million, which is an increase of $34 million, or 10 
percent more than the fiscal year 2012 enacted level.
    Clearly, we're going to need to look carefully at the 
request, given how tight the budgets are going to be and 
continue to be in fiscal year 2013.
    In particular, we will be reviewing your request for 
overtime, given that it is a 15-percent increase when you 
include your overtime costs that are in the Architect of the 
Capitol's (AOC) budget.
    Further, your request for a total increase of $5.1 million 
in overtime is in addition to your request to increase your 
total number of sworn officers by 17. I look forward to 
receiving an update on the radio modernization project, as 
well.
    In anticipation that Senator Hoeven will be here shortly, 
perhaps we can go ahead and begin with the witnesses. As 
always, we try to hold the statements to about 5 minutes, but 
it is not a hard-and-fast rule. It is just sort of a guideline.
    With that in mind, Ms. Erickson, the floor is yours.

                  SUMMARY STATEMENT OF NANCY ERICKSON

    Ms. Erickson. Chairman Nelson, I appreciate this 
opportunity to provide testimony on behalf of the Office of the 
Secretary. I ask that my statement, which includes our 
department reports, be included in the record.
    In 1789, the first Secretary of the Senate, Samuel Otis, 
was tasked with legislative, financial, and administrative 
responsibilities that remain the hallmark of our organization 
today. While Otis founded the office, Secretary Asbury Dickins, 
who served from 1836 until 1861, was credited with stabilizing 
the office with a staff of six people.
    After hearing Senator complaints about staff 
disorganization, Dickins prepared a manual of job descriptions 
and instructed his staff that their hours of business would be 
9 a.m. until 3 p.m., until such later hour as the Senate may 
remain in session, and that it would be expected of a gentleman 
of the office to be ready at all times.
    Today, I have the good fortune to be surrounded by a 
strong, but lean organization of men and women with 
institutional and subject expertise, who are always ready to 
serve the Senate, no matter the time of day. They are the 
people who support the legislative process, including the first 
female Senate parliamentarian; the people who process your 
office vouchers, I might add 23-percent faster than last year; 
the people who ensure our public Web site, www.senate.gov, is 
updated with the latest legislative and educational 
information; the people who counsel members and senior staff on 
employment laws, process staff security clearances, respond to 
staff research requests, implement the lobbying disclosure 
laws, and educate our Senate pages.
    I recognize that you have asked our legislative branch 
agencies to lead by example again. Our budget request for 
fiscal year 2013 is $30,101,459. The salary budget represents 
an increase of $91,000 more than fiscal year 2012 as a result 
of the costs associated with the cost-of-living adjustment. No 
increase is requested for operating expenses, and we have not 
requested an increase in the operating budget for the SIS 
program.
    From fiscal year 2008 to fiscal year 2011, our operating 
budget had remained flat, despite new statutory mandates. I 
believe this is a reflection of the careful spending decisions 
over the past few years.
    In fiscal year 2012, our operating budget was cut 19 
percent in order to shield cuts to the online research and new 
services provided to Senate staff through the SIS program. 
Despite the condition when the program was transferred from SAA 
to the Secretary's budget that there be a firewall between the 
SIS budget and the Secretary's budget, we knew the SIS program 
would not survive the magnitude of cuts last year. As a result, 
we felt we had no choice but to offer to take a larger cut in 
our operational budget in order to save online information 
services that Senate staff rely on to do their jobs.
    I hope to keep the firewall next year.
    Even though the SIS program was shielded from fiscal year 
2012 budget cuts, because of vendor price increases, we were 
still required to cut two information contracts from the 
program. My staff has projected that the overall cost of 
providing the current mix of research services to the Senate 
through fiscal year 2016 could escalate at a rate as much 2.8 
percent per year.
    With respect to our financial responsibilities, the 
Disbursing Office staff, along with our colleagues in the SAA 
technical support office, is working closely with the vendor 
that was awarded the SAA contract to implement the PeopleSoft 
payroll software. We're working extremely hard toward a fall 
implementation.
    I think it is fair to say that our staff is spread 
extremely thin while they continue with their enormous 
responsibilities to correctly administer the Senate's payroll 
twice a month.
    Mr. Chairman and Senator Hoeven, the Senate generates a 
great many records, some published, some not. As Secretary, it 
is my responsibility to oversee the regular transfer of Senate 
Committee records to the National Archives, where they can be 
preserved both for the Committees' future use and for 
historical research. The archivists in the Senate Historical 
Office are also providing advice to the individual Senators on 
how and where to archive the records of their own offices.
    The task has grown exceedingly more complex with the 
enormous expansion of electronic communications.
    Recently, President Obama directed all executive branch 
agencies to reform their records management to improve 
performance, accountability, and increase Government 
transparency by better documenting their actions and decisions. 
I am pleased to report that the Senate began well before and is 
well ahead of the executive branch. The Senate has preserved an 
average of 3,000 to 4,000 feet of textual records for each 
Congress. Those papers have been supplemented by 2.6 terabytes 
of electronic records that are stored at the Center for 
Legislative Archives.
    Finally, the Office of the Secretary continues to support 
the Senate's emergency preparedness program with our 
legislative partners. Our staff who support the chamber can 
vouch that years of training paid off on August 23, 2011, when 
an earthquake forced the temporary evacuation of the Capitol.
    The Senate was scheduled to convene in a pro forma session 
that day and did so at a nearby alternate facility with the 
support of SAA and the party secretaries.
    All materials required to support a session of the Senate 
had been remotely stored for just such an occurrence. Not since 
1814 had the Senate relocated to an alternate facility to 
conduct business.

                           PREPARED STATEMENT

    History happens every day in the Senate, and the 
Secretary's staff remains proud of our role in supporting the 
Senators and their staff in their important work, as well as 
preserving this institution's great history.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Nancy Erickson

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2013.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of each department of the office, 
their recent achievements, and their plans for the upcoming fiscal 
year.
    My statement includes:
  --presenting the fiscal year 2013 budget request;
  --implementing mandated systems, financial management information 
        system (FMIS), and the legislative information system (LIS);
  --continuity of operations planning; and
  --maintaining and improving current and historic legislative, 
        financial, and administrative services.
    <greek-l>sos deg.presenting the fiscal year 2013 budget request
    I am requesting a total fiscal year 2013 budget of $30,101,459. The 
request includes $24,285,115 in salary costs and $5,816,344 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $91,000 more than the fiscal year 2012 budget 
as a result of the costs associated with the annual cost of living 
adjustment. No increase is requested for our operating expenses. In 
addition, the operating budget for the administration of Senate 
Information Services (SIS) program that was assumed by this office in 
2011 has not been increased.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                       2012            2013
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $444,495        $444,495  ..............
    Administrative services.....................................       5,323,359       5,323,359  ..............
    Legislative services........................................          48,490          48,490  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       5,816,344       5,816,344  ..............
----------------------------------------------------------------------------------------------------------------

             <greek-l>sos deg.implementing mandated systems
    Two systems critical to our operation are mandated by law, FMIS and 
LIS, and I would like to spend a few moments on each to highlight 
recent progress, and to thank the committee for your ongoing support of 
both.

Financial Management Information System
    FMIS is used by approximately 140 Senate offices. Consistent with 
our strategic plan, the Disbursing Office continues to modernize 
processes and applications to meet the continued demand by Senate 
offices for efficiency, accountability, and ease of use. Our goals are 
to move to an integrated, paperless voucher system, improve the WebFMIS 
system, and make payroll and accounting system improvements.
    During fiscal year 2011, specific progress made on the FMIS project 
included two upgrades of WebFMIS:
  --FMIS 2011-2 was implemented in June 2011. This release included an 
        enhancement to electronic invoicing that allows an office (or 
        an auditor in the Disbursing Office) to split a single charge 
        on an invoice into two accounting lines. The expense summary 
        report (ESR) line entry module was also updated to implement 
        some minor enhancement and corrections. Release 2011-2 also 
        implemented the third of three major phases in WebPICS, which 
        effectively replaces and improves ADPICS (the mainframe 
        procurement application). The first two phases of WebPICS 
        provided functionality for requisitions and vouchers. This 
        release allowed purchase orders to be created, approved, and 
        posted.
      One of the larger changes in this release was the addition of 
        online access to the month end ledger statements (Statement of 
        Funding Authorization and Expense Activity). A pilot group was 
        given access to their May 2011 statements first. After positive 
        feedback, all offices were given access to their June 2011 
        statements, and paper distribution was eliminated.
  --FMIS 2011-3 was implemented in August 2011. The most significant 
        feature in release 2011-3 was the image viewer and repository 
        that allows users to attach documentation to their vouchers. A 
        pilot of three offices began attaching their supporting 
        documentation electronically only--the paper vouchers 
        themselves were still required to provide approving signatures. 
        Unfortunately, system performance for the auditors fell less 
        than acceptable levels, and Disbursing asked its pilot offices 
        to suspend testing until the issue was resolved. The matter was 
        quickly identified, and we are now positioned to scale up for a 
        Senate-wide rollout. Initial testing at the end of the year 
        showed a vast improvement.
      The most significant improvement to WebPICS was the 
        implementation of an insufficient funds limitation, on the 
        submission and approval of requisitions. The entry of specific 
        limits will be rolled out in 2012. After this release, the 
        information technology (IT) section discontinued granting new 
        procurement users access to mainframe ADPICS.
    The computing infrastructure for FMIS is provided by the Sergeant 
at Arms (SAA). Each year SAA staff upgrades the infrastructure hardware 
and software. During 2011, SAA implemented two upgrades to the FMIS 
infrastructure. These included a maintenance update to the database 
(DB2), and a maintenance update to the mainframe operating system (Z/
OS).
    In October 2010, a task order for the adding document imaging and 
electronic signatures to WebFMIS was signed. This task order outlines 
work to be completed between then and spring 2013 in three phases. The 
revised schedule is:
  --Phase 1.--Imaging only pilot--fall 2011;
  --Phase 2.--Office imaging and signatures pilot (March 2012), and 
        full roll-out (June 2012); and
  --Phase 3.--Staffer imaging and signatures pilot (fall 2012), and 
        rollout (spring 2013).
    During 2008, the Disbursing Office and SAA worked together to 
develop detailed system requirements desired for our new payroll 
system. We reviewed several different products and in 2009 selected a 
new software program for the system. In March 2010, the Senate selected 
a system integrator to assist with implementing the new software. The 
system integrator began work on the project in November 2010 with a 
very aggressive implementation plan of 15 months.
  --The Senate Payroll System (SPS) includes several phases. The 
        initial phase is the implementation of functions for processing 
        payroll and managing Senate office budgets and payroll 
        projections. The second phase is to implement and conduct a 
        pilot test for self-service applications which will allow 
        Senate employees to enter and change certain personal data and 
        benefits selections. The third phase will be replacement of the 
        current Senate Office Personnel System (SOPS).
  --The first phase of the project is currently scheduled to go live 
        the first week of September. The systems integrator has 
        experienced several delays in the course of the project. As the 
        project lead, SAA has maintained a close review of contract 
        expenditures and is working closely with the vendor to ensure 
        costs remain within the existing contracted levels.
    During the remainder of fiscal year 2012 the following FMIS 
activities are anticipated:
  --Coordinating with SAA the timeframes for the implementation of the 
        smart card ID project for electronic signatures;
  --Continuing the implementation and the required updates to the 
        Hyperion Financial Management application to provide the Senate 
        the ability to produce auditable financial statements;
  --Continuing the implementation of online financial reports;
  --Participating in the yearly disaster recovery test;
  --Implementing FMIS 2012-1, which includes imaging infrastructure 
        upgrade and voucher printing fixes;
  --Implementing FMIS 2012-2, imaging and signatures roll out--this 
        release will provide capacity and stability enhancements to 
        support rollout to all offices and committees, as well as 
        enhancements to the pilot functionality based on feedback 
        gained through user group meeting and training sessions and new 
        ESR functionality;
  --Continuing with SPS implementation, conversion, training and user 
        acceptance, and parallel testing for Phase I; and
  --Reviewing existing systems and develop a long-term modification and 
        replacement plan for key financial systems.
    Anticipated projects for fiscal year 2013:
  --Implementing FMIS 2013-1, deployment of an imaging and electronic 
        signatures pilot for staffers;
  --Implementing FMIS 2013-2, deployment of an imaging and electronic 
        signatures pilot for all Senate staff;
  --Continuing to coordinate with SAA and participate in the yearly 
        disaster recovery activities;
  --Continuing to support the SAA in any upgrades to the infrastructure 
        software and hardware; and
  --Continuing with the postimplementation support for SPS and the roll 
        out of Phase II--employee self-service.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.
                  <greek-l>sos deg.legislative offices
    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of Members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, responsible for overall coordination, 
supervision, scheduling, and cross-training. The department consists of 
eight offices:
  --the Bill Clerk;
  --Captioning Services;
  --the Daily Digest;
  --the Enrolling Clerk;
  --the Executive Clerk;
  --the Journal Clerk;
  --the Legislative Clerk; and
  --the Official Reporters of Debates.

Summary of Activity
    The Senate completed its legislative business and adjourned on 
January 3, 2012. During the first session of the 112th Congress, the 
Senate was in session 170 days, conducted 235 rollcall votes and 5 live 
quorum calls. There were 185 measures reported from committees and 17 
special reports submitted to the Senate. There were 402 total measures 
passed or agreed to. In addition, there were 1,467 amendments submitted 
to the desk.

Cross-Training and Continuity of Operations Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately one-half of the legislative staff are 
currently involved or have recently been involved in cross-training.
    Each office and staff within the Legislative Department 
participated in numerous ongoing Continuity Of Operations (COOP) 
discussions and exercises, including an off-site mock session, 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary, the party secretaries, 
the U.S. Capitol Police (USCP), and SAA.

Succession Planning
    The average number of years of Senate service among the Secretary's 
Legislative Department supervisors is 22 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors because of the unique nature of the Senate as a legislative 
institution. The arcane practices and voluminous precedents of the 
Senate make institutional experience and knowledge extremely valuable.

                      <greek-l>sos deg.BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices through the LIS. The Bill Clerk records 
actions of the Senate with regard to bills, resolutions, reports, 
amendments, cosponsors, Public Law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Bill Clerk's Office is generally regarded as the most timely and most 
accurate source of legislative information.

Assistance From the Government Printing Office
    The Bill Clerk's Office maintains an exceptionally good working 
relationship with Government Printing Office (GPO) and seeks to provide 
the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's request, 
through the Bill Clerk's Office, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
chamber.

Legislative Activity
    For comparative purposes, the following table provides summaries of 
the first sessions of the 111th and 112th Congresses:

----------------------------------------------------------------------------------------------------------------
                                                                       111th           112th
                                                                   Congress, 1st   Congress, 1st    Percentage
                                                                      Session         Session         change
----------------------------------------------------------------------------------------------------------------
Senate bills....................................................           2,920           2,031          -30.44
Senate joint resolutions........................................              25              33          +32.00
Senate concurrent resolutions...................................              48              33          -31.25
Senate resolutions..............................................             387             351           -9.30
Amendments submitted............................................           3,298           1,467          -55.52
House bills.....................................................             382             188          -50.79
House joint resolutions.........................................              10               7          -30.00
House concurrent resolutions....................................              67              23          -65.67
Measures reported...............................................             199             185           -7.04
Written reports.................................................             113             130          +15.04
                                                                 -----------------------------------------------
      Total legislation.........................................           7,449           4,448          -40.29
                                                                 ===============================================
Rollcall votes..................................................             397             235          -40.81
House messages \1\..............................................             292             178          -39.04
Cosponsor requests..............................................           7,205           6,621           -8.11
----------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the
  Congressional Record. It excludes additional activity on these bills.

                  <greek-l>sos deg.CAPTIONING SERVICES

    The Office of Captioning Services provides real-time captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices on Webster, the Senate Intranet.

General Overview
    Captioning Services strives to provide the highest-quality closed 
captions. The overall accuracy average rate for the Office is a stellar 
99.57 percent. This marks the 18th year in a row the Office has 
achieved an accuracy rate more than 99 percent. Overall caption quality 
is monitored through daily translation data reports, monitoring of 
captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews, and reports were completed and archived in electronic form. 
Also, newspaper and magazine subscriptions used for preparation and 
research were cancelled to achieve added cost savings and replaced with 
already available electronic copies.
    The real-time searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for the entire 
Senate community. Legislative floor staff, in particular, continues to 
depend upon its availability, reliability, and contents to help them in 
the performance of their duties. The Senate caption log will undergo an 
upgrade during 2012, and work has begun to develop and enhance the 
software while maintaining the accuracy and dependability the Senate 
community has come to expect from the caption log.

Continuity of Operations Planning
    COOP planning and preparation continue to be a top priority to 
ensure that the Office is prepared and confident about the ability to 
relocate and successfully function from a remote location in the event 
of an emergency. Continual updates and review of the COOP plan and 
discussion with staff throughout the year prepare individuals to have 
confidence if called upon to execute the plan. The Office participates 
with the Senate Recording Studio in two off-site location exercises 
related to COOP annually and also tests monthly the reliability of 
equipment and readiness of staff to relocate to additional sites in the 
event of an emergency.

                     <greek-l>sos deg.DAILY DIGEST

    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the first session of the 
112th Congress.

Chamber Activity
    The Senate was in session a total of 170 days, for a total of 1,101 
hours and 44 minutes. There were five quorum calls and 235 record 
votes. (See the following chart for 20-Year Comparison of Senate 
Legislative Activity).

                                                                      20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1992          1993          1994          1995          1996          1997          1998          1999          2000          2001
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................           1/3           1/5          1/25           1/4           1/3           1/3          1/27           1/6          1/24           1/3
Senate adjourned....................................          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20
Days in session.....................................           129           153           138           211           132           153           143           162           141           173
Hours in session....................................      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"
Average hours per day...............................           8.5           8.3           9.0           8.7           7.8           7.1           7.7           7.3           7.2           7.1
Total measures passed...............................           651           473           465           346           476           386           506           549           696           425
Rollcall votes......................................           270           395           329           613           306           298           314           374           298           380
Quorum calls........................................             5             2             6             3             2             6             4             7             6             3
Public Laws.........................................           347           210           255            88           245           153           241           170           410           136
Treaties ratified...................................            32            20             8            10            28            15            53            13            39             3
Nominations confirmed...............................        30,619        38,676        37,446        40,535        33,176        25,576        20,302        22,468        22,512        25,091
Average voting attendance...........................          95.4          97.6         97.02         98.07         98.22         98.68         97.47         98.02         96.99         98.29
Sessions convened before 12 noon....................           112           128           120           184           113           115           109           118           107           140
Sessions convened at 12 noon........................             6             6             9             2            15            12            31            17            25            10
Sessions convened after 12 noon.....................            10            15            17            12             7             7             2            19            24            21
Sessions continued after 6 p.m......................            91           100           100           158            88            96            93           113            94           108
Sessions continued after 12 midnight................             9             7             3             1  ............  ............  ............  ............             2             3
Saturday sessions...................................             2             2             3             5             1             1             1             3             1             3
Sunday sessions.....................................  ............  ............  ............             3  ............             1  ............  ............             1  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2002          2003          2004          2005          2006          2007          2008          2009          2010          2011
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................          1/23           1/7          1/20           1/4           1/3           1/4           1/3           1/6           1/5           1/5
Senate adjourned....................................         11/20          12/9          12/8         12/22          12/9         12/31           1/2         12/24         12/22        1/3/12
Days in session.....................................           149           167           133           159           138           189           184           191           158           170
Hours in session....................................      1,04323"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"      1,42039"      1,07440"      1,10144"
Average hours per day...............................           7.0           8.7           7.7           7.7           7.4           7.2          5.37          7.44           6.8           6.5
Total measures passed...............................           523           590           663           624           635           621           589           478           569           402
Rollcall votes......................................           253           459           216           366           279           442           215           397           299           235
Quorum calls........................................             2             3             1             3             1             6             3             3             8             5
Public Laws.........................................           241           198           300           169           313           180           280           125           258            90
Treaties ratified...................................            17            11            15             6            14             8            30             1             6             2
Nominations confirmed...............................        23,633        21,580        24,420        25,942        29,603        22,892        21,785        23,051        23,327        19,815
Average voting attendance...........................         96.36         96.07         95.54         97.41         97.13         94.99         94.36         96.99         95.88         97.08
Sessions convened before 12 noon....................           119           133           104           121           110           156           147           148           116           127
Sessions convened at 12 noon........................            12             4             9             1             4             4             4             2             6             4
Sessions convened after 12 noon.....................            23            23            21            36            24            32            33            41            36            39
Sessions continued after 6 p.m......................           103           134           129           120           129           144           110           152           116           120
Sessions continued after 12 midnight................             8             2             3             3             4             4             2             2             1             1
Saturday sessions...................................  ............             1             2             2             2             1             3             5             2             2
Sunday sessions.....................................  ............             1             1             2  ............             1             1             4             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity
    Senate committees held a total of 939 meetings during the first 
session, of the 112th Congress, as contrasted with 827 meetings during 
the second session, of the 111th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Daily Digest and are published 
in the Congressional Record, on the Digest's Web site on Senate.gov, 
and LIS, the Web-based applications system. Meeting outcomes are also 
published by the Daily Digest in the Congressional Record each day and 
continuously updated on the Web site.

Computer Activities
    The Daily Digest staff continues to work closely with Senate 
computer staff to refine the LIS/document management system (DMS), 
including further refinements to the Senate Committee Scheduling 
application which will improve the data entry process.

                    <greek-l>sos deg.ENROLLING CLERK

    The Enrolling Clerks prepare, proofread, input amendments, and 
print all legislation passed by the Senate prior to its transmittal to 
the House of Representatives, the National Archives, the Secretary of 
State, the United States Claims Court, and the White House.
    During the first session of the 112th Congress the Enrolling 
Clerk's office prepared the enrollment of 20 Senate bills (transmitted 
to the President); 4 Senate enrolled joint resolutions (transmitted to 
the President); 8 Senate concurrent resolutions (transmitted to the 
National Archives); and 143 Senate appointments (transmitted to the 
House of Representatives). In addition, 192 House of Representatives 
bills, 25 House Concurrent Resolutions, 7 House Joint Resolutions, and 
three conference reports were either amended, passed, or acted on by 
the Senate requiring the Enrolling Clerk's office staff to process 
hundreds of amendments in a tightly managed schedule prior to messaging 
the legislation to the House of Representatives for further action. In 
all, there were 69 messages delivered to the Clerk's office and 42 
delivered to the House Chamber by the Enrolling Clerk's office relative 
to Senate action and passage of legislation. The Enrolling Clerk's 
office also delivered to the House Clerk's office of approximately 62 
House enrolled bills and 4 House joint resolutions after they had been 
signed by the President pro tempore as customary.
    A total of 402 pieces of legislation were passed or agreed to 
during the first session of the 112th Congress. Many other Senate bills 
were placed on the calendar, all of which were processed in the 
Enrolling Clerk's office including 61 Senate engrossed bills, 4 joint 
resolutions, 17 concurrent resolutions, and 234 Senate simple 
resolutions. The Enrolling Clerk's office keeps the original official 
copies of bills, resolutions, and appointments from the Senate floor 
through the end of each Congress. At the end of each Congress, the 
Enrolling Clerk's office carefully organizes all official papers 
sequentially in archival boxes, each labeled accordingly, accompanied 
by a report detailing the contents of each box which are then 
transmitted to the Senate Archivist for proper storage at the National 
Archives.
    The Senate Enrolling Clerk's office is also responsible for 
transmitting the original files of all Senate bills and resolutions 
engrossed and enrolled in the Senate to GPO.

Continuity of Operations Planning
    The Enrolling Clerks participated in two continuity of operations 
(COOP) exercises in 2011. In addition to testing printers for the COOP 
fly-away kits, the exercises also encompassed the important details of 
our operations necessary for the engrossment and enrollment of 
legislation involving the use of printers and specific paper stock 
supplied by GPO.

                    <greek-l>sos deg.EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's office processes all executive 
communications, presidential messages and petitions and memorials.

Nominations
    During the first session of the 112th Congress, there were 1,200 
nomination messages sent to the Senate by the President, transmitting 
20,517 nominations to positions requiring Senate confirmation and 23 
messages withdrawing nominations sent to the Senate during the first 
session of the 112th Congress. Of the total nominations transmitted, 
503 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 3,469 nominees in 
the ``civilian list'' categories named previously. Military nominations 
received this session totaled 16,545 (5,983 B Air Force; 5,908 B Army; 
3,405 B Navy and 1,249 B Marine Corps). The Senate confirmed 19,815 
nominations this session. Pursuant to the provisions of paragraph six 
of Senate Rule XXXI, 12 nominations were returned to the President 
during the first session of the 112th Congress.

Treaties
    There were four treaties transmitted to the Senate by the President 
during the first session of the 112th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 112-1 through 112-4).
    The Senate gave its advice and consent to two treaties with various 
amendments, conditions, declarations, understandings and provisos to 
the resolutions of advice and consent to ratification.

Executive Reports and Rollcall Votes
    There were five executive reports relating to treaties ordered 
printed for the use of the Senate during the first session of the 112th 
Congress (Executive Report 112-1 through 112-5). The Senate conducted 
51 rollcall votes in executive session, all on or in relation to 
nominations and treaties.

Executive Communications
    For the first session of the 112th Congress, 4,400 executive 
communications, 62 petitions and memorials, and 35 Presidential 
messages were received and processed.

Environmental Impact
    In an effort to save money and eliminate the use of unnecessary 
paper, the Executive Clerk reduced the copies of treaties, executive 
reports of treaties, and the Executive Calendar printed for 
distribution as they are available online.

Online Archive of Executive Calendars
    At the request of committees and the public for more information on 
past nominations and treaties, an archive of Executive Calendars from 
1997 to present can now be viewed through Senate.gov. This historical 
information was compiled by the Senate Library through files provided 
by the Executive Clerk. The Secretary's Office of Web Technology was 
responsible to converting and placing the archived files on the 
Senate.gov Web page. Calendars created prior to 1997 will be placed in 
the online archive as they are converted.

                     <greek-l>sos deg.JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV, and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting the following by hand for inclusion in the Minute Book:
  --all orders (entered into by the Senate through unanimous consent 
        agreements);
  --legislative messages received from the President of the United 
        States;
  --messages from the House of Representatives;
  --legislative actions as taken by the Senate (including motions made 
        by Senators, points of order raised, and rollcall votes taken);
  --amendments submitted and proposed for consideration;
  --bills and joint resolutions introduced; and
  --concurrent and Senate resolutions as submitted.
    These notes of the proceedings are then compiled in electronic form 
for eventual publication of the Senate Journal at the end of each 
calendar year. Compilation is efficiently accomplished through 
utilization of the LIS Senate Journal Authoring System. The Journal 
Clerk completed production of the 925-page calendar year 2010 volume in 
2011, and it is anticipated that work on the calendar year 2011 volume 
will conclude by September 2012.

Continuity of Operations Planning
    In 2011, in support of the Office of the Secretary's commitment to 
continuity of operations programs, the Office of the Journal Clerk 
participated in the annual Chamber Protective Actions/Briefing Center 
exercise, the alternate chamber exercise in May, and legislative staff-
specific exercises. Real-world implementation of emergency procedures 
occurred when the Senate met in an alternate location in the immediate 
aftermath of the August earthquake. Additionally, monthly tests of 
BlackBerry emergency notification and laptop remote access procedures 
are conducted. The Journal Clerk continued the practice of scanning the 
daily Minute Book pages into a secure directory. The files are also 
copied onto a flash drive storage device weekly, and transported off-
site each night. Although the actual Minute Books for each session of a 
Congress are sent to the National Archives a year following the end of 
a Congress, having easily accessible files, both on a remote server and 
on portable storage device, will ensure timely reconstitution of the 
Minute Book data in the event of damage to, or destruction of, the 
physical Minute Book.

Cost Savings
    In 2011, the Office of the Journal Clerk undertook efforts to 
reduce already-conservative consumption of paper volume used in a 
traditionally paper-driven office. Lesser consumption of paper used in 
the office resulted from reduction in printing of draft copies of work 
product as updated, and from elimination of the paper copies of daily 
Minute Book pages used by the Journal Clerk team in production of the 
Senate Journal, by the Daily Digest office in compiling statistics, and 
the Senate Library, for reference by Senate staff. Instead, electronic 
copies are accessed via an office network drive and are emailed to the 
Library and Daily Digest staffs.

             <greek-l>sos deg.OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to GPO. Much of the transcript of Senate floor proceedings and Morning 
Business is sent to GPO electronically to allow for production of the 
Record in a cost conscious and timely manner. In most instances, the 
paper copy of the Record is delivered by GPO within 2 to 3 hours of its 
content being placed on the Internet at approximately 7 a.m. every day.
    The Chief Reporter, in conjunction with Senate office and committee 
staff, works to ensure compliance with the ``2-page rule'' to cut down 
on the printing costs of the Record by controlling the amount of 
extraneous printing to be done by GPO. As a result, these materials are 
often condensed so as not to exceed the rule and/or are cited and 
printed on Web sites with referencing so that they are available to the 
interested public.
    The Official Reporters of Debate purchased three new ProCat Stylus 
stenotype machines for continuity of operations purposes. This purchase 
also allows this office to have a stenotype machine in reserve should a 
malfunction occur with a machine used for the daily floor proceedings.

                    <greek-l>sos deg.PARLIAMENTARIAN

    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staff, 
as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, and unanimous consent agreements, 
as well as provisions of Public Law affecting the proceedings of the 
Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of her assistants is 
always present on the Senate floor when the Senate is in session, ready 
to assist the Presiding Officer in his or her official duties, as well 
as to assist any other Senator on procedural matters. The 
parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as President of the Senate.
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President. The parliamentarians are a critical 
point of contact for emergency planning for representatives of the 
President.
    The parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes or standing orders. The 
parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate floor, and monitor them for points of 
order. In this respect, the parliamentarians reviewed more than 1,400 
amendments during 2011 to determine if they met various procedural 
requirements (such as germaneness).
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. During 2011, the parliamentarians referred 2,203 measures and 
4,496 communications to the appropriate Senate committees. The office 
worked extensively with Senators and their staffs to advise them of the 
jurisdictional consequences of countless drafts of legislation, and 
evaluated the jurisdictional effect of proposed modifications in 
drafting.
    During 2011, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Trade Act of 1974, the Congressional Review 
Act, and many other provisions of law that authorize special procedural 
consideration of measures.
    In the early weeks of 2011, the parliamentarians held many meetings 
with the proponents and opponents of changes to the Senate's rules and 
procedures, and counseled all interested parties in the intricacies of 
both the content of these proposals and the disputed processes for 
bringing about these changes. The Parliamentarian's Office was also 
heavily involved in the legislative procedures to address the debt 
ceiling and has been interpreting the text of what eventually became 
the language of the law ever since. Finally, in October 2011, the 
Senate confronted the issue of Motions to Suspend the Rules in a 
postcloture procedural situation in which the ruling of the Chair, 
given on the advice of this office, was overturned creating a new 
precedent for the Senate.
    The parliamentarians participated in multiple orientation sessions 
for new staff in 2011 as part of the ongoing effort to inform the 
Senate community about its various procedures and the avenues of 
assistance available to them. As in the past, the parliamentarians also 
conducted several briefings on Senate procedure to various groups of 
Senate staff and visiting international parliamentary staff, on a 
nonpartisan basis.

Continuity of Operations Planning
    The parliamentarians have taken the lead in the Senate in analyzing 
the need for emergency procedural authorities of the Congress 
generally, and the Senate in particular. The parliamentarians have each 
been trained on and successfully remotely accessed the office's 
computers and hard drives, facilitating communications, research, and 
other work after hours, and enabling them to have the office function 
during possible emergencies. The Parliamentarian's Office continues to 
participate extensively in emergency preparedness training for the 
Senate Chamber.
    Of note with respect to emergency procedures in 2011 was the 
earthquake that struck Washington, DC on August 23. The Senate was 
scheduled to hold a pro forma session that afternoon and of necessity 
was forced to hold a session outside of the Capitol building. The 
situation tested our emergency response protocols, and we are proud of 
our contributions that day to ensure the seamless functioning of the 
Senate in emergency situations.

                 <greek-l>sos deg.FINANCIAL OPERATIONS

                   <greek-l>sos deg.DISBURSING OFFICE

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the offices, Members, and employees of the 
United States Senate. The Senate Disbursing Office manages the 
collection of information from the distributed accounting locations 
within the Senate to formulate and consolidate the agency-level budget, 
disburse the payroll, pay the Senate's bills, and provide appropriate 
counseling and advice. The Senate Disbursing Office collects 
information from Members and employees that is necessary to maintain 
and administer the retirement, health insurance, life insurance, and 
other central human resource programs and provides responsive, personal 
attention to Members and employees on an unbiased and confidential 
basis. The Senate Disbursing Office also manages the distribution of 
central financial and human resource information to the individual 
Member offices, committees, administrative and leadership offices in 
the Senate while maintaining the confidentiality of information for 
Members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work; maintain a high level of customer service; promote good 
internal controls, efficiency, and teamwork; and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.

Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day-to-day operations of the Disbursing Office;
  --respond to any inquiries or questions;
  --maintain a fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments;
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration; 
        and
  --provide budget information and financial assistance to all 
        accounting locations within the Senate.
    During the first half of 2011, the Disbursing Office continued to 
offer administrative support to the Congressional Oversight Panel 
established by Public Law 110-343. Final payment from the Department of 
the Treasury was received in June, and this task order has been closed.
    The Disbursing Office, GPO, the Committee on Rules and 
Administration, and the Secretary of the Senate webmaster held meetings 
to finalize the development of the online version of the Report of the 
Secretary of the Senate for the 6-month period ending September 30, 
2011. On November 29, 2011, the online version of The Report was 
accessible on Senate.gov and the GPO Web site.
    The Budget Control Act of 2011, Public Law 112-25, authorized the 
establishment of the Joint Select Committee on Deficit Reduction (JSC). 
Section 401(b)(5) of the act authorized the Senate to disburse the 
actual and necessary expenses of the JSC. The Senate Disbursing Office 
is responsible for the payment of the expenses and the House of 
Representative has been billed for its respective share. The expenses 
for the JSC ceased with the termination of the Committee on January 31, 
2012.
    The Financial Clerk and senior Disbursing management have been 
attending status meetings held by our payroll implementers and received 
2 weeks of training on the new SPS. Disbursing is in the process of 
finalizing a final cutoff schedule for Phase I and is working closely 
with SAA, the project manager and the Committee on Rules and 
Administration to implement this new payroll system as seamlessly as 
possible.

Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in the group's daily 
operations. The reconciliation of such funds is executed on a daily 
basis. The Front Office staff also provides training to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits related forms, and is the initial verification point to ensure 
that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The Front Office is 
the first line of service provided to Senators, officers, and 
employees. All new Senate employees (permanent and temporary) who will 
work in the Capitol Hill Senate offices are administered the required 
Oath of Office and Personnel Affidavit in the Front Office. Staff is 
also provided verbal and written detailed information regarding pay and 
benefits. Advances are issued to Senate staff authorized for official 
Senate travel through the Front Office and cash and check advances are 
entered and reconciled in WebFMIS. After the processing of certified 
expenses is complete, cash travel advances are repaid.
    Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, and voucher processing to reporting, laws and Senate 
regulations; and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Office and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system. The Front Office maintains 
the Official Office Information Authorization Forms that authorize 
individuals to conduct various types of business with the Disbursing 
Office. The Front Office also provides Notary services for Members and 
staff. Nearly 500 documents were notarized for Members during 2011. We 
anticipate a larger number of documents to be notarized in 2012 as it 
will be an election year. Such items that will be notarized in 2012 are 
absentee ballots and primary election ballots.
    The Disbursing Office was relocated from August through November 
2011 due to the Disbursing Office renovation project. Preparations for 
the move took months of planning, purging, archiving, and packing. The 
Front Office successfully conducted business as usual during the moves 
and renovation. Success during this transition was truly a team effort 
and many sacrifices were made as the Disbursing Office operated out of 
three different locations. Our return was equally successful and staff 
members are enjoying the modern facilities.

General Activities
    Processed approximately 500 cash advances during the year and 
initialized more than 1,000 check/direct deposit advances.
    Received and processed more than 20,000 checks.
    Administered Oath of Office and Personnel Affidavits to more than 
1,600 new Senate staff and advised them of their benefits eligibility.
    Maintained brochures for 12 Federal health insurance carriers and 
distributed more than 3,000 brochures to existing staff during the 
annual Federal Benefits Open Season and to new Senate employees during 
their Federal Employees Health Benefits (FEHB) selection process.
    Assisted employees with electronic resources for researching and 
comparing benefit plans and programs, as we continue to move away from 
paper.
    Provided training sessions to 16 new and existing administrative 
managers and assisted them in getting their offices up and running.
    For the first time since 2009, the Internal Revenue Service (IRS) 
increased the annual limit on elective deferrals. This resulted in 
approximately 900 employees filing new Thrift Savings Plan (TSP) 
elections in December alone. Many customers sought assistance from the 
Front Office with the TSP calculations.
    The Front Office advises eligible staff of their TSP catch up 
provisions and advises enrollees of changes in their plans.
    Due to the congressional changeover, there was a large volume of S. 
Res. 9 certifications to be processed and monitored. This required 
additional processing of documentation to facilitate the continuance of 
compensation to certified employees.

Payroll Section
    The Payroll Section maintains the human resources management system 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees, and other appointing officials for their staff, including 
appointments of employees, salary changes, title changes, transfers, 
and terminations. It is also responsible for input of all enrollments 
and elections submitted by Members and employees that affect their pay 
(e.g., retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies, and garnishments) and for the issuance of accurate 
salary payments to Members and employees. The Payroll Section is 
responsible for the administration of the Senate Student Loan Repayment 
Program (SLP) and for the audit and reconciliation of the Flexible 
Spending Accounts (FSAs) and Federal Employees Dental and Vision 
Insurance Program (FEDVIP) bill files received each pay period. The 
Payroll Section jointly maintains the automated clearing house (ACH) 
FedLine facilities with the Accounts Payable Section for the normal 
transmittal of payroll deposits to the Federal Reserve. Payroll 
expenditure, projection, and allowance reports are distributed 
electronically to all Senate offices semimonthly. The Payroll Section 
issues the proper withholding and agency contribution reports to the 
Accounting Department and transmits the proper TSP information to the 
National Finance Center. In addition, the Payroll Section maintains 
earnings records, which are distributed to the Social Security 
Administration and employees' taxable earnings records, which are used 
for W-2 statements. This section, is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate 
and calculates, reconciles, and bills the Senate Employees Child Care 
Center for their staff employee contributions and forwards payment of 
those contributions to the Accounting Section. The Payroll Section 
provides guidance and counseling to staff and administrative managers 
on issues of pay, salaries, allowances, and projections.
            General Activities
    In January 2011, the Payroll Section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and Federal and State tax agencies. They also facilitated the 
imaging of those documents to the Document Imaging System. The Payroll 
Section maintained the normal schedule of processing TSP election 
forms. Other minor changes were made to the HRMS as the need arose as a 
result of regulated and policy changes.
    A major objective of the Payroll Section is the design and 
implementation of a new Payroll System. The Payroll staff participated 
in Fit-Gap sessions, development and design sessions, and one-on-one 
meetings to share their system expertise with the system implementers. 
The staff received extensive training and helped to develop 
requirements, business processes, and specifications. The staff 
provided procedural guidance and input on document and report design, 
interfaces, and customizations. The Payroll Section began duplication 
of all Payroll system documents for parallel testing that will occur in 
2012. Their continued participation, expertise, and dedication will be 
required as design, testing, and implementation efforts continue.
    In April 2011, the Payroll Section began extensive research and 
preparation for a potential furlough, including working with the SAA on 
plans to cease Senate pay to employees in the event of such an event, 
and the contingencies based on the anticipated potential outcomes.
    As a result of the 2011 congressional changeover, the Payroll 
Section provided assistance and guidance to the offices of the 13 
incoming and 13 outgoing Members. The Payroll staff also worked with 
the staff of a resigning and appointed Senator and administered 
provisions of S. Res. 9.
    Administration of the SLP includes initiation, tracking, and 
transmission of the payments; determination of eligibility; 
coordination and reconciliation with office administrators and program 
participants; provision of monthly SLP reports, fiscal year report to 
oversight committees; and administration of SLP repayment. Due to 
regulatory changes within the Department of Education, extensive vendor 
processing changes continue to be needed. This leads to a higher than 
usual need for payment tracking, reconciliation and check reissue. The 
SLP Administrator continues to improve processes for administration of 
the program and documenting procedures as well as implementation of 
procedural changes as required.

Employee Benefits Section
    The primary responsibilities of Employee Benefits Section (EBS) are 
administration of health insurance, life insurance, TSP, and all 
retirement programs for members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information, and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
the FSA program, the Federal Long Term Care Insurance Program (FLTCIP), 
and FEDVIP. In addition, the sectional work includes research and 
verification of all prior Federal service and prior Senate service for 
new and returning appointees. EBS provides this information for payroll 
input. It also verifies the accuracy of the information provided and 
reconciles, as necessary, when official personnel folders and 
transcripts of service from other Federal agencies are received. Senate 
transcripts of service, including all official retirement and benefits 
documentation, are provided to other Federal agencies when Senate 
Members and staff are hired elsewhere in the Government. EBS is 
responsible for the administration and tracking of employees placed in 
leave without pay to perform military service, including counseling 
with regard to continued benefits, TSP make-up contributions and 
reservist differential payments. EBS participates fully in the 
Centralized Enrollment Clearinghouse System (CLER) program sponsored by 
the Office of Personnel Management (OPM) to reconcile all FEHB 
enrollments with carriers through the National Finance Center. EBS is 
responsible for its own forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures, for the Disbursing 
Office. EBS processes employment verifications for loans, bar exams, 
the Federal Bureau of Investigation, OPM, and the Department of Defense 
(DOD), among others. Unemployment claim forms are completed and 
employees are counseled on their eligibility. Department of Labor 
billings for unemployment compensation paid to Senate employees are 
reviewed in EBS and submitted by voucher to the Accounting Section for 
payment, as are the employee fees associated with FSAs. Designations of 
Beneficiary for Federal Employees' Group Life Insurance (FEGLI), 
retirement, and unpaid compensation are filed and checked by EBS.
            General Activities
    The year began with EBS finalizing retirement estimates and 
processing many retirement cases associated with 13 outgoing Senators 
and their staffs, as well as those staff on committees who were 
affected by the changes. All outgoing offices were given an ``Outgoing 
Office Presentation'' by a member of the EBS. Many regular retirement, 
death, and disability cases were also processed throughout the year.
    EBS met with all new Senators to go over benefit choices available 
to them. New Members appointed numerous employees from the House of 
Representatives and the executive branch, and many other employees left 
with their outgoing Members, many of whom were appointed to positions 
in the executive branch. This caused a dramatic increase in 
appointments to be researched and processed, retirement records to be 
closed out, termination packages of benefits information to be compiled 
and mailed out, and health insurance enrollments to be processed. 
Transcripts of service for employees going to other Federal agencies, 
and other tasks associated with employees changing jobs were at a high 
level this year. These required prior employment research and 
verification, new FEHB, FEGLI, FSA, FEDVIP, Civil Service Retirement 
System, Federal Employees Retirement Service (FERS) and TSP 
enrollments, and the associated requests for backup verification. EBS 
also counseled many employees who were affected by these employment 
changes.
    FLTCIP experienced significant plan changes in 2009 with unexpected 
rate increases and the creation of FLTCIP 2.0. Due to the significant 
changes in the plan, FLTCIP held an Open Season (OS) in the spring of 
2011. EBS worked directly with our FLTCIP account manager, to inform 
Senate employees of the FLTCIP OS and what options were available to 
them. EBS attended meetings at OPM related to the FLTCIP OS and 
developed the Senate's plan for informing employees of their options. 
EBS created Senate wide emails announcing and reminding employees of 
the FLTCIP OS and what their options were and ordered OS materials 
including brochures and posters. EBS also created a 1-page summary of 
FLTCIP and the OS information to include in a mass mailing sent to all 
Senate employees. EBS worked with the Secretary's Webmaster to create 
an FLTCIP OS Webster page containing articles and links to assist 
employees with decisions regarding long-term care insurance as well as 
information on how to attend one of the webinars available to those who 
could not attend an in-person workshop. EBS organized two onsite 
workshops in which FLTCIP representatives explained what long-term care 
insurance is and what opportunities employees had during open season. 
The feedback from employees regarding these presentations was very 
positive. Our FLTCIP account manager was very pleased and impressed 
with our organized approach and the steps we took to inform Senate 
employees of the OS and stated that the Senate really went above and 
beyond to assist them with the FLTCIP OS.
    With the design and implementation of a new Payroll System 
underway, EBS has been extensively involved in participation in fit-gap 
sessions, design sessions, training, procedural review meetings, 
developmental sessions, data clean-up, and conference room pilots. EBS 
staff have provided their expertise in SME meetings. The staff has 
participated in development of specifications, customizations, 
configurations, interfaces, and needed reports. The staff have drafted 
and collected documentation relating to procedures and in preparation 
for the various testing phases. EBS staff has provided and continues to 
provide expertise and feedback throughout this process.
    Many employees changed health plans during the annual benefits open 
season. These changes were processed and reported to carriers very 
quickly. The Disbursing Office also hosted an Open Season Benefits 
Fair, which was informational and well-attended. The Benefits Fair 
included representatives from local and national FEHB plans, as well as 
representatives from FLTCIP, FSA, and FEDVIP.
    Beginning January 1, 2011, the Affordable Care Act extended health 
benefits to children until age 26. The Health Care Reform changes also 
redefined dependent eligibility rules for both FEHB and FSA. EBS 
fielded many calls regarding these changes and also took all necessary 
steps to update our Web page on Webster and all literature given out by 
the Disbursing Office to reflect these very important changes.
    EBS conducted agency-wide FERS seminars for Washington, DC area 
employees, as well as a live video seminar for offices located in the 
States. EBS attended interagency Benefits Officers and TSP meetings. 
This was especially important this year due to the many ongoing changes 
to many of the benefits programs, including the upcoming offering of a 
Roth investment option in the TSP program.

Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; and to provide 
professional customer service, training and confidential financial 
guidance to all Senate accounting locations. In addition, the Financial 
Management group is responsible for the compilation of the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations, and for the formulation, presentation and 
execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation, and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office Financial Management is segmented into three functional 
departments:
  --Accounting;
  --Accounts Payable; and
  --Budget.
    The Accounts Payable Department is further subdivided into three 
sections:
  --Vendor Administration;
  --Disbursements; and
  --Audit.
    The deputy coordinates the activities of the three functional 
departments, establishes central financial policies and procedures, and 
carries out the directives of the Financial Clerk and the Secretary of 
the Senate.

Accounting Department
    During 2011, the Accounting Department approved more than 55,000 
expense reimbursement vouchers and vendor uploads including deposits 
for items ranging from receipts received by the Senate operations, such 
as the Senate's revolving funds, to cancelled subscription refunds from 
Member offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all nonvoucher reimbursement 
transactions such as payroll adjustments, budget uploads, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements. The Department continues to scan all documentation for 
journal vouchers, deposits, accounting memos, and letters of 
certification to facilitate both storage concerns and COOP planning. 
The section also completed the 2011 year-end process to close and reset 
revenue, expense, and budgetary general ledger accounts to zero.
    The Disbursing Office also continued working with Member offices 
and the Senate Stationery Room to establish and design an online flag 
ordering system using the Department of the Treasury's Pay.gov system. 
The Member offices and Stationery went live in the production region of 
Pay.gov. As a result of this usage, we experienced almost a 30-percent 
increase in the volume of credit card transactions. Two more offices 
were slated to start using Pay.gov toward the spring of 2012, and the 
pilot is expected to expand to include additional offices during the 
upcoming year.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, 
Disbursing provides the ``Statement of Transactions According to 
Appropriations, Fund and Receipt Accounts,'' to the Department of the 
Treasury on a monthly basis. The statement is the summary of activity 
of all monies disbursed by the Secretary of the Senate through the 
Financial Clerk of the Senate. All activity by appropriation account is 
reconciled with the Department of the Treasury on a monthly and annual 
basis. The annual reconciliation of the Treasury combined statement is 
also used in the reporting to OMB as part of the submission of the 
annual operating budget of the Senate. The FAMIS system report, tested 
and implemented in 2010, was used in 2011 to calculate the Treasury 
Combined Statement which is used for the OMB budget submissions.
    The Accounting Department continues to transmit Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank through the 
IRS Electronic Federal Tax Payment System (EFTPS). EFTPS is also be 
used to transmit the quarterly 941 reports to the IRS. Payments for 
employee withholdings for State income taxes were reported and paid on 
a quarterly basis to each State with applicable State income taxes 
withheld. System modifications installed in 2008 allow ACH payment of 
quarterly State taxes has resulted in a 64-percent participation rate 
by taxing jurisdictions. Twenty-seven of 42 tax jurisdictions are 
receiving their quarterly State tax payments via ACH. System 
modifications are necessary to transmit the remaining 15 tax 
jurisdictions via ACH because of the unique State requirements for 
their transmissions. Monthly reconciliations were performed with the 
National Finance Center regarding the employee withholdings and agency 
matching contributions for the TSP.
    There are also internal reporting requirements, such as the monthly 
ledger statements. These ledger statements detail all of the financial 
activity for the appropriate accounting period with regard to official 
expenditures in detail and summary form. It is the responsibility of 
the Accounting Department to review and verify the accuracy of the 
statements before Senate-wide distribution. During 2011, the Accounting 
Department worked with the SAA computer staff to implement electronic 
distribution of these monthly reports. The reports have been 
distributed electronically since July 2011 as part of WebFMIS release 
2011-2.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department in creating Senate-wide 
financial statements in accordance with OMB Bulletin 01-09, ``Form and 
Content of Agency Financial Statements'' and any updates required by 
OMB Circular A-136, ``Form and Content of the Performance and 
Accountability Reports.'' Work continues toward the implementation of 
the fixed asset system and the financial management software has been 
upgraded and the license renewed.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance, and distribution 
of the budget justification worksheets. The budget justification 
worksheets for fiscal year 2013 were mailed to the Senate accounting 
locations and processed in November 2011. The budget baseline estimates 
for fiscal year 2013 were reported to OMB by mid-January 2012. The 
budget analyst is also responsible for the preparation of 1099s and the 
prompt submission of forms to the IRS before the end of the January.

Accounts Payable: Vendor Administration
    The Vendor Administration Section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's Web-based payment tracking system. This section 
also assists the IT department by performing periodic testing and by 
monitoring the performance of the vendor system. Currently, more than 
17,300 vendor records are stored in the vendor file, in addition to 
approximately 10,000 employee records. Daily requests for new vendor 
addresses or updates to existing vendor information are processed 
within 24 hours of receipt. Besides updating mailing addresses, the 
section facilitates the use of ACH by switching the mode of vendor 
payment from paper check to electronic deposit. Whenever a new 
remittance address is added to the vendor file, a standard letter is 
mailed to the vendor requesting tax and banking information, as well as 
contact and email information. If a vendor responds indicating they 
would like to receive ACH payments in the future, the method of payment 
is changed.
    All WebFMIS users are using the Staffer Functionality exclusively, 
and new offices are automatically established with it. Senate employees 
can electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments using 
this system. The most common service requests are for system user 
identification and passwords and for the reactivation of accounts. 
Employees may also request an alternative expense payment method. 
Employees can choose to have their payroll set up for direct deposit or 
paper check, but can have their expenses reimbursed by a method that 
differs from their salary payment method.
    The Vendor section works closely with the Accounts Payable (A/P) 
Disbursements group to resolve returned ACH payments. ACH payments are 
returned periodically for a variety of reasons, including incorrect 
account numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor section electronically scans and stores all supporting 
documentation of existing vendor records and new vendor file requests. 
When this section receives replies asking for ACH participation, the 
vendors are asked if they wish to be notified by email when payments 
are sent. Currently, more than 95 percent of ACH participants also 
receive email notification of payment.
    During 2011, the Vendor section processed more than 2,100 vendor 
file additions, completed more than 2,700 service requests, mailed 
approximately 950 vendor information letters, and converted more than 
400 vendors from check payment to electronic payment.

Accounts Payable: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received approximately 108,000 vouchers. All of these items were paid 
by the department via Treasury check or ACH. Multiple payments to the 
same payee are often combined. As a result, 17,000 checks were issued, 
while 69,700 ACH payments were required. The volumes of both were down 
slightly from the previous year which is a reflection of newly elected 
Senators starting out and others leaving.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and one 
prior period, as space is limited, due mainly to the office renovation 
which took place in the fall. One result is that more documents are 
stored in the Senate Support Facility (SSF). The inventoried items are 
sorted and recorded in a database for easy document retrieval. Document 
retrieval missions increased, but were successfully conducted, and the 
department continues to work closely with warehouse personnel. The 
renovated area has led to more efficient use of space here and at the 
SSF.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which nonreceipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through ACH. The department maintains a spreadsheet that 
tracks cases of nonreceipt of salary checks, including stop payment 
requests and re-issuance.
    The department also prepares the stop payments forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming nonreceipt of expense checks. The Treasury Check 
Information System (TCIS) allows the department to electronically 
submit stop-payment requests and provides online access to digital 
images of negotiated checks for viewing and printing. Once a check is 
viewed, it is printed and may be scanned. Scanned images are then 
forwarded to the appropriate accounting locations via email. During 
2011, approximately 500 digital images of negotiated checks were 
provided, and an additional 77 requests were received for stop 
payments. The stop payment volume is a significant reduction of 39 
percent from 2010, and is attributable to increased ACH payment and 
TCIS check copy retrieval. TCIS saves the Disbursing Office time, a 
$7.50 processing fee for each request, is Web-based, and is accessible 
from multiple workstations in Disbursing.

Accounts Payable: Audit Department
    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System; and 
assists in the production of the Report of the Secretary of the Senate. 
The Report was issued electronically for the first time in November 
2011, concurrent with the printed version. The printed version is 
available as always, and the online version is available through the 
Senate and GPO Web sites.
    The section is organized at three different levels. The first level 
is the supervisor. In addition to performing managerial tasks, the 
supervisor also audits and sanctions vouchers as needed, and 
coordinates testing related to system implementation and upgrades. 
Eleven auditors process all incoming vouchers and uploads, and 3 of 
them have the authority to sanction, on behalf of the Committee on 
Rules and Administration, vouchers not exceeding $100. They also 
sanction all travel and petty cash advances as well as non-Contingent 
Fund items such as Legal Counsel, Legislative Counsel, and the Office 
of Congressional Accessibility Services, as well as the for the 
Congressional Oversight Panel.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion and petty cash advances must be repaid whenever new 
funding authority is established. The system accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect. In addition 
to other functionality, an advance type of petty cash was created and 
is in use. Regular petty cash audits are performed by the section, and 
all petty cash accounts were successfully audited in 2011.
    The Accounts Payable Audit Section processed more than 108,000 
expense items in 2011. Audit sanctioned approximately 53,000 vouchers 
under authority delegated by the Committee on Rules and Administration. 
This translates to roughly 9,800 vouchers processed per auditor, and 
10,500 vouchers posted per certifier. The voucher processing consisted 
of providing interpretation of Senate rules, regulations and statutes 
and applying the same to expense claims, monitoring of contracts, and 
direct involvement with the Senate's central vendor file. On average, 
vouchers greater than $100 that do not have any issues or questions are 
received, audited, and/or sanctioned electronically by the Senate 
Committee on Rules and Administration using WebFMIS, and are expected 
to be paid within 8 to 10 business days. These vouchers comprised 
approximately 50 percent of all vouchers, and, as in the previous year, 
Disbursing passed two postpayment audits performed by the Committee on 
Rules and Administration for items of $100 or less. In 2011, the 
average for Committee on Rules and Administration-sanctioned items was 
4.83 days, and the average for Disbursing sanctioned items was 2.73 
days, roughly 12-percent faster overall and 23-percent faster than the 
previous year.
    Uploaded items are of two varieties:
  --certified expenses; and
  --vendor payments.
    Certified expenses have been around since the 1980s, and include 
items such as stationery, telecommunications, postage, and equipment. 
Currently, the certifications include mass mail, franked mail, excess 
copy charges, Photography Studio, and Recording Studio charges. 
Expenses incurred by the various Senate offices are certified by SAA to 
the Disbursing Office on a monthly basis. The expenses are detailed on 
a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. Except for 
telecommunications charges, concentrated effort is put forth to ensure 
certified items appear as paid in the same month they are incurred. 
Telecommunications charges usually run 1 month behind as the SAA must 
wait for the bills from external vendors.
    Vendor uploads are used to pay vendors for the Senate Stationery 
Room, Senate Gift Shop and State office rentals, and refund security 
deposits for the Senate Page School. The methodology is roughly the 
same as that for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State office rents are generally paid a few days 
prior to the month of the rental, which is consistent with the general 
policy of paying rent in advance.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems: the process for generation of expense claims and 
the permissibility of expenses. They also participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress. The section trained 13 new administrative managers and chief 
clerks and conducted five informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The Accounts Payable group also routinely assists the IT department and 
other groups as necessary in the testing and implementation of new 
hardware, software, and system applications. The implementation of 
WebFMIS 2011-1 enhanced document creation and document search. WebFMIS 
2011-2 enhanced the expense summary report and electronic invoicing. 
WebFMIS 2011-3 allowed the SAA to use a Web-based system more 
extensively for purchase orders and requisitions and created new 
posting logic as well as increased system security.
    The Accounts Payable Department has participated in the testing of 
the new imaging project that the IT department has been tasked with. 
The staff has provided valuable feedback to the IT department on system 
problems, system restraints, and areas that need improvement. A/P has 
devoted a lot of time in detailing system problems and reporting them 
to the IT department. There were several performance problems 
experienced during the first testing phase, resulting in the project's 
suspension until system performance could be improved.
    The Accounts Payable Department has participated and helped to 
design an itinerary wizard. A/P consistently provided feedback about 
itinerary situations and variables to aid the IT department with this 
project.

Disbursing Office Information Technology
            Financial Management Information System
    The Disbursing Office Information Technology department provides 
both functional and technical assistance for all Senate financial 
management activities. Activities revolve around support of WebFMIS 
which is used by staff in all Senate accounting locations (i.e., Senate 
personal offices, committees, leadership and support offices, the 
Office of the Secretary of the Senate, the SAA, the Senate Committee on 
Rules and Administration Audit section, and the Disbursing Office).
    Responsibilities of the department include:
  --supporting current systems;
  --testing infrastructure changes;
  --maintaining contact with system users to ensure their needs are 
        met;
  --managing and testing new system development;
  --implementing changes for the 112th Congress;
  --planning upgrades to systems and hardware;
  --managing the FMIS project, including contract management;
  --administering the Disbursing Office's local area network (LAN); and
  --coordinating the Disbursing Office's disaster recovery activities.
    The Disbursing Office is the ``business owner'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office utilizes the support of a contractor, along with the SAA who 
are responsible for operational support and application development. 
The three organizations work cooperatively.
    Highlights of the year include:
  --supporting more than 4,800 FMIS users, of which 87 percent are 
        staff preparing ESRs;
  --implementing two releases of FMIS, including one pilot for 
        attaching imaged documentation to vouchers, and completing the 
        move to Web-based interfaces for the SAA;
  --implementing an improvement to the WebFMIS reporting extract 
        program;
  --testing infrastructure changes that included upgrades to the Z/OS 
        and the DB2;
  --increasing the number of offices using the electronic invoicing 
        module--there are now 41 offices participating;
  --implementing changes for the 112th Congress;
  --resuming the effort to convert all user identification to a format 
        that does not include any portion of an individual's SSN--this 
        effort will continue into 2012.
            Supporting Current Systems
    IT supports WebFMIS users in all accounting locations, the 
departments in the Disbursing Office (e.g., A/P, Accounting, 
Disbursements, Vendor Administration, and Front Office sections), and 
the Senate Committee on Rules and Administration Audit staff. The 
activities associated with this responsibility include:
      User Support.--
      --providing functional and technical support to all Senate FMIS 
            users;
      --staffing the FMIS help desk;
      --answering hundreds of questions; and
      --meeting with chiefs of staff, administrative managers, chief 
            clerks, and directors of various Senate offices as 
            requested;
      Technical Problem Resolution.--Ensuring that technical problems 
        are resolved;
      Monitor System Performance.--Checking system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
      Security.--Maintaining user rights for all ADPICS, FAMIS, and 
        WebFMIS users;
      System Administration.--Designing, testing, and making entries to 
        tables that are at the core of the system;
      Support of Accounting Activities.--Performing functional testing 
        and production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year are 
        archived for reporting purposes and removed from the current 
        year tables;
      Support of the Senate Committee on Rules and Administration 
        Postpayment Voucher Audit Process.--providing the data from 
        which the Committee on Rules and Administration Audit staff 
        selects a statistically valid sample of vouchers for $100 or 
        less. In this way, the Committee on Rules and Administration 
        Audit staff review vouchers sanctioned under authority 
        delegated to the Financial Clerk; and
      Training.--Providing functional training to all Senate FMIS 
        users.
            Testing Infrastructure Changes
    SAA provides the infrastructure on which FMIS operates, including 
the mainframe, the database, security hardware and software, and the 
telecommunications network. Activities for changes to the 
infrastructure include testing of all functionality prior to 
implementation and validating critical functionality post 
implementation. During 2011, the SAA implemented two upgrades to the 
FMIS infrastructure. These included a maintenance update to the DB2, 
and a maintenance update to the Z/OS.
            Maintaining Contact With System Users To Ensure Their Needs 
                    Are Met
    Communicating with our large user base is critical to provide the 
excellent service. IT meets on a regularly scheduled basis with 
representatives from Accounting, A/P, and the SAA. In addition, IT 
meets with user groups as it gathers requirements for new 
functionality. Meetings are advertised, and users self-select to 
participate. This year, IT met with SAA users who prepare vouchers to 
discuss voucher and inquiry functionality developed in the third phase 
of ``WebPICS'', a Web-based front end to ADPICS with additional 
functionality developed to address SAA user needs.
            Managing and Testing New System Development
    During 2011, IT supervised development, performed extensive 
integration system testing, and implemented changes to FMIS subsystems. 
The implementation and production verification activities were 
completed over a weekend in order to minimize system downtime to users. 
Since 2006, multiple subsystem upgrades have been consolidated into 2 
or 3 releases each year. This reduced the amount of regression testing 
required. In order to accurately reflect the variety of changes in each 
release, the releases are now numbered by fiscal year. During 2011, 
Disbursing implemented the following two major releases:
  --FMIS r2011-2, implemented in June 2011; and
  --FMIS r2011-3, implemented in August 2011.
                FMIS 2011-2--June 2011
    This release included an enhancement to electronic invoicing that 
allows an office (or an auditor in Disbursing) to split a single charge 
on an invoice into two accounting lines. This allows an office to 
distribute a charge across locations and/or split a charge into two 
expense categories.
    The ESR line entry module was also updated to implement some minor 
enhancement and corrections, most notably:
  --certain expense types now allow an optional location (it is no 
        longer required); and
  --ESR printing is disabled until after the ESR is submitted. This 
        reduces the likelihood of submitting and printing different 
        data.
    Release 2011-2 also implemented the third of three major phases in 
WebPICS, which effectively replaces and improves ADPICS (the mainframe 
procurement application). The first two phases of WebPICS provided 
functionality for requisitions and vouchers. This release allowed 
purchase orders to be created, approved, and posted. One of the 
features included was direct requisition, which automatically directs 
the user to immediately create the purchase order. Other WebPICS 
improvements included the addition of commodity table maintenance, and 
functionality for the last two types of change orders. After 
implementing this release, the vast majority of ADPICS users were able 
to abandon the mainframe application in favor of the more user-friendly 
WebPICS.
    One of the larger changes in this release was the addition of 
online access to the Month End Ledger Statements (Statement of Funding 
Authorization and Expense Activity). A pilot group was given access to 
their May 2011 statements first. After positive feedback, all offices 
were given access to their June 2011 statements, and paper distribution 
was eliminated.
                Financial Management Information System 2011-3--August 
                    2011
    The most significant feature in release 2011-3 was the image viewer 
and repository that allows users to attach documentation to their 
vouchers (see more in the FMIS Imaging and Electronic Signatures 
section below). A pilot of three offices began attaching their 
supporting documentation electronically only--the paper vouchers 
themselves were still required to provide approving signatures. 
Unfortunately, system performance for the auditors fell below 
acceptable levels, and Disbursing asked the pilot offices to resume 
attaching paper documentation to their vouchers. In each case, they 
also continued to attach documentation electronically. The cause was 
quickly identified, which was the low resource availability for the 
image viewer when running in the mainframe environment. The solution, 
which is included in the first release for 2012, was to move the image 
viewer onto Windows virtual servers, which will also allow significant 
room to scale up for a Senate-wide rollout. Initial testing at the end 
of the year showed a vast improvement.
    As part of the continuous effort to keep information secure, 
Disbursing implemented a limit of five unsuccessful login attempts for 
WebFMIS. Users whose accounts are locked after the fifth failed 
attempts must contact Disbursing to have their account unlocked and a 
new temporary password issued.
    New staffer accounts are created automatically when an 
administrative director requests. The staffer profile feature improved 
to show administrative directors the date the staffer's account was 
created, date password last changed, and provides option to send 
request to reset staffer's password.
    The most significant improvement to WebPICS was the implementation 
of an insufficient funds limitation, on the submission and approval of 
requisitions. The entry of specific limits will be rolled out in 2012. 
After this release, the IT section discontinued granting new 
procurement users access to mainframe ADPICS. This significantly 
simplifies user training and account maintenance.
    Other WebPICS improvements included:
  --a fix to purchase order viewer balance display;
  --a fix to allow update to effective date and delivery date on 
        requisitions while in approval phase; and
  --fixes for preparing and approving vouchers from purchase orders.
            Financial Management Information System Imaging and 
                    Electronic Signatures
    During 2008, Disbursing implemented a prototype imaging system in 
which paper vouchers and supporting documentation were imaged by 
Disbursing staff and routed electronically. The hands-on experience of 
this prototype was especially useful in refining system requirements. 
Under the FMIS Imaging Product Analysis project, begun in 2009 and 
completed in 2010, software for the image database and image viewer was 
selected, and imaging and electronic signature requirements were 
finalized. This information was coordinated with a separate SAA smart 
ID card project. The smart cards will be used for electronic 
signatures.
    In October 2010, a task order for the adding document imaging and 
electronic signatures to WebFMIS was signed. This task order outlines 
work to be completed between then and the spring 2013 in three phases:
  --Phase 1: imaging only pilot--fall 2011 (originally spring 2011);
  --Phase 2: office imaging and signatures pilot--winter 2012 
        (originally summer 2011), (extended pilot--combined with the 
        initial pilot, originally winter 2012), and full roll-out 
        (summer 2012); and
  --Phase 3: staffer imaging and signatures pilot (winter 2012), and 
        rollout (spring 2013).
            Planning
    The Disbursing IT department performs two main planning activities:
  --schedule coordination: planning and coordinating a rolling 18-month 
        schedule; and
  --strategic planning: setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2011, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
  --project specific meetings: a useful set of project-specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., archive/purge meetings 
        and WebFMIS budget function meetings); and
  --technical meetings: a weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
            Strategic Planning
    During 2010 Disbursing drafted a 5-year schedule based on earlier 
meetings to ``envision the future''. This is still under discussion and 
review and will be affected by the schedule for implementing a new 
payroll system, which will require substantial changes to current 
systems, including the interface from payroll into the General Ledger 
(FAMIS) of payroll expenditures and projections, the interface from the 
payroll system into the master vendor file (in FAMIS), and the payroll 
reports provided to the offices via WebFMIS.
    In 2011 the IT section decided to build a design backlog of FMIS 
features, where desired features are designed and planned well in 
advance of the release for which they are scheduled. This process has 
occurred at a strategic level for many years, but is now being 
implemented at a more tactical level. The design backlog will provide 
for a more continuous and fluid process for identifying, designing, 
building, testing, and implementing the features. This should result in 
a slightly faster design-build cycle.
            Managing the Financial Management Information System 
                    Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department in 2003, and includes developing the task 
orders with contractors, overseeing their work, and reviewing invoices. 
In 2011, the Service Year 2012 Extended Operational Support task order 
was executed, which covers activities from September 2011 to August 
2012.
    Work also continued under the Service year 2011 Extended 
Operational Support (covering activities from September 2010 to August 
2011).
            Administering the Disbursing Office's Local Area Network
    The Disbursing Office continued to administer its own LAN, which is 
separate from the network used by the rest of the Secretary's Office. 
It is used by more than 50 staff. Upkeep of the LAN infrastructure, 
including performing routine daily tasks and replacing equipment 
regularly, is critical to providing services. In addition, there are a 
number of specialized administrative applications that are housed on 
the Disbursing Office LAN. During 2011, LAN administration activities 
included:
  --performing maintenance on the LAN;
  --installing specialized software;
  --maintaining projects for the payroll and benefits section; and
  --upgrading existing workstations with appropriate upgrades 
        including:
    --installation of an automated client software cataloging and 
            updating program. This software provides a more aggressive 
            approach toward applying software patches that address 
            vulnerabilities in our platform; and
    --imaging critical PCs for easy recovery from hard disk crash or 
            other PC failure.
            Maintaining Projects for Payroll and Employee Benefits 
                    Sections
    During 2011, Disbursing supported three specialized applications 
for the Payroll and Employee Benefits Sections:
  --imaging system, developed by SAA staff, that electronically 
        captures and indexes payroll documents submitted at the front 
        counter, and is critical for the Payroll and Employee Benefits 
        sections;
  --CLER application, a health insurance benefits validation service; 
        and
  --retirement benefit software, which enables benefits counselors to 
        easily estimate retirement benefits based on different 
        scenarios, is also supported.
            Continuity of Operations Planning
    Disaster recovery activities are an important part of Disbursing's 
COOP Plan. We work closely with SAA to coordinate our planned 
exercises. Basic tests were performed to ensure our recovery 
capabilities with more extensive plans for testing in 2012.

                <greek-l>sos deg.ADMINISTRATIVE OFFICES
             <greek-l>sos deg.CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
nonpartisan office established at the direction of the Joint Leadership 
in 1993 after enactment of the Government Employee Rights Act (GERA), 
which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities, and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OOC). Among other things, the OOC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the employing 
offices of the Senate is an individual client of the SCCE, and each 
office maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Union drives, negotiations, and unfair labor practice charges;
  --Americans with Disabilities Act (ADA) Compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE provides legal advice to and defends Senate employing 
offices in all court actions, hearings, proceedings, investigations, 
and negotiations relating to labor and employment laws. The SCCE 
handles cases filed in the District of Columbia and cases filed in any 
of the 50 States.

Compliance With the Occupational Safety and Health Administration and 
        the Americans With Disabilities Acts
    The CAA mandates that, at least once each Congress, OOC shall 
inspect each Senate office to determine whether each office complies 
with the OSHA and the public accommodation portion of the ADA. The CAA 
authorizes the OOC to issue a public citation to any office that is not 
in compliance.
    The SCCE provides legal assistance and advice to each Senate office 
to ensure that it is complying with the OSHA and the ADA. The SCCE also 
represents each Senate office during OOC inspections and advises and 
represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2011, the SCCE pre-inspected 1,977 Senate rooms and work areas 
to ensure that Senate offices are complying with the OSHA and the ADA. 
The SCCE conducted pre-inspections of member offices, SAA, offices of 
the Secretary of the Senate, the Senate Child Care Center, the Webster 
Hall Page Facilities, and offsite buildings used by the Senate.
    At the conclusion of the OOC's inspection process, Senate offices 
had no significant ADA problems and no citations were issued in 2011. 
The OOC has not yet issued a report regarding its OSHA inspections.
Management Training Regarding Legal Responsibilities
    The SCCE regularly conducts legal seminars for the managers of 
Senate offices to assist them in complying with employment laws, 
thereby reducing their liability.
    In 2011, the SCCE gave 85 live, legal seminars to Senate offices, 
including, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Conducting the Interview: Effective and Legal Methods of Getting 
        the Best Employees for Your Office;
  --Maintaining a Harassment-Free Workplace;
  --Management Staff Beware: Your Office Can Be Sued: Employment Laws 
        You Must Comply With;
  --The Genetic Information Non-Discrimination Act: Practical Guidance 
        for Managers;
  --A Manager's Guide to Preventing and Addressing Harassment in the 
        Workplace;
  --But He Interviewed So Well: How to Interview Job Applicants, Check 
        References and Backgrounds, and Give References;
  --Military Service Academies Interview Training; and
  --Diversity in the Workplace.
    In addition to the previously mentioned 85 seminars, the SCCE 
conducted a series of monthly seminars covering all major employment 
laws that govern Senate offices. The purpose of the seminars was to 
educate all Senate management staff about their responsibility to 
ensure that their respective offices comply with the CAA. The series 
was open to all chiefs of staff, staff directors, administrative 
directors, chief clerks, and office managers. Individuals who complete 
the series receive a certificate of completion signed by the Secretary 
of the Senate. The SCCE, working with the Senate Recording Studio, 
streamed these monthly seminars to State offices so that all State 
managers could participate and to allow staff members in Washington, DC 
to view the seminars from their offices. In addition, the SCCE 
rebroadcast each of its monthly seminars on the SCCE Web site to 
accommodate managers who were unable to attend the initial seminars. 
Further, the SCCE online registration technology was used extensively 
by Senate management staff in 2011 to register online for attending the 
seminars in the series.
    The SCCE also held 11 1-hour, lunchtime meetings, referred to as 
``Brownie Brown Bags'', open to all office managers and administrative 
directors of member offices and all chief clerks of committees. The 
purpose of the Brownie Brown Bags is to allow attendees to ask the SCCE 
attorneys any legal issues they would like to discuss. These meetings 
have been well-attended.

Legal Advice
    The SCCE meets daily with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsel 
at their request to provide legal advice. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as disciplining 
and terminating employees in compliance with the law; handling and 
investigating harassment complaints; accommodating the disabled; 
determining wage law requirements; meeting the requirements of the 
Family and Medical Leave Act (FMLA); management's rights and 
obligations under union laws and the OSHA; management's obligation to 
give leave to employees for military service; veterans' rights; and 
interviewing, hiring and counseling employees. In 2011, SCCE had more 
than 2,544 client legal advice meetings.
    Also, the SCCE provides legal assistance to Senate offices to 
ensure that their office policies, supervisors' policies, intern 
policies, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law. In 2011, the SCCE significantly 
revised or prepared 197 policy manuals for Member offices and 
committees.
    To keep clients abreast of legal developments, the SCCE prepares 
and distributes timely client alerts to all Senate offices and 
committees explaining the impact of newly enacted employment-related 
laws. In 2011, the SCCE prepared and distributed eight such alerts.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2011, the SCCE reviewed one union contract and provided guidance 
to managers and supervisors regarding their legal and contractual 
obligations under union contracts.
Environmental Impact and Cost Savings
    In 2011, for the third consecutive year, the SCCE continued with 
its project of eliminating a significant amount of hard copy legal 
reference materials to further benefit the environment, cut costs, and 
clear valuable office space. This project has resulted in cost savings 
of more than $9,200 and has reduced the area required for storing our 
hard copy legal reference materials from 129 square feet to 50 square 
feet.

             <greek-l>sos deg.CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include:
  --deacidification of paper and prints;
  --phased conservation for books and documents;
  --collection surveys;
  --exhibits; and
  --matting and framing for the Senate leadership.

Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2010, conservation 
treatments were completed for 173 volumes of a 7,000-volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,410 volumes.

Preservation
    The Office of Conservation and Preservation completed 106 volumes 
of House and Senate hearings and Congressional Records for the Senate 
Library. These books were rebound with new end sheets and new covers 
using the old spines when possible.

Committees
    Conservation and Preservation assisted the Committee on the Budget, 
Select Committee on Ethics, and the Joint Economic Committee with their 
books being sent to GPO for binding.

Exhibition
    Conservation and Preservation assisted the Senate Historical and 
Curator's offices in the installation of a new exhibition to mark the 
150th anniversary of the Civil War. The exhibition replaced the 
Inauguration exhibit in the Senate wing's first floor connecting 
corridor.

                        <greek-l>sos deg.CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.

Collections: Commissions, Acquisitions, and Management
    Forty-nine objects were accessioned into the Senate collection this 
year. A large number of the items catalogued included tickets, 
invitations, programs, and other ephemera related to events in which 
the Senate participated. The Curator's office actively collects 
contemporary artifacts in an effort to preserve and document the 
present for future generations. Other items added to the collection 
included three historic writing tables, several historic chairs, three 
memorial drapes and two vases used on the desks of Senators who have 
passed away, mementos from the 1985 Presidential Inauguration, a 1892 
wax seal used by the Secretary of the Senate on envelopes, a diagram of 
the Senate Chamber from the 78th Congress, and a painted plaque 
previously displayed in the Vice President's Ceremonial Office.
    The new Architectural Fragment collection, comprising original, 
significant, or unique objects or building fabric removed from Senate 
spaces, was created in 2011. The collection was established to better 
understand the architecture, ornamentation, and decoration of Senate 
spaces within the Capitol complex; to serve as a resource for historic 
reconstructions; and to enhance knowledge of the Senate. It is based on 
similar collections at other historic sites, and standard museum 
management procedures and documentation have been established for the 
Senate's collection.
    Twenty-nine new foreign gifts were reported in 2011 to the Select 
Committee on Ethics and deposited with the Senate Curator's office on 
behalf of the Secretary of the Senate. The office currently is 
responsible for 217 foreign gifts, which are catalogued and maintained 
in accordance with the Foreign Gifts and Decorations Act. Appropriate 
disposition of 26 foreign gifts was completed following established 
procedures.
    The Curator's office continued to work with the Capitol Visitor 
Center (CVC) project staff, Architect of the Capitol (AOC) 
representatives, and their consultants to resolve problems with the 
heating, ventilating, and air conditioning (HVAC) equipment in the 
Curator's two CVC collection storage spaces. In February 2011, project 
staff turned one room to the AOC, following successful completion of 
testing for its new HVAC system. It is the largest storage space for 
the Senate collections available in the Capitol complex and has 
provided much needed temporary storage for items during renovations of 
spaces in the Senate, as well as for long-term storage. Testing for the 
HVAC system in the second room was successfully completed in November 
2011 and final preparation of the room is underway. The space will 
provide cooler temperature storage for paper-based items, in support of 
the Curator's mission to preserve the Senate's significant collections. 
Procedures and policies have been established for use of the two rooms, 
and include disaster preparation plans.
    The office continued its multi-year project to photograph all 
objects for the collection database. More than 250 objects were 
photographed and a total of 252 images out of 4,598 were resized for 
consistency. Staff also worked with the Senate Photographic Studio and 
the AOC Photography Branch to capture special events and projects, such 
as moving art and the extensive work in the Old Senate Chamber. Such 
documentation is important for recordkeeping, disaster preparedness, 
use on Senate.gov, and for publications promoting the Senate's 
collections.
    In keeping with scheduled procedures, all Senate collection objects 
on display were inventoried this year, noting any changes in location. 
In addition, as directed by S. Res. 178 (108th Congress, 1st Session), 
the office submitted inventories of the art and historic furnishings in 
the Senate to the Senate Committee on Rules and Administration (Rules 
Committee). The inventories, which are submitted every 6 months, are 
compiled by the Curator's office with assistance from the SAA and the 
AOC's Superintendent of Senate Office Buildings (Superintendent). This 
year the Curator's office worked with the SAA to physically inventory 
all of the assets listed in the Senate's historical furnishings 
inventory. More than 800 objects were inspected and their location 
verified. As part of this internal review effort, the Curator's office 
developed a master list of assets and established procedures for adding 
and deleting objects from the inventory. This documentation is part of 
the Curator's standard procedures and applies equally to all 
collections under the auspices of the Commission on Art. Next year the 
Curator's office will work with the SAA and the Superintendent to 
ensure their policies and procedures for historic items are consistent 
with the Senate Curator's Collections Management Policy.
    Staff worked with the SAA Cabinet Shop to complete a comprehensive 
survey of the writing boxes that are part of the Senate Chamber desks. 
The project included collecting detailed information on the 
construction, size, and mode of attachment to the top of each desk, 
along with condition information. During the 19th century, mahogany 
writing boxes were added to the desktops to provide more space for 
books and papers. Today, only one desk--the ``Webster Desk''--lacks a 
writing box. Many of the writing boxes have sustained damage over the 
years from daily use, and the survey is part of a comprehensive effort 
to preserve the desks. The survey results were used to create 
prioritized reports and computerized drawings that will guide the 
Cabinet Shop's efforts to refurbish the writing boxes.
    The Curator's office continued to advance documentation and care of 
the historic Russell Senate Office Building furnishings by surveying 
the mirrors. Fourteen historic mirrors were identified, recorded, 
assessed, and added to the Senate collection. Guidelines were drafted 
and shared with the Superintendent to ensure proper protection of the 
mirrors during building projects and housekeeping. Information on the 
significance of the mirrors and care practices will be provided to the 
occupants. The historic Russell Senate Office Building mirrors have 
been included in the established maintenance program conducted by the 
Curator's staff.
    Of special interest as it regards the Russell Senate Office 
Building furnishings are the historic flat-top desks. Beginning with 
the 110th Congress, the Curator's office has conducted a yearly 
inventory and inspection of these desks. Each desk location and 
occupant information is added to the Curator's database, which 
documents the use and location of the remaining 62 historic desks.
    Electronic recordkeeping and collection guidelines related to the 
Senate's Capitol historic mirrors again received considerable 
attention. In 2010, the paper files and the database entries were 
addressed, and this year the effort expanded to the electronic files 
and digital images of all 94 mirrors. The electronic records were 
reviewed and updated based on established registration and file 
standards. Another initiative that improved the mirror collection 
administration was the approval of a scope for the collection. With a 
clear scope in place, the office reviewed existing objects and will 
deaccession those few without historic significance.
    The official Senate chinaware was used at 12 receptions for 
distinguished guests, both foreign and domestic, including a tea for 
the President of Mexico, luncheon for the King of Jordan, and tea for 
the Prime Minister of New Zealand. The Secretary's chinaware was used 
at three receptions sponsored by the chairman of the Senate Foreign 
Relations Committee.

Conservation and Restoration
    Providing for the conservation needs of the Senate's historic clock 
collection continues to be a priority. Although the floor clock in the 
Vice President's Ceremonial Office was originally scheduled for 
conservation this year, the Seth Thomas perpetual calendar clocks in 
the collection became a priority. The floor clock received some interim 
treatment in 2009 to repair problems with the second hand, and has been 
running accurately ever since, whereas the calendar clocks, which date 
to the late 19th century, have had ongoing problems, especially related 
to their calendar functions. The earthquake on August 23 caused both 
calendar clocks to stop running, and after they were restarted, their 
timekeeping was erratic. In addition, the paint on the dials of one of 
the clocks was actively flaking, making prompt conservation treatment 
imperative to stop further losses. The clocks were conserved and are 
now in working order.
    The most prominent and extensive project the Curator's office 
undertook this year was the renovation of the Old Senate Chamber. Prior 
to the start of this effort, two iconic works of art that were 
displayed in the room beginning in the 1830s--the gilded Eagle and 
Shield and the 1823 painting by Rembrandt Peale, George Washington, 
(Patri* Pater)--were removed for conservation. In 2010, a comprehensive 
review of records pertaining to both art works began and was used to 
develop a report outlining the history of their treatments and 
placement during their time in the Capitol. These histories, along with 
condition analyses conducted by conservators in 2004, provided 
necessary information to solicit treatment proposals. Conservation 
experts from the Senate Curatorial Advisory Board and the National 
Gallery of Art aided in the process. Three separate conservations were 
undertaken, one for treating the Eagle and Shield, and one each for the 
painting and the frame of George Washington, (Patri* Pater). Treatments 
for the painting and the frame were completed, and the portrait will 
remain in storage until the renovations in the Old Senate Chamber are 
completed. Treatment for the Eagle and Shield requires more time, and 
it will return to the Capitol in spring 2012.
    The office completed the restoration of the eight Senate Reception 
Room Flemish oak benches purchased in 1899. This project was undertaken 
as part of the Reception Room restoration project. Over time, the 
original carved back panels were removed, the seats and backs 
upholstered, and the benches poorly refinished multiple times. The 
conservation sought to return the furnishings to their original 
appearance. The process included research into the original carved 
panels and finish, and the difficult repair of the extensive upholstery 
damage. The benches returned to the Capitol in September, and the 
Curator's office is working with the SAA to ensure proper housekeeping 
and handling practices regarding these historic benches.
    Regular care of the Senate's gilded objects was a priority in 2011. 
A program to provide routine, on-site professional care for the 
Senate's gilded mirror and picture frames, as well as other gilded 
objects, continued. Eleven gilded pieces were treated. Additionally, to 
increase the skill and knowledge of the Curator's office, several staff 
participated in hands-on training related to basic gilded frame repair. 
This will reduce the need for professional conservators, improve the 
response to urgent repairs, and save the Senate time and money.

Historic Preservation
    The Senate's historic preservation program seeks to formulate a 
solid preservation policy reflective of the Senate's interests and the 
need to preserve the Capitol's historic fabric and historical artistic 
intent. Through various initiatives, the preservation program has 
positioned itself as a valuable resource for the Senate, ensuring that 
all projects are carefully considered and weighed in light of sound 
preservation practices.
    The Curator's office continued to work closely with the AOC and the 
SAA to review, comment, plan, and document Senate-side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Such construction and conservation efforts 
included smoke purge system installation, Senate Reception Room wall 
and ceiling restoration; scagliola conservation; third floor plaster 
repair; Brumidi Corridors restoration; Strom Thurmond Room wall and 
ceiling restoration; fire grate installation; storm window 
installation; Republican Whip's suite improvements; first responder 
radio system; and ceiling repairs. Through this work, the Curator's 
office was able to ensure that the highest preservation standards 
possible were applied to all Capitol projects. In order to provide 
further protection to the Senate's architectural elements, the 
Curator's office drafted guidelines for the preservation of restored 
spaces and the protection of historic assets.
    The protection of public spaces and historic assets remained a 
focus of the Curator's office, with continued participation in a 
working group (whose other members are the SAA, the AOC, and the Rules 
Committee) to devise uniform furnishings and protection solutions. In 
the areas with conserved and faux scagliola, the office continued 
working with the SAA and AOC to stop unauthorized furniture storage and 
to install much needed protective measures. Related to this charge, the 
rounds program, which was established in 2007 to monitor the 
collections on display, was expanded to include maintenance issues. The 
program now helps identify preventable damage so staff can address the 
root cause. The rounds program also reports needed maintenance, so 
public spaces can look their best for Capitol staff and visitors.
    The pilot phase of the Senate Reception Room wall conservation was 
successfully completed. The original wall decoration comprised a very 
complex pattern of surface treatments with delicate toned glazes and 
precise application methods. Over the years, layers of overpaint 
obscured the original fresco, and conservation was necessary to reveal 
the true colors. Throughout the pilot project, the Curator's office 
kept Capitol staff and visitors informed through regularly updated 
signage. The Reception Room restoration and rehabilitation project is a 
joint effort between the Senate Curator and the AOC Curator, and 
includes various work in the room. In addition to restoring the 
historic Reception Room benches, the Curator's office developed a 
furnishing plan for the room, based on use surveys. As a first step, 
one of the historic benches was replaced with a row of chairs, thus 
allowing easy access to a closet and better use of the space by Members 
and Senate staff. The office is also working with the Senate Committee 
on Rules and Administration, the AOC, and the SAA on various furnishing 
initiatives for the room.
    The office continued to assist the AOC in the procurement process 
for a 5-year plan for finishing the Brumidi Corridors restoration. 
Curator's staff reviewed the proposal request and will serve on the 
selection board. Similarly, the office was involved in the procurement 
for the Strom Thurmond Room restoration and subsequent treatment.
    The Curator's office provided significant input on the AOC smoke 
purge project. After requesting an air flow study to better predict how 
air will move through the building and at what speed, the Curator's 
office engaged a team of environmental and art experts to review the 
project plan, identify potential threats to Senate art, establish an 
area of impact during construction and testing, and determine 
appropriate levels of protection measures. Curator's staff developed an 
art protection needs document, detailing expectations, and presented it 
to the AOC. In reaching agreement with the AOC, conversations centered 
on physical protection, climate control, and dust control. An updated 
set of art protection specifications were drafted and incorporated into 
the scope of work, thus ensuring a satisfactorily plan of protection 
for the Senate's art treasures during this complex project, which is 
scheduled to begin in 2013.

Historic Chambers
    During 2011, the Curator's office, with assistance from the AOC and 
SAA, initiated a long anticipated project to address major plaster 
repairs in the Old Senate Chamber, which had been restored in 1970. The 
initial scope included removing failing areas of plaster and lead 
paint, patching, and repainting with the existing 1975 colors. 
Additionally, the Curator's staff requested paint analysis, which had 
never been undertaken in the room, in order to better understand the 
chamber's architectural history and to increase the Senate's knowledge 
of the space. Given the long history of major work in the room, early 
paint layers were not expected to be discovered, but to everyone's 
great surprise they were. Working closely with the AOC's historic 
preservation officer, the Curator's office combined microscopic paint 
analysis with exposures of target paint layers and archival research to 
identify an historic paint scheme. The early colors consisted of a warm 
gray on the ceiling, a slightly darker version of the gray on the 
walls, and a cream color on the trim. The effect will be a 
monochromatic scheme in contrast to the highly accented style used in 
the 1975 restoration which featured shades of peach and salmon with 
metallic highlights. Given this new knowledge, it was decided to 
repaint the chamber to a more correct historic appearance. Along with 
painting the walls, ceiling, and trim, the project expanded to include 
repainting the extensive 1975 faux marble, badly yellowed due to 
multiple layers of varnish.
    With the support of the Senate Commission on Art, the Old Senate 
Chamber was closed and the task of repairing and repainting the room 
began. One exciting discovery was an original section of marble cornice 
that had been painted over. The marble was stripped and cleaned and it 
will remain exposed. Throughout the project, the Curator's office has 
continued to conduct extensive research as new questions arise that 
require immediate curatorial decisions. The staff is overseeing the 
schedule to ensure all tasks are completed and that thorough 
documentation occurs, both photographic and written. Justification for 
each and every decision and action is important for the historic 
record.
    The Old Senate Chamber project is on schedule, and the new and more 
historically correct chamber will be reopened to the Senate and public 
in March 2012.
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers and coordinated periodic use of both rooms for 
special occasions. The staff worked with USCP to record after-hours 
access to the historic chambers by current Members of Congress. Sixty-
eight requests were received from Members for after-hours access to the 
Old Senate and Old Supreme Court Chambers.

Loans to and From the Collection
    A total of 66 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and offices in 
the Senate wing of the Capitol. The staff returned two loans, 
accessioned one loan into the collection, coordinated seven new loans, 
and renewed loan agreements for 54 other objects. More than 20 loans 
are projected to be renewed next year.
    The Curator's office was proud to have contributed the Senate's 
only landscape painting, Niagara, Table Rock-Winter by Francois Regis 
Gignoux, to the Smithsonian American Art Museum exhibition The Great 
American Hall of Wonders. The show examined the 19th-century American 
belief that the people of the United States shared a special genius for 
innovation. The exhibition featured 161 objects and ended January 8, 
2012.

Publications and Exhibitions
    A new exhibition was installed in the Hart Senate Office Building 
atrium highlighting the maquette, or model, of Alexander Calder's 
monumental sculpture Mountains and Clouds. It is the sculptor's last 
project and his only creation combining a separate mobile and stabile 
in a single sculptural work. The display explores the commissioning of 
the sculpture, the career of Calder, and the ongoing care and 
conservation of the sculpture itself. The display was the result of a 
collaborative effort coordinated by the Curator's office with the 
Secretary's Office of Preservation and Conservation, the SAA Printing, 
Graphics and Direct Mail branch (PGDM), the AOC Sheet Metal and Paint 
Shops, and the Creative Services Division of GPO. The exhibit was built 
using in-house resources at minimal cost to the Senate.
    The office continued to increase its presence on Senate.gov this 
year by supplementing the Senate collections already featured with 
information on new objects. More than 30 artifact pages were added to 
the sections on decorative art, ephemera, and graphic art. Objects 
highlighted include ballot boxes, Sevres vases, inkstands, Argand 
lamps, stereographs, and gallery tickets for the 1868 Andrew Johnson 
impeachment trial.

Collaborations, Educational Programs, and Events
    A painting of Senator William H. Frist by artist Michael Shane Neal 
was unveiled in the Old Senate Chamber on March 2, 2011, as part of the 
Senate Leadership Portrait Collection.
    In conjunction with the Office of Web Technology and the Senate 
Historical Office, the Curator's staff developed a comprehensive 
bibliographic and publications site, combining various lists in one and 
organizing publications by subject. Viewers may now access all 
bibliographies and available publications from links throughout the art 
and history section of Senate.gov site.
    Curator's staff assisted with numerous CVC-related projects 
throughout the year, including participating in the morning briefings 
to the Capitol Visitor's Service, conducting exhibition lectures for 
the public, reviewing exhibition text and images, and evaluating 
products and publications for the CVC gift shop.
    The Curator's staff also gave lectures on the Senate's art and 
historical collections to various historical groups and art museums, as 
well as to members of the USCP Chamber Division. The office continued 
to assist with the Secretary's Senate staff lecture and tour series, 
and was a regular contributor to UNUM, the Secretary's newsletter.

Office Administration and Automation
    The Senate Curatorial Advisory Board for the 112th Congress was 
empanelled. Two new and five returning members were welcomed. Composed 
of respected scholars and curators, this 13-member board provides 
expert advice to the Commission on Art regarding the Senate's art and 
historic collections, preservation programs, and review and acquisition 
of new objects for the collection. As an improvement to the Senate 
Curatorial Advisory Board empanelment procedures, the staff developed a 
standardized system to chart the appointment process for future board 
members.
    The Curator's office coordinated with staff from the Government 
Accountability Office (GAO) as they conducted an audit of the Senate 
Preservation Fund: Audit of fiscal years 2009 and 2010. The final 
result of the audit was that the Commission on Art and the Secretary of 
the Senate continue to be in compliance with all applicable laws and 
operating standards as deemed by GAO.
    In the area of file management, the Curator's office continued to 
advance the implementation of the new organizational matrix, file 
naming protocols, and improved project documentation through a series 
of file work days. This effort has greatly improved the usability of 
the office resources, streamlined office recordkeeping, and enhanced 
research capabilities.
    The Rights and Reproductions program was improved by subscribing to 
the Large File Transfer System, a program administered by the SAA. This 
allows Senate collection images to be transmitted to customers 
digitally, providing cost and time savings as well as an environmental 
alternative to mailing disks.

Continuity of Operations Planning
    In the area of COOP, the office conducted monthly exercises to 
develop the ability to work remotely. The exercises proved effective in 
identifying problems and troubleshooting issues in advance of a true 
emergency.

Objectives for 2012
    Conservation and preservation of the Senate's collections continue 
to be a priority, and several major projects are planned for 2012. The 
office has already contracted with a professional conservator to 
restore two companion tables that were purchased around 1860 for the 
Vice President's Ceremonial Office. Repair and treatment is also 
planned for the 100 inkwells and 100 sanders in the Senate Chamber 
desks. Over time these containers have suffered from daily use, 
resulting in heavy corrosion, loose or broken hinges, and chipped or 
missing glass liners. The containers are no longer used as originally 
intended, and treatment will focus on cleaning and stabilizing the 
containers. The office will continue to expand the care of the Russell 
mirrors by completing the comprehensive, on-site conservation of one of 
the impressive committee room mirrors. Repair work will begin on the 
Senate Chamber desk writing boxes.
    A major initiative will begin to provide on-site conservation 
treatment to preserve the collection of historic furnishings that are 
in daily use by the Senate. Of particular note in the collection are 
the Senate Chamber desks. In August 2011, Curator's staff visited the 
Department of State to observe and consult about a similar program in 
place for the furnishings in the Diplomatic Reception Rooms. A multi-
step procurement process, coordinated through the SAA Procurement 
Office, began in fall 2011 to select conservation studios with the 
required experience and technical ability to provide periodic condition 
assessments and treatment for the collection. As a result of this 
program, ongoing care of the Senate's historic furnishings will be 
provided on a regular basis, to maintain their appearance and ensure 
their preservation for future use. The contract is anticipated to be in 
place before the end of 2012.
    In conjunction with the AOC's work in the Senate Reception Room, 
the Curator's office will oversee the refinishing and reupholstering of 
the existing table and six chairs in the room. Similarly, during the 
wall conservation in the Strom Thurmond Room, the office will restore 
the historic 19th century overmantel mirror.
    Several sculpture moves are anticipated for 2012, including:
  --moving the original marble pediment sculpture, Justice and History, 
        from its location in the Senate subway area to the vestibule 
        outside the Old Supreme Court;
  --moving the three plaster reliefs made by Lee Lawrie from their 
        location in the Senate subway area to the main corridor on the 
        third floor of the Capitol; and
  --relocating the marble bust of George Washington to the entrance of 
        the President's Room.
    These new locations will help preserve the objects by offering more 
protected environments, and will provide more convenient and enjoyable 
viewing for staff and visiting public.
    The four sculptures currently in the Senate subway area will 
receive conservation treatment to repair damage to their surfaces in 
conjunction with their planned moves. Of particular concern to Justice 
and History, is the grease now coating the surface due to its current 
proximity to the Senate subway.
    All of the prints in the Senate collection will be re-housed using 
advanced archival methods and materials. Advantages to this project 
include sturdier protection for individual prints, front and back 
viewing capabilities, and easier access to objects.
    The Curator's staff will confer with the AOC regarding preservation 
issues related to Senate restoration and remodeling projects, establish 
project records as appropriate, disseminate project information to the 
Senate, develop preservation projects at the request of the Senate, 
conduct condition inspections, and arrange necessary maintenance. The 
bulk of the office's project management will involve advancing the 
restoration and rehabilitation of the Brumidi Corridors, the Senate 
Reception Room, and the Strom Thurmond Room. The brochure for the Strom 
Thurmond Room will be updated following the completion of the 
restoration work.
    An exhibit will be mounted for four Constantino Brumidi paintings. 
These oil-on-canvas sketches, painted as studies for Capitol murals, 
will be displayed in a public area so staff and visitors can appreciate 
these important works of art.
    The office will assist the Joint Congressional Committee on 
Inaugural Ceremonies in various capacities for the 2013 Presidential 
Inauguration.
    In the area of COOP preparedness, the office will conduct its 
annual table top exercise, and will continue with its series of remote 
desktop exercises to best prepare staff for an emergency situation.
                <greek-l>sos deg.education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the States. There are two branches within the 
office:
  --Education and Training; and
  --Health Promotion.
    The Education and Training branch is responsible for providing 
management and leadership development, training on human resource 
issues, writing, editing, legislative research and time management, as 
well as offering technical training support for approved software 
packages and equipment and new staff and intern orientation in either 
Washington, DC or the State offices. This branch provides training as 
instructor-led classes, one-on-one coaching sessions, specialized 
vendor provided training, video teleconferencing, webinars, Internet-
based training, documentation, job-aids, and quickcards. The Health 
Promotion branch provides seminars, classes and screenings on health 
and wellness issues. This branch also coordinates an annual health fair 
for all Senate employees and plans blood drives every year.

Capitol Hill Training Events
    The Office of Education and Training offered 1,058 classes and 
events on Capitol Hill in 2011, drawing more than 12,000 participants. 
The registration desk handled more than 25,000 email and phone requests 
for training and documentation.
    The previous total includes 160 customized training sessions for 
2,667 staff members. These sessions ranged from in-depth training of 
Senate office system administrators, conflict resolution, and 
organizational development. The office provides individual consultation 
on Web site development and office systems training, as well as classes 
in resume and interviewing skills building for staff whose Members have 
announced their retirements.
    The Senate's intern program is also a focus of the office. The 
office provides training for intern coordinators as well as 10 
orientation and training sessions for approximately 1,225 interns.
    The biannual Senate Services Expo for Senate office staff had 36 
presenters from the offices of the Secretary of the Senate, SAA, AOC, 
USCP, and the Library of Congress providing an overview of their 
services to 260 staff. This is part of the orientation for new staff 
and the aides to the Senators-elect in addition to the eight 
orientation sessions held January through March.

State Training Events
    The Office of Education and Training provided 94 learning 
opportunities and training sessions to State office for which 2,625 
State staff registered.
    The office continues to offer the State Training Fair Program and 
video teleconferencing and webinars as a means to train State staff. In 
2011, one session of the State Training Fair was attended by 40 State 
staff. In addition, 42 State administrative managers and directors 
attended the State Directors Forum, 57 State staff participated in a 
Constituent Services Forum, and 41 staff attended the Outreach 
Conference.
    Education and Training also provided advanced all-staff meeting 
facilitation to more than 30 offices that were attended by more than 
500 staff. Additionally, the office offered 20 video teleconferencing 
classes for which 718 State staff registered and 22 webinars that were 
attended by 200.
    To date, 826 State and Washington, DC staff have registered and 
accessed a total of 1,780 different lessons and publications using 
Internet-based training covering technical, professional, and language 
skills. This allows staff in both Washington, DC and State offices to 
take training at their convenience. Education and Training also 
provides 64 Senate-specific self-paced lessons that have been accessed 
more than 4,800 times.
Health Promotion
    In the Health Promotion area, approximately 2,000 staff 
participated in 64 activities throughout the year. These activities 
included:
  --lung function and kidney screenings;
  --eight blood drives;
  --the Health and Fitness Day;
  --seminars on health related topics; and
  --the Annual Senate Health Fair.

Cost-Saving Measures
    This office reduced each of our Washington, DC-based State training 
sessions by one-half day to reduce per diem costs to the offices. We 
have added to our catalog of self-paced training to allow State and 
Hill staff to learn at their own time and place. Video teleconferencing 
and webinar training offerings have also been expanded. Education and 
Training continues to distribute documents electronically to reduce 
paper costs.

Continuity of Operations Planning
    This office has upgraded the video and audio in the spaces used as 
the Emergency Operations Centers for SAA and Secretary of the Senate. 
We have begun work with the SAA Continuity and Emergency Preparedness 
Operations Office to provide staffing for alternate office space, 
alternate computing center, and alternate chamber support. Our office 
is also working with the Senate Employee Assistance Program Office to 
develop, deliver, and staff our response to emotionally challenging 
events.

                       <greek-l>sos deg.GIFT SHOP

    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The Gift Shop serves Senators, 
their spouses, staffs, constituents, and the general public, including 
many visitors to the U.S. Capitol complex. The products available 
include a wide range of fine gift items, collectibles, and souvenirs 
created exclusively for the U.S. Senate.

Facilities
    In addition to providing products and services from three physical 
locations, the Gift Shop has an online presence on Webster, the 
Senate's intranet. The Web site currently offers an increasing 
selection of products that can be purchased by phone, email, or by 
printing and faxing the order form provided on the site. Along with 
offering over-the-counter and walk-in sales, as well as limited 
intranet services, the Gift Shop Administrative Office provides mail 
order service via phone or fax, and special order and catalogue sales 
via in-person visit, email, phone, or fax.
    The Gift Shop maintains two warehouse facilities. The bulk of the 
Gift Shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While SAA is in charge of the overall management of 
the SSF, the director of the Gift Shop has responsibility for the 
operation and oversight of the interior spaces assigned for Gift Shop 
use. Storing inventory in this centralized, climate-controlled facility 
provides protection for the Gift Shop's valuable inventory in terms of 
physical security as well as improved shelf life for perishable and 
nonperishable items alike.
    The second Gift Shop warehouse is maintained within the Capitol 
complex. This facility serves as the point of distribution of 
merchandise to the Gift Shop store and the Capitol Gift Shop counter, 
both of which have limited storage space. This warehouse accommodates 
the Gift Shop's receiving, shipping, and engraving departments, as well 
as supplying the inventory sold through the administrative and special 
order office.

Sales Activities
    Sales recorded for fiscal year 2011 were $1,608,728.55. Cost of 
goods sold during this same period was $1,216,191.66, accounting for a 
gross profit on sales of $392,536.89.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2011, the balance in the revolving fund was 
$3,149,788.37. The inventory purchased for resale had an end of the 
year value of $3,101,301.

Additional Activity
            Government Accountability Office Audit
    At the request of the Secretary of the Senate, in September 2010, 
GAO conducted an inventory observation and audit of the Gift Shop 
financial operations. The formal results of this audit were received in 
April 2011. The established departmental procedures and policies 
implemented on a daily, monthly, and annual basis proved to be 
instrumental in the Gift Shop's achieving a positive review. The 
recommendations provided by GAO at the conclusion of their observation 
had either already been implemented or have been adapted.
            Environmental Fair
    The Gift Shop participated in the 2011 U.S. Senate Environmental 
and Energy Fairs sponsored by AOC. Environmentally friendly products 
that were displayed included wooden flag and desk boxes, wooden pens, 
custom-designed wrapping paper produced from recycled paper, aluminum 
water bottles, Nalgene BPA-free water bottles, biodegradable travel 
mugs, and a travel mug produced from 100-percent U.S. natural corn 
products.

Selected Accomplishments in Fiscal Year 2011
            Official Congressional Holiday Ornaments
    The Official 2011 Congressional Holiday Ornament features a view of 
the east front of the Capitol backed by a translucent blue window. The 
ornament is crafted of layered cutwork brass with a 24 karat gold 
finish and multicolored enamel detailing.
    Sales of the 2011 holiday ornament exceeded 26,000 ornaments, of 
which more than 6,400 were personalized with engravings designed, 
proofed, and etched by Senate Gift Shop staff. This is an increase in 
engraved ornaments of more than 12 percent. This highly successful 
effort was made possible by the combined efforts of our administrative, 
engraving, and store staffs.
            Candlesticks
    The Members' staircases in the Capitol feature railings that are 
masterworks of bronze casting. The banisters of the railings, 
embellished with finely detailed foliate decoration, have been 
replicated in miniature as 12-inch tall solid pewter candlesticks. They 
are available in either a polished silver or a matte gold finish, and 
are sold singly or in sets of two.
            Webster Intranet Site
    The Web site continues to expand with the addition of new 
merchandise, photographed with assistance from the Senate Photography 
Studio. Product descriptions are written in-house.
    The Gift Shop contributes an article highlighting products and 
services to each issue of the Secretary's UNUM newsletter. In turn, the 
Web site links to the electronic version of UNUM, a practice that has 
increased traffic to the Web site and may be responsible for an 
increase in the use of Gift Shop services by State offices.
Projects Recently Produced and New Initiatives for 2012
            Capitol Visitor Center
    The Senate Gift Shop continues to supply them with a wide variety 
of inventory product, offering service when needed and advice on 
purchase order, invoice, and operational processes.
            Congressional Plate Series
    The latest 8-year, four-plate series of the 112th, 113th, 114th, 
and 115th Congress has been produced. The 112th plate is currently 
being offered for sale. The plates for each of the future congresses 
will be made available during that respective congressional session. 
The designs depict art and architecture from four of the most 
historically significant rooms in the Capitol:
  --the Senate Appropriations Room;
  --Old Senate Chamber;
  --Old Supreme Court Chamber; and
  --President's Room.
            Laser Engraver
    Recently purchased and soon to be installed, the laser engraver 
will allow the Senate Gift Shop to expand engraving services to include 
additional materials including wood, acrylic, glass, plastic, stone, 
marking metals, and anodized aluminum.
            New Color Printer
    The Senate Gift Shop acquired a color printer which prints in 
quantity on card stock, allowing in-house production of educational 
inserts for merchandise in smaller quantities than would be possible 
using outside printers. This results in cost, time, and resource 
savings.

                   <greek-l>sos deg.HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by Members and staff, the media, scholars, 
and the general public. The Office staff advises Senators, officers, 
and committees on cost-effective disposition of their noncurrent office 
files and assists researchers in identifying Senate-related source 
materials. The historians keep extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,900 former 
and current Senators. The staff edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with key 
Senate staff. The photo historian maintains a collection of 
approximately 40,000 still pictures that includes photographs and 
illustrations of Senate committees and nearly all former Senators. The 
Office staff develops and maintains all historical material on the 
Senate Web site, Senate.gov.

Editorial Projects
            Sesquicentennial of the Civil War
    In connection with the commemoration of the 150th anniversary of 
the Civil War, the Historical Office published and distributed a 
booklet on ``The Senate's Civil War'', which is also available to the 
public for purchase in the CVC gift shops, an arrangement that reduced 
printing costs. The historians, working with the Office of the Senate 
Curator, designed and mounted a 13-panel exhibit in the Senate wing of 
the Capitol exploring the role played by the Senate and its Members 
during the war years. The historians have also posted online and 
updated monthly features relating to the Senate's Civil War experiences 
on the Senate's Web site, and have worked with the CVC staff in 
selecting items for display related to the Civil War and 
Reconstruction.
            Documentary Histories of the U.S. Senate
    The Historical Office continued working on its online documentary 
history series, which presents case studies and primary-source 
documentation for all contested Senate elections, censure and expulsion 
cases, impeachment trials, and major investigations. Intended for use 
within the Senate and by the general public, these documentary 
histories are particularly valuable for teachers who seek to include 
primary-source documents in their lesson plans. This project also 
allows the Historical Office to update case studies of past events and 
add recent case studies, eliminating the need for new print editions of 
past publications, reducing costs, and paper use. Existing case studies 
in three categories (contested elections, censures, and expulsions) of 
this five-stage project have been completed and posted on Senate.gov, 
with new revisions and updated cases added throughout this year. 
Substantial progress also has been made in the remaining two categories 
(impeachment trials and investigations). Three case studies were added 
into the investigations category, on the Truman Committee, the 
investigation into air and ocean mail contracts, and the investigation 
of the attack on Pearl Harbor.
            States in the Senate
    The States in the Senate project, featured on Senate.gov, 
highlights persons and events in each State's history that relate to 
the U.S. Senate, which informs Senators, staff, and constituents alike. 
Historians and staff have collaboratively created timelines and 
compiled selected illustrative images for each of the 50 States. A Web 
design for the project was created in partnership with GPO and the 
Office of Web Technology that provides an interactive timeline for each 
State with links to relevant documentary and visual material, along 
with a table of Senators from each class with service dates. Staff 
entered data and collected more than 1,000 images for all of the 
States.
            Administrative History of the Senate
    The associate historian continued to prepare a historical account 
of the Senate's administrative evolution since 1789. This study traces 
the development of the offices of the Secretary of the Senate and SAA, 
considers 19th and 20th century reforms that resulted in reorganization 
and professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified.
            Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office staff, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, the Office's goal is to 
show how--and why--the Senate's current rules have evolved from earlier 
versions. The Senate's historian emeritus has continued work on this 
project, which will contain eight narrative chapters outlining key 
debates and reasons for significant changes. Appendices will include 
the original text of all standing rules and, for the first time in one 
publication, all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-Present
    The Historical Office continues to expand and update the 
Biographical Directory of the U.S. Congress as needed, including adding 
new Member biographical entries and bibliographical citations that 
incorporate recent scholarship. The Senate historians work closely with 
the historical staff of the House of Representatives to maintain 
accuracy and consistency in this joint Senate-House database, and to 
promote this valuable resource among historians, teachers, students, 
and the public. Senate and House historians and technical staff for the 
House of Representatives continue to collaborate on a planned update of 
the online site in appearance and functionality and have approved a new 
template and overall appearance for the Directory. The Senate archivist 
and her deputies continue to expand and revise the ``Research 
Collections'' aspect of the database, taking advantage of new resources 
on archival collections.
            Senate Manual and Congressional Directory
    The Historical Office has assisted the Senate Committee on Rules 
and Administration with the preparation of the statistical data 
sections of the Senate Manual and the Congressional Directory. Staff 
worked to research, edit, and revise statistical information on the 
1,931 Senators who have served since 1789, along with Senate officers, 
executive Cabinet members, and sessions of Congress.
            Party Conference Minutes, 1965-1977
    Previously, the Historical Office staff edited, indexed, and 
published the Minutes of the Senate Democratic and Republican 
Conferences covering the years prior to 1964, and they are currently 
preparing a similar volume for the Democratic Conference including its 
minutes from 1965 to 1977. After January 1973, verbatim transcripts 
were prepared for each Conference meeting, considerably enlarging the 
documentation. This project has involved scanning and editing 2,869 
pages of transcripts for 102 meetings of the Conference and inclusion 
of an index and explanatory annotations. With the approval of the 
Conference, the minutes will be published, and a similar editorial 
project will be proposed for the Republican Conference minutes for this 
time period. The office has scanned an additional 3,115 pages of 
transcripts for the 73 conferences between 1977 and 1982, for future 
publication.
            Dirksen Senate Office Building Exhibits
    Senate historians, working with the staff of the Senate Curator and 
the Senate Library, continue to prepare new exhibits for the entrance 
room to SDG-50 in the Dirksen Senate Office Building. The first 
exhibits dealt with the life and career of Senator Everett M. Dirksen 
and on the design and functioning of the office building named in his 
memory. These are being replaced with exhibits on the changing design 
of Senate committee rooms in the Capitol and Senate office buildings, 
and on some of the notable investigations held by Senate committees.

Oral History Program
    The Historical Office staff conducts a series of oral history 
interviews to record personal recollections of various Senate careers. 
Interviews were conducted with former Senator Edward E. (Ted) Kaufman, 
who previously served as chief of staff to Senator Joseph R. Biden, 
Jr.; Richard Murphy, who served on the staff of Senator Hugh Scott; 
Barry Piatt, former communications director for Senator Byron L. 
Dorgan; Rufus Edmisten, deputy counsel to the Watergate committee; and 
Barbara Hines, one of the Senate's first female pages. An interview 
with Senate telecommunications personnel was released for research. The 
complete transcripts of 35 interviews conducted since the 1970s have 
been posted on Senate.gov. That site features a different oral history 
interview series each month, including digital audio-clips along with 
the interview transcripts. The Historical Office has worked with the 
National Archives to digitize past oral history interviews, which had 
been archived on magnetic tape, for preservation purposes. Digitization 
also allows for inclusion of short audio segments on Senate.gov. For 
UNUM, the Secretary of the Senate's newsletter, the staff has created a 
regular series entitled ``Senate Voices'', which includes excerpts from 
the oral histories with a contextual introduction.

Member Services
            Educational Outreach
    The historian and associate historian delivered a series of 
``Senate Historical Minutes'' at the weekly Democratic and Republican 
Conference luncheons. These ``minutes'' highlighted significant events 
and personalities associated with the Senate's institutional 
development. Many of them are now included on Senate.gov as 
``Historical Minute Essays''.
            Members' Records Management and Disposition Assistance
    Whenever Senators announced their retirements, the Senate archivist 
held meetings with their staffs to discuss schedules for closing and to 
ascertain specific archiving needs. A new ``closing an office'' 
notebook was compiled to better address the numerous and recurring 
issues involved in preserving a Senate collection. H. Con. Res. 307, 
adopted on June 20, 2008, serves as the introduction to the notebook 
and has proved to be an effective outreach tool to Senators and their 
senior staff. As a result of these meetings, some Senators have hired 
archivists to assist with this specialized process; others have 
dedicated staff to perform the necessary work. All offices appear to be 
working more closely with their selected archival repository. This 
planning has become increasingly valuable in the digital era.
    Eighteen offices closed at the end of the 111th Congress. This 
presented a good opportunity to observe recordkeeping practices in 18 
percent of Members' offices. While some offices still relied on paper 
to transact business, the majority used a variety of electronic 
systems. Senators increasingly used computer notepads to view their 
daily briefing memos. Senators have also made use of social media, 
particularly YouTube, Facebook, and Twitter. Offices showed variations 
in levels of understanding how to preserve these files, and were 
curious about what services a research repository can provide. These 
insights led to an Office Archives Toolkit specifically designed for 
new offices. Amid the demands of setting up the office, staff can begin 
to create filing systems that not only can be of immediate use but can 
lead to long-term archival preservation. The Toolkit contains 18 
readily accessible ``tools'' ranging from an office policy statement to 
a records management control table. It includes suggestions for the 
systems administrator, personal records management advice, and 
archiving email strategies sandwiched in between. The Toolkit is 
available in hard copy, on a disk or on the Senate's intranet, Webster. 
The Toolkit points out that from the start there will be archival 
records in the form of constituent communications that need to be 
managed. It also covers what Senators should look for in an archival 
repository and what they should keep for their research collections.
    The archivist made extensive revision of the Records Management 
Handbook for U.S. Senators and Their Archival Repositories. Archival 
guidance in the form of ``Quick Cards'' were updated and augmented by a 
fourth card on social media communications archiving. A staff exit-
interview form designed to provide better context of their records, was 
supplemented by a new checklist for locating records among portable 
media.
    The Senate archivist held a series of brown-bag lunch discussions 
for archivists in committees and Senators' personal staffs. These 
focused on records management, storage and electronic records. Informal 
meetings of Capitol Hill Archivists and Records Managers (CHARM) 
focused on description standards, electronic records description, and 
improving capture of email.
    The archivist listserv serves as an effective means for updating 
archival staff about records management and archival guidance. The 
Senate archivist continues to work with the repositories receiving 
senatorial collections to ensure the adequacy of documentation and the 
transfer of records with adequate finding aids, helping to lower costs 
for the receiving repositories and providing guidance on electronic 
records. The archivist and Senate historian presented a talk on the 
history of the Senate's archives to Senate staff. The talk was also 
presented to a graduate class on documentation at the University of 
Maryland.
            Committee Records Management and Disposition Assistance
    The Senate archivist provides Senate committees with staff 
briefings, guidance on preservation of information in electronic 
systems, and instructions for the transfer of permanently valuable 
records to the National Archives' Center for Legislative Archives. A 
survey conducted of the committees' electronic archiving revealed that 
almost all committees had voluminous electronic record backlogs that 
require archival review. The backlogs fall into three categories:
  --files of committee staff that have departed the committee;
  --share drives; and
  --accumulated email.
    Because of the Senate's increasing employment of electronic 
records, the Senate archivist continues to encourage committees to hire 
their own archivists. Over the past year, the Committee on the Budget 
and Select Committee on Indian Affairs added archivist positions, 
making a total of nine archivists on eight committees. The result has 
been a positive improvement in the quality of historical documentation 
of these committees.
    There remains a danger of losing electronic records that are 
sitting in backlogs. This year the archivist began offering direct 
electronic records processing assistance to committees and is currently 
working on electronic records backlogs of six committees, some dating 
from the 1990s. Thirteen of the 17 committees (75 percent) are engaged 
in archiving electronic records. The Senate now has 2.5 terabytes of 
data stored at the National Archives and Records Administration's 
Center for Legislative Archives. There is a growing gap between the 
documentary qualities of the records being archived from committees 
that have archivists as opposed to those without archivists or those 
that have not sought specific help with their electronic records.
    Direct processing of electronic records rendered valuable insights 
about contemporary staff record-keeping. Close evaluation of staff 
email accounts for the purposes of description, revealed some unusual 
gaps indicating that staff members were not totally aware of how to use 
the email archive folder function. These were addressed with targeted 
guidance. Dealing with large digital backlogs also has allowed for a 
refinement of the description of digital records.
    Working with the Office of Senate Security, the archivist created 
an appraisal chart specifically for classified records. The chart is 
designed for use by security officers and archivists to identify 
historically valuable classified records and to eliminate the hundreds 
of feet of such material regularly sent in multiple copies to the 
Senate. A top concern is the preservation of the classified notes staff 
take at briefings, usually the only record of such meetings.
    Three new archives IT initiatives began during the past year. A 
large file transfer system for transferring records accessioning and 
description documentation to the Center for Legislative Archives was 
implemented and has cut down substantially on the use of paper. The 
archivists compiled specifications for a Senate archives virtual server 
that eventually can archive electronic records. The archivists also 
worked with the Center for Legislative Archives Holding Maintenance 
System to provide better tracking of loans back to the Senate.
    The Senate Committee on Rules and Administration has accepted a 
gift of five original Senate Appropriations Committee ledgers covering 
the period from 1870 to 1909. The ledgers were purchased privately by 
an antiquarian bookseller, who then donated them back to the Senate. 
They provide an inventory of appropriations ``by item and by Congress'' 
and fill a significant gap in the historical record of the committee. 
The five ledgers are divided as follows:
  --Agriculture;
  --Army;
  --Fortifications;
  --Pensions; and
  --Post-Office;
  --Diplomatic and District of Columbia;
  --Legislative;
  --Military Academy; and
  --Naval and Sundry Civil Appropriations.
    During 2011, the Senate archivist oversaw the transfer to the 
Archives of 607 accessions of Senate records totaling 2,303 cubic feet 
of textual records and 732.78 gigabytes of electronic records. The 
archivist and deputy archivists responded to 155 requests for loans of 
archived records back to committees. Responsibility for archiving the 
records of the Joint Select Committee on Deficit Reduction was assigned 
to the Senate archivist, who briefed the committee staff as the office 
was setting up. Archiving of those records continues into 2012.
            Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its membership 
representing the Senate includes the Secretary of the Senate, who is 
chairing the panel during the 112th Congress; the Senate Historian; and 
appointees of the Secretary and the Majority and Minority Leaders. The 
Historical Office furnishes support services for the Advisory 
Committee's regular meetings. The archivist and deputy archivist served 
as appointed members of the Next Generation Finding Aid Task Force 
established by the Advisory Committee to develop criteria to improve 
the finding aids for the Senate's archival records. The task force's 
report, which was approved by the Advisory Committee at its June 
meeting, outlines significant steps needed to bring finding aids to 
Senate collections up to contemporary standards. Implementation of its 
recommendations began with training for the archivists in metadata, 
EAD, EAC-CPF, DACS, and Archivists Toolkit, all standards and systems 
required to automate accessioning and description of the Senate's 
historical records. A Task Force on a New Descriptive Tool has been 
created to compile system requirements for a new accessioning and 
description system. When fully implemented, the system will streamline 
the description, accessioning, and management of the Senate's archival 
collections from their origin within committees to their use for 
research.

Educational Outreach
    The Historical Office's correspondence with the general public has 
increasingly taken place through Senate.gov. The historians maintain 
and frequently update the Web site with timely reference and historical 
information, and each month select related material to be featured on 
the site. During the past year, the Office responded to more than 1,500 
inquiries from the public, the news media, students, family 
genealogists, congressional staffers, and academics, through the public 
email address listed on Senate.gov. The diverse nature of their 
questions reflected varying levels of interest in Senate operations, 
institutional history, and former Members.
    Working closely with the Webmaster's staff, the historians have 
substantially redesigned all the principal pages of Senate.gov, to 
better utilize the online environment to provide timely, accurate, and 
interesting historical material. Beginning in October 2011, the 
historians began monthly thematic presentations of historical essays, 
images, cartoons, and statistics, along with exhibition of primary-
source documents from the National Archives, Library of Congress, and 
other sources, to better serve Senators, staff, and the public. 
Underway are major revisions to the online oral history collection and 
the ``historical minutes'', to make these valuable features more 
interesting and easier to navigate.
    Staff presented seminars on the general history of the Senate, 
Senate committees, women Senators, Senate floor leadership, relations 
between the press and the Senate, the U.S. Constitution, the history of 
Senate impeachment trials, and notable Senate investigations. The 
historians also participated in Senate staff seminars and conducted 
briefings for specially scheduled groups. The associate and assistant 
historian met with teachers from the National Council for the Social 
Studies, and offered specialized tours to Senate staff, including a 
tour of Capitol locations associated with the Civil War.

Photographic Collections
    The Senate photo historian consulted with other image professionals 
in planning the renovation of the collection space, to create an 
environment conducive to the preservation and access of the image 
collection. She successfully oversaw the physical transfer of the 
Senate's image collection to the newly renovated office space, and 
arranged for the transfer of thousands of historic negatives to the 
Center for Legislative Archives.
    The photo historian ensured history-focused photographic coverage 
of the contemporary Senate by photographing Senate committees, 
collecting formal photo portraits of new Senators, and capturing 
significant Senate events in cooperation with the Senate Photographic 
Studio. She provided timely photographic reference service by phone and 
email, while cataloging, digitizing, relocating, and expanding the 
Office's 40,000-item image collection. She assisted several Senate 
offices in creating collages of all the Senators who previously served 
in that seat.
    The photo historian assisted in the creation and production of the 
brochure, ``The Senate's Civil War'', selecting images to illustrate 
the text and sought permissions to use the images, and collaborated 
with the historical editor and GPO staff to design and publish the 
brochure. The photo historian also selected and obtained an estimated 
1,500 images for the upcoming online exhibit, ``States in the Senate'', 
for its illustrated timelines.
    The photo historian collaborated with the Senate Curator's Office, 
the Center for Legislative Archives, and the Senate Office of 
Conservation and Preservation to select and obtain historic images and 
documents for the Senate Committee on Rules and Administration.
    As the founder of CHARM, an informal group of Senate archivists, 
the photo historian planned tours and professional development events 
for committee and member archivists, and planned its 10th anniversary 
luncheon.

Continuity of Operations Planning
    As the Historical Office's COOP Action Officer and Emergency 
Coordinator, the Senate photo historian continued to update the 
Office's COOP plan in the emergency preparedness database. She made 
regular back-ups of the office's electronic records to store off-site 
in a secure environment. She trained new staff members and interns in 
the Office's emergency evacuation procedures. She updated staff 
members' contact information in the ALERTS system. She provided SAA's 
Continuity and Emergency Preparedness Office with an after-action 
report after the August 2011 earthquake incident and worked to ensure 
that staff members have the resources needed to work off-site in the 
event of an evacuation of the office.

Capitol Visitor Center
    The historians supplied information and guidance to the staff of 
the CVC related to the educational component of the exhibition gallery. 
They have provided material and general editorial review for a new Web-
based training program for staff and tour guides. They made regular 
presentations on the history of the Senate in training seminars for 
Senate staff and interns, and gave morning briefings to the Capitol 
Guide Service. They gave exhibit talks in the CVC, contributed to the 
training of visitor assistants who guide visitors through the 
exhibition gallery, worked with exhibit staff to plan rotations of 
documents and images, and advised the CVC staff on its educational 
outreach programs.
                    <greek-l>sos deg.HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the CAA. The office focuses on developing and 
implementing human resources policies, procedures, and programs for the 
Office of the Secretary of the Senate that fulfill the legal 
requirements of the workplace and complement the organization's 
strategic goals and values.
    These responsibilities include:
  --recruiting and staffing;
  --providing guidance and advice to managers and staff;
  --training; performance management;
  --job analysis;
  --compensation planning, design, and administration;
  --leave administration;
  --records management;
  --maintaining the employee handbooks and manuals;
  --internal grievance procedures;
  --employee relations and services; and
  --organizational planning and development.
    The Human Resources staff administers the following programs for 
the Secretary's employees:
  --the Public Transportation Subsidy program;
  --SLP;
  --FMLA program;
  --parking allocations; and
  --the summer intern program that offers college and other 
        postgraduate students the opportunity to gain valuable skills 
        and experience in a variety of Senate support offices.
    Human Resources staff has completed migration of eligible commuters 
to the Smart Benefits Program, which is operated by the Washington 
Metropolitan Area Transit Authority.

Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates, and 
assisting with all phases of the hiring process. Human Resources staff 
coordinate with SAA Human Resources Department to post all SAA and 
Secretary vacancies on the Senate intranet, Webster, so that the larger 
Senate community may access the posting from their own offices. In an 
effort to reach a larger and more diverse applicant pool, the 
department uses multiple posting forums to reach potential applicants 
for employment. As a result, the Human Resources Department processed 
more than 3,000 applications for vacancies in the Secretary's Office, 
including review of applications, coordinating scheduling of candidates 
for interview, sending out notices to both successful and unsuccessful 
candidates, and finalizing new hire paperwork. All new hires also 
receive orientation from the Human Resources staff when they come on 
board.

Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continues to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
FMLA administration, and an overview of the CAA. Human Resources staff 
also works with different department employees on topics specific to 
their group in outreach efforts to enhance teamwork in the workplace.

Veterans Employment Opportunity Act of 1998
    In 2011, the rights and protections of the Veterans Employment 
Opportunity Act of 1998 (VEOA) became applicable to the Office of the 
Secretary of the Senate through the CAA. Eligible veterans now receive 
hiring preferences over nonveterans for most of the job openings in the 
Secretary's Office and can seek legal redress if they believe they have 
been denied their veterans' preference rights. Consistent with its new 
obligations under the VEOA, the Secretary's Office has identified more 
than 204 VEOA preference-eligible positions within its organization, 
has instituted a process for proper application of the veterans' 
preference law and, to date, has invited preference-eligible veterans 
to apply for 19 job openings.

Congressional Internship for Individuals With Intellectual Disabilities
    In February 2012, the Office of the Secretary of the Senate 
received approval to participate in a unique internship program for 
students with intellectual disabilities--the Congressional Internship 
Program for Individuals with Intellectual Disabilities. The internship 
program, which lasts 12 weeks, gives students with intellectual 
disabilities the same educational and enrichment opportunities 
typically afforded to congressional interns here in our Nation's 
capital. Interns work for one 2-hour session each week. The interns 
work with their congressional offices, as well as job coaches 
specifically trained to assist the students, to complete various office 
tasks as assigned.

Interns
    Human Resources manages the Secretary's internship program. From 
posting vacancies, conducting needs analyses, communicating, screening, 
placing and following up with all interns, the staff keeps a close 
connection with these program participants in an effort to make the 
internship most beneficial to them and the organization.

Operation Warfighter
    In December 2010, Human Resources, on behalf of the Secretary, 
received approval to host Wounded Warriors from DOD's Operation 
Warfighter (OWF) program. The unpaid internship program is open to all 
wounded and ill servicemembers assigned to a Military Treatment 
Facility, an Army Warrior Transition Unit, the USMC Wounded Warrior 
Regiment, the Air Force Wounded Warrior Program, or the Navy Safe 
Harbor Program. The program positively impacts the recuperation 
process, and provides meaningful activity outside of the hospital 
environment that positively impacts wellness.

Combined Federal Campaign
    The office has again taken an active role in the Combined Federal 
Campaign for the Senate community at-large. The office serves as co-
directors of the program. The staff participates in kick-off meetings, 
identifies key workers in each office, and disseminates and collects 
necessary information and paperwork.

                  <greek-l>sos deg.INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within SAA, GPO, and 
outside vendors on technical issues and joint projects. The department 
provides computer-related support for all LAN servers within the office 
of the Secretary of the Senate. Information Systems staff provide 
direct application support for all software installed workstations, 
initiate and guide new technologies, and implement next-generation 
hardware and software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the Member offices, and complying with office 
mandated and statutory obligations.

Fiscal Year 2011 Technology Initiative Summary
    The department technology initiatives concentrated in four specific 
areas:
  --Improvements in workflow process, efficiency, and security;
  --Deployment of improved hardware and software technologies;
  --Business continuity planning and disaster recovery improvements; 
        and
  --Network Perimeter and End Point Security Awareness.
            Improvements in Workflow Process Efficiency and Security
    Each Secretary of the Senate department has adopted IT security 
policies and improved procedures for the handling and migration of 
business-related electronic documents. In partnership with the SAA 
Security and Operation staff, educational awareness training is now 
mandated for all staff, intern, and contractor personnel. Each 
department head is required to assess the data involved, how it might 
be accessed on a variety of devices, and insures all data is encrypted 
when migrated out of the office environment.
    Since November 2008, Information System staff has worked in 
partnership with SAA development staff testing improved access methods 
of virtual private networks. In 2010, new technology was implemented to 
provide the Senate community with improved access to their office 
workstations when working from home or outside of the office. Improved 
Web-based secure access is now available to establish secure network 
routing to an employee's office workstation when working remotely.
    Improved security token hardware and software was installed in 2011 
to ensure compliance with evolving security standards and to minimize 
threats to the Senate network.
    Implemented and installed an improved version of legislative 
reporting in order for staff to run LIS reports via a Web browser 
session. This feature allows all of the reporting features of the 
existing clerk LIS application and eliminates the installation of 
client software at each workstation. Additionally it provides the 
Senate Library staff additional research tools when accommodating 
requests from the senate community.
            Deployment of Improved Hardware and Software Technologies
    Completed third phase of network printer hardware replacement 
program by replacing all color network printers with improved high-
speed models that reduce energy use up to 50 percent with instant-on 
technology.
    Improved BlackBerry devices support by utilizing new Web-based 
administrative tools to manage devices, and applied backup process in 
managing service accounts. This provides a much quicker response to 
securely lock down devices in the event of a misplaced or stolen 
device.
    Upgraded the reporting functionality for the hardware server 
application which remotely deploys system and application patches for 
server and workstation hardware. Improved reporting means higher levels 
of asset management and additional accuracy when deploying patches to 
hardware systems.
    Completed laptop hardware upgrades for all department head staff 
and legislative floor dais staff. Upgraded all COOP laptop hardware 
located on campus at the emergency operations center and at the 
leadership coordination center. Replaced and refreshed all COOP laptop 
hardware located at multiple offsite locations.
    Retired three hardware servers in the Office of Public Records and 
virtualized the primary office database applications. This project, in 
part, minimized the impact of the office renovations in August 2011, 
providing the staff the ability to continue business as usual in their 
alternate location.
    Completed 21 major LIS software upgrades and installed updated LIS 
application software in all legislative clerk offices, alternate 
computing facility, and offsite home laptop locations. Virtualized the 
LIS applications for the Senate Library staff which streamlined the 
availability of application for LIS users. Added LIS web reporting 
functionality to allow staff to retrieve reports via a secure Web 
browser.
    Retired hardware server in the office of Human Resources. 
Virtualized the human resource information system application and 
relocated the application to an existing platform located at the 
datacenter in Postal Square (higher availability).
    Replaced three hardware platforms at the primary computing facility 
(PCF) and upgraded the BlackBerry Exchange server hardware platforms to 
a virtual infrastructure. This was accomplished for the Secretary of 
the Senate, Disbursing, and SCCE offices. Additionally, three hardware 
platforms for each respective office were retired at the alternate 
computing facility (ACF). These ACF servers are the major active 
directory server for each office and critical in the failover 
capability when moving network resources to an alternate location.
    Upgraded unclassified workstations in the Office of Senate 
Security. Finalized the design and delivery of a new improved 
SharePoint server hardware platform for the office classified network. 
This new design will accommodate the increase workload with the room 
reservation system, and provide additional efficiency using a virtual 
server instance to manage classified data.
    Information Systems staff initiated new technologies to reduce 
ongoing application support cost by introducing a ``virtual 
application'' in the office. Virtual applications are installed once 
and available on a centralized server and need not be installed 
multiple times on all workstations. The first application candidate for 
all staff use is an XML editing application and this is now hosted as 
the first Secretary ``thin application'' for staff use.
    Evaluated multiple portable teleconferencing solutions to be used 
by the executive office staff.
    Implemented a low-cost computing terminal emulation hardware 
solution for the Office of Public Records, the Office of Printing and 
Document Services, and the summer internship program. This evolving 
hardware technology is a network appliance that replaces the standard 
office personal computer with a low-cost hardware device. Multiple 
appliances can then be networked to a single host to run software 
applications. A cost saving is realized not only in foregoing the 
purchase of additional personal computers, but also with the reduction 
of ongoing support for the additional system patches and updates.
            Business Continuity Planning and Disaster Recovery 
                    Improvements
    Replaced all laptop hardware for department heads, the Disbursing 
Office, and SCCE.
    Added portable servers in the Disbursing office at the ACF. This 
solution provides a nightly scheduled backup and a replica of the Hart 
location data to the ACF facility.
    Upgraded legislative staff with improved laptop hardware at the 
dais chamber location for a more streamlined and secure connection to 
the Senate network.
    Created a ``virtualized'' and encrypted software solution for the 
Senate Enrolling Clerk in order to process legislation when staff 
reside offsite. Virtualization of mission critical workstation 
applications provides for a way to lower the support time and cost 
required to keep offsite laptops updated with current software 
revisions. It also provides a more efficient process to migrate 
existing applications to numerous systems thus making it available to a 
wider range of key personnel who require the application access.
    Parallel in completing the Enrolling Clerk virtual host project, 
Information System staff partnered with GPO technical staff to provide 
two functional offsite hardware printers for use during a COOP event. 
This functionality provides the Enrolling Clerk staff the ability to 
print multiple types of parchment style documents for delivery to the 
White House in the event of an office closure or relocation.
    Updated and migrated the Member accountability client application 
to function with the SAA Windows SQL 2008 Server platform. Configured 
four virtual hosts, one reserved specifically for training purposes, 
and one virtual ``always on'' instance that resides at the PCF 
datacenter. Configured and made this available virtual solution for the 
Secretary of the Majority and the Secretary of the Minority offices.
    Demonstrated the capability during the COOP offsite exercise in May 
2011 to transfer data files directly from the Official Reporters of 
Debate Stentura device to GPO. During a COOP event key personnel may 
not always be available, and this test functionality eliminated three 
personnel in the floor proceeding data transfer process. The test data 
transferred to GPO was compiled successfully by their staff to produce 
the Congressional Record for the exercise.
    Configure http protocol ``quick links'' on the improved Senate Web 
portal appliance for staff to remotely connect to the office 
workstation. Presently 70 percent of the staff has some method of 
secure remote access to Senate network resources.
    In the event GPO ``fails-over'' their operation at North Capitol 
Street, NW. changes to the legislative file transfer process to support 
transactions between the Secretary's office and GPO have been 
implemented. A secondary backup (encrypted) file transfer method has 
also been implemented between GPO, the Senate Office of Legislative 
Counsel, and the Office of the Secretary. Demonstrated secure file 
transfer capability during the May 2011 offsite exercise.
    In partnership the SAA Security Operations Center, selected and 
tested COOP offsite laptops operation using the Senate vulnerability 
assessment software tool. This software tool is now available to the 
Senate community. Future testing in 2012 will involve the testing of 
the Executive office workstation.
    IT staff continue to monitor email spam filtering applications. 
Present rate of undesirable email messages average 6,000 messages per 
day, which is approximately a 30-percent reduction from fiscal year 
2010. Email messages to staff who are no longer employed by the 
Secretary's office continue to be removed from the messaging server.
    Information Systems staff continue to monitor network security 
ensuring best practice information is available to all staff. Developed 
global security server policies to automatically lock computer 
terminals after 1 hour of application inactivity.
    Staff continues to provide a BlackBerry scanning service for staff 
prior to travel outside of the United States.
    Staff continues to manage the alerts notification database for all 
Secretary staff. Database information is verified nightly to ensure 
email, voice, and BlackBerry personal identification number information 
is valid and will function during an emergency.
    After implementation of the Lumension Deployment server, 
Information Systems staff continues to maintain the inventory of all 
applications for 300 workstation installations. The office now has the 
ability to review in real time which systems require application 
updates, and can deploy security patches without interruption to the 
business owner.
            Ongoing and Future Projects in 2012
    As server and laptop hardware nears the end of the maintenance 
lifecycle, replace older hardware servers with virtual server 
solutions. All active directory server hardware was updated in fiscal 
year 2010. PCF and ACF domain controllers were virtualized for fail-
over capability in 2011.
    Evaluate new Senate active directory enterprise solution for 
Secretary of the Senate, Disbursing Office, and SCCE.
    Migrate to next generation of Microsoft Exchange E-mail Server. 
This was accomplished in January 2012.
         <greek-l>sos deg.office of interparliamentary services
    Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute, for interparliamentary conferences in which the Senate 
participates on an ad hoc basis, and for special delegations authorized 
by the Majority and/or Minority Leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly;
  --Mexico-United States Interparliamentary Group;
  --Canada-United States Interparliamentary Group;
  --British-American Interparliamentary Group;
  --United States-Russia Interparliamentary Group;
  --United States-China Interparliamentary Group; and
  --United States-Japan Interparliamentary Group.
    In 2011, IPS was responsible for organizing the following 
interparliamentary conferences:
  --the U.S.-China Interparliamentary Group;
  --the Mexico-U.S. Interparliamentary Group; and
  --the British-American Parliamentary Group.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, IPS provided assistance to individual Senators and 
staff traveling overseas. Senators and staff authorized by committees 
for foreign travel continue to call upon this office for assistance 
with passports, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS assists staff members of Senators and 
committees in filling out the required reports.
    IPS maintains regular contact with DOD, the Department of State and 
foreign Embassy officials. The office staff organizes visits for 
official foreign visitors and assists them in setting up meetings with 
leadership offices. The staff continues to work closely with other 
offices of the Secretary of the Senate and SAA in arranging programs 
for foreign visitors. In addition, IPS is consulted by individual 
Senate offices on a broad range of protocol questions. Occasional 
questions come from state officials regarding congressional protocol.
    On behalf of the Senate Majority and Minority Leaders, IPS arranges 
official receptions for heads of state, heads of government, heads of 
parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign dignitaries under authority of Public 
Law 100-71 are maintained by IPS.

Continuity of Operations Planning
    IPS regularly reviews its COOP plan with ongoing discussions, 
updating materials kept offsite, evaluating evacuation procedures, and 
working from remote sites.

        <greek-l>sos deg.LEGISLATIVE INFORMATION SYSTEM PROJECT

    LIS is a mandated system (section 8 of the 1997 Legislative Branch 
Appropriations Act, 2 U.S.C. 123e) that provides desktop access to the 
content and status of legislative information and supporting documents. 
The 1997 Legislative Branch Appropriations Act (2 U.S.C. 181) also 
established a program for providing the widest-possible exchange of 
information among legislative branch agencies. The long-range goal of 
the LIS Project is to provide a ``comprehensive Senate Legislative 
Information System'' to capture, store, manage, and distribute Senate 
documents. Several components of the LIS have been implemented, and the 
project is currently focused on a Senate-wide implementation and 
transition to a standard system for the authoring and exchange of 
legislative documents that will greatly enhance the availability and 
re-use of legislative documents within the Senate and with other 
legislative branch agencies. The LIS Project Office manages the 
project.

Background: Legislative Information System Augmentation Project
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted XML as the primary data standard to be 
used for the exchange of legislative documents and information. 
Following the implementation of LIS in January 2000, the LIS Project 
Office shifted its focus to the data standards program and established 
LIS Augmentation Project (LISAP). The over-arching goal of the LISAP is 
to provide a Senate-wide implementation and transition to XML for the 
authoring and exchange of legislative documents.
    The current focus for LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC), the 
Office of the Enrolling Clerk, the Senate Committee on Appropriations, 
and GPO. The XML authoring application is called LEXA, an acronym for 
the Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML tags inserted by LEXA 
provide more information about the document and can be used for 
printing, searching, and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC, the Enrolling Clerk, and the editorial and 
printing staff of the Committee on Appropriations to create an 
application that meets the needs for legislative drafting.

Legislative Information System Augmentation Project: 2011
    The LIS Project Office continued to provide support to the SLC, the 
Senate Committee on Appropriations, and the Senate Enrolling Clerk in 
their use of LEXA for drafting, engrossing, and enrolling. In addition, 
drafters in the Committee on Commerce began using LEXA in mid-2011 to 
create measures in XML instead of locators. With the addition of the 
Commerce drafters, it is now possible that all measures in the second 
session of the 112th Congress will be produced in XML. In addition, GPO 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to make the drafting process faster, 
more efficient, and more consistent. LIS staff trained new drafters and 
interns in the use of LEXA.
    Changes to LEXA included upgrading all users to Xmetal 6.0 and to 
Perl 5.8.9 libraries. Xmetal is the underlying software for LEXA, and 
the 6.0 version is compatible with Vista and the 32-bit version of 
Windows 7. Perl is the main programming language used in building the 
LEXA application. The upgrade projects required extensive testing of 
LEXA on multiple operating systems including XP, Vista, and Windows 7.
    Several new features and improvements were made to LEXA in the past 
year. One new feature allows a user to easily create a valid XML 
document from multiple XML documents. The Enrolling Office often has to 
work with very large documents, and changes were made to speed up the 
printing of large documents. The project to convert, edit, and print 
the compilations of existing laws continued with improvements to 
printing to portable document formats and quicker access to open 
compilations from an index document. Several enhancements were made to 
correctly set form, endorsement, and printing parameters for bills 
reported by the Senate Committee on Appropriations. New document 
templates and printing procedures were created for the Committee on 
Commerce. Because the text of new documents can come in many different 
formats, an important update to LEXA is improvements in copying non-
XML-formatted text and pasting into LEXA in a valid XML format. The 
previous paste process added the text, but a great deal of time and 
effort was required to conform the document to valid XML.

Continuity of Operations Planning
    Several procedures have been implemented to provide for COOP. All 
source code and data files are backed up nightly to a drive in the 
office, and each LIS Project Office staff member carries an encrypted 
flash drive containing the office COOP plan, documentation, and the 
most recent version of LEXA. All the software and documentation 
required to create the development environment and a LEXA end user 
environment are available in duplicate copies of the LIS Project Office 
fly-away kit. The COOP plan and the fly-away kits are updated 
frequently, and one fly-away kit is kept in an off-site location. 
Regular testing of the ability to work remotely is conducted via Senate 
laptops and personal computers to ensure that application development 
and user support can continue if access to the office is not possible.

Legislative Information System Augmentation Project: 2012
    The LIS Project Office will continue to work with and support all 
the Senate offices now using LEXA and will continue to work with the 
House, GPO, and the Library of Congress on projects and issues that 
impact the legislative process and data standards for exchange. Several 
offices within these organizations will participate in two projects. 
The LIS Project Office is working with staff from the Legislative 
Computer Systems (LCS) in the Office of the Clerk and GPO on a pilot 
project to create and print committee reports in XML. A second group 
project to collaborate on changes needed for using XML for codification 
bills and the U.S. Code includes participants from the Law Revision 
Counsel, the Senate and House Legislative Counsel, and LCS.
    Xmetal 7.0 will be released in 2012, and the LIS Project Office 
will conduct extensive testing before upgrading LEXA users. Xmetal 7.0 
will be certified to operate on the 64-bit version of Windows 7, and it 
will provide interfaces to content management systems. Following the 
Xmetal upgrade, testing will begin on an interface between Xmetal and 
Sharepoint and on upgrading to the .Net4 framework.

                        <greek-l>sos deg.LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The Library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audiobooks; 
and a wide array of online resources. The Library also authors content 
for three Web sites--LIS.gov, Senate.gov, and Webster, the Senate's 
intranet.
    The Library marked 140 years of service to the Senate with the 
complete transfer of the SIS program from the SAA, a full program 
review, the launch of a redesigned FrontPage portal to include all 
electronic resources available Senate-wide, the release of a new State 
NewsWatch portal focused on regional and local news sources, the 
upgrade and replacement of the Senate's Westlaw custom search 
interface, the continued development of a redesigned custom search 
interface for LexisNexis, the full implementation of new internal 
processes and a Web-based application to log SIS support requests, and 
the issuance of new contracts for the procurement of online research 
services for the delivery beginning in fiscal year 2012.
    Senate-wide access to several specialized products was terminated 
as of December 31, 2011. In light of price increases incurred in 
several online products, overall Senate usage of these news and 
research services did not justify the cost of continuing access. 
Available SIS program funds were reallocated to preserve Senate-wide 
access to core services identified in the Senate research services 
survey conducted in November 2010. These changes in service were 
authorized by the Secretary of the Senate with the approval of the 
Senate Committee on Rules and Administration and are a consequence of 
reductions in program funding.
    The Library's creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery continues to meet the Senate's 
increasing demand for information.

Notable Achievements
    Successful outreach efforts contributed to an increase in Library 
usage in the following areas over the past year:
  --the Library catalog experienced a 24-fold increase in visits from 
        3,804 Senate staff;
  --patron computer accounts are up 66 percent; and
  --online book requests are up 23 percent. Loans of audiobooks 
        increased 13 percent and travel books by 46 percent.
    Targeted efforts to reach underserved State staff and interns were 
rewarded with a total of 830 staff participating in 150 classes, tours, 
and webinars. This represents a 65-percent increase in the number of 
training opportunities offered and a 119-percent increase in the number 
of staff trained.
    The Library catalog now provides Senate staff with desktop access 
to more than 39,649 full-text electronic documents and online 
resources, an increase of 15 percent more than 2010.
    Library staff and interns completed the retrospective digitization 
of Senate Executive Calendars from 1997 to the present, creating the 
only digital archive of this material with the goal of making it 
publicly available.
    Catalog records for confirmation hearings on appointments to the 
Federal judiciary and the armed forces have been enhanced to allow 
searching by the names of all individual nominees.
    Three well received display cases were completed on African 
Americans in the Civil War;Philip Reid and the Slaves Who Built the 
Capitol; and 19th Century Gilded Book Bindings in the Senate Library.
    The online Senate Services Directory (Red Book) was released on 
Webster, featuring a new taxonomy developed by the Library in 
collaboration with the Office of Web Technology and the Sergeant at 
Arms' Assistant Sergeant at Arms (ASAA)/Chief Information Officer (CIO) 
Office.

Senate Library Inquiries, Online Book Requests, and Patron Accounts
    The increase in requests for online materials, the availability of 
new and enhanced database offerings, and the expanded availability of 
resources on the Web have not dampened the overall demand for high-
quality Library resources and services. Librarians answered 25,123 
walk-in and email reference requests in 2011.
    Senate staff continued to demonstrate an increasing preference for 
Web-accessible resources. Use of Library-created resources on Webster 
increased to 184,551 page visits, an increase of 108 percent from 2010. 
Links to the Library's Hot Bills, appropriations, and cloture table 
content from LIS added 13,954 page visits while referrals from LIS to 
FrontPage and the Library's Web site totaled 6,924. Usage statistics 
for Library's popular Virtual Reference Desk on Senate.gov are not 
available for 2011 as a consequence of a change in the overall site 
architecture.
    The January launch of the Library's new FrontPage electronic 
resources portal marked a seamless transition of the site from the SAA 
to the Library. The new portal received 82,016 page visits in its first 
year. Senate staff turned to SIS program support 147 times for help 
with accounts, resource access, and custom news profile requests. 
Program staff logged an additional 150 requests with program vendors 
related to program site maintenance and support during 2011.
    The Library received 818 online book requests in 2011, a 23-percent 
increase more than the previous year. The increase can be attributed to 
the online book request form on the Library catalog, as well as to the 
promotion of online topical bibliographies that highlight the Library's 
collections of audiobooks, travel books, and new books. Audiobook loans 
increased by 13 percent, travel books increased by 46 percent, and new 
books decreased by 8 percent from 2010 levels.

                          ONLINE BOOK REQUESTS
------------------------------------------------------------------------
                                                                Number
------------------------------------------------------------------------
2006.......................................................          127
2007.......................................................          192
2008.......................................................          332
2009.......................................................          489
2010.......................................................          666
2011.......................................................          818
------------------------------------------------------------------------

    Seventy-two percent of the Library's patrons are Senate office and 
committee staff members while the remaining users include support 
office staff, members of the accredited press, and government agencies.
    A total of 889 new patrons were registered in 2011, a decrease of 
10 percent more than the number of new staff registered in 2010. 
Targeted outreach to Senate interns resulted in an increase of 63 
percent in the number of intern borrowing accounts during the same 
period.
    Other activities for 2011 included setting up 458 new computer 
accounts for our patron workstations, a 67-percent increase from 2010, 
as well as providing the following document printing and delivery 
services:

              INFORMATION SERVICE SUPPORT ACTIVITIES, 2011
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
Circulation:
    Document deliveries....................................        4,391
    Item loans.............................................        3,371
Pages printed:
    Microform pages printed................................          648
    Photocopies............................................       51,278
                                                            ------------
      Document delivery total..............................       59,688
------------------------------------------------------------------------

Senate Library Content Creation
            Senate.gov Web site Content
    A new page, New Senators, 2001-present, was launched in May that 
lists all new Senators by Congress as they are sworn in, including 
Senators whose service begins at the start of a Congress as well as 
those whose service begins later that year or during the second 
session. The table is arranged in reverse chronological order by 
Congress and Senate service start date.
    Dates of Sessions of the Congress, present to 1789 was revised in 
November. The page lists the convening and adjournment dates for both 
the House and Senate for every session of Congress beginning in 1789.

Senate Webster Content
            Senate Information Services Program Content
    The Library's new SIS FrontPage portal was launched in January with 
the collaboration of the Office of Web Technology featuring a tabbed 
format highlighting online resources for news, legislative, legal, and 
general policy research. Key parts of the site include a display of 
current course offerings and a graphical ad that are linked to current 
service promotions. The addition of a linked program news page provides 
an efficient and timely means to alert users to changes in SIS program 
services.
    A new portal, State NewsWatch, focused on regional and local news 
sources, was also launched in January. The site was created in response 
to an expressed need by Senate staff for more access to local news. The 
design was the result of a collaborative effort of a team of Library 
staff and the platform vendor. In 2011, Senate staff viewed 28,561 
pages on the site that now includes all news feeds authorized for 
redistribution by SIS program vendors.
    A revised Senate Westlaw custom search interface was released in 
August. The new site highlights frequently used business, news, 
legislative, and legal content. Development was a collaborative effort 
between a team of Library staff and the vendor.
            Senate Library Web Site Content
    A Library team revised and updated the Library training related 
pages on the Library's Web site to create a unified page presenting 
Library and SIS vendor course offerings, to modify course listings to 
accommodate the new webinar format, and to provide a link to the 
Library's monthly promotional flyer. All training related pages on the 
Library's site received 27,424 visits from Senate staff.
            Other Digital Content
    Library staff completed the first phase of the retrospective 
digitization of the Senate Executive Calendars from 1997 to the present 
in response to staff requests for older editions of the calendar. Work 
will continue on the digitization of the remaining Executive Calendars 
in the Library's collection. This collaborative project between the 
Library, the Senate Executive Clerk, the Office of Web Technology, and 
the LIS Project Office will build a complete digital collection from 
the Library's bound editions and form the basis for a future online 
digital archive available on Senate.gov and Webster.
    In anticipation of an update to Senate Committee Print 99-95, 
Senate Cloture Rule, substantial improvements were made to the 
Library's XML cloture tables by adding Congressional Record volume and 
page numbers for each motion and vote from 1917 to the present. Summer 
interns collaborated on this project helping with research and data 
entry.
            Senate Knowledge Base
    The Senate knowledge base is an institutional repository of data to 
support the Webster site taxonomy project and Webster search 
enhancement. To date, 1,129 document records, 1,960 term records, and 
480 organization records in the Senate knowledge base are supporting 
the Webster taxonomy and search projects. The 45-percent increase in 
the number of terms and 19-percent increase in the number of documents 
created this year is a result of a restructuring of the database to 
support the online Senate Services Directory (Red Book) and reporting 
for ``keymatches''.
            Webster Online Services Directory (Red Book)
    The online Services Directory was launched in January as a joint 
effort between the SAA ASAA/CIO office and the Library. The online 
directory combines Web page links to internal and selected external 
services, links between related terms and services, along with contact 
information contained in the Red Book. The Red Book was a printed 
directory (last published in November 2010) created by the Senate 
telephone operators as a finding aid for commonly requested numbers and 
services. The online Senate Services Directory is driven by a 
completely new taxonomy that is managed through the Senate knowledge 
base.
            Webster Search Enhancement
    Librarians improve Webster search results by analyzing popular 
search terms and matching them with topically relevant pages or search 
engine ``keymatches'' (which are managed through the Senate knowledge 
base). This improves the chances a searcher will find what he or she is 
looking for on Webster. During 2011, 237 ``keymatches'' were 
established and 719 changes were made to update Web page links.

Instruction and Outreach Programs
    Reference librarians conduct a wide variety of classes and tours 
for Senate staff, including Insider's Guide to Webster, Introduction to 
LIS, Research Tools on Your Desktop, Services of the Senate Library, 
and Got Questions? Targeted efforts to reach underserved State staff 
and interns were rewarded with a total of 830 staff participating in 
150 classes, tours, and webinars. This represents a 65-percent increase 
in the number of training opportunities offered and a 119-percent 
increase in the number of staff trained. Library trainers offered no 
cost Web-based training using Watson conference sessions targeted at 
State staff. Webinars proved to be extremely popular with State office 
staff, which constituted the majority of the 190 session attendees.
    SIS program sponsored vendor training was expanded to include both 
in person and Web-based training from LexisNexis and Westlaw in an 
effort to reach underserved State staff.
    A new course offering titled ``Using the Legislative Information 
System (LIS)'' was taught to 50 participants as part of the Legislative 
Survival Guide training series in collaboration with the Joint Office 
of Education and Training in the fall of 2011.
    The Library gave numerous tours to outside library professionals 
including each semester's Senate Page School class, law library interns 
from the Library of Congress, Catholic University library school 
students, Federal Depository librarians, CRS librarians, and a group of 
visiting Special Library Association member librarians. The Library 
also participated in the CRS District State Institute, instructing 30 
State staff, and participated in the Senate Services Fair, making 
contact with 60 Senate staff.
    Efforts to reach Senate staff more directly though the use of small 
graphics with links to featured resources in staff email signatures and 
by engaging mobile device users with quick response (QR) codes in 
promotions in posters and flyers resulted in 378 click throughs on 
email signatures and 42 page views using mobile devices. The QR codes 
and email signatures change monthly to coordinate with the Library's 
overall promotional program. In 2011, a total of 24 Webster ads for 
Library services were run and 660 flyers were distributed.
    Monthly book displays and online bibliographies highlight the 
Library's collections and stimulate interest in reading new titles. 
Five new bibliographies were created during the year, including From 
the Gilded Age to the Information Age; September 11: A Look Back; Bill 
of Rights: Then and Now; Award Winning Books from the Senate Library; 
and War Stories: Remembering Veterans. The graphical ads featured on 
Webster that linked to the reading lists have resulted in 2,023 
downloads of the new bibliographies and an increase in books requested 
online and in the number of books loaned. October's Award Winning Books 
from the Senate Library proved to be the most popular with staff, 
accounting for 1,150 downloads. The Library's Great Reads for New 
Senate Staff continued to draw in readers as did the Library's 140th 
anniversary promotional list From the Gilded Age to the Information 
Age. The Library's permanent online bibliographies, travel guides, and 
style guides received 28,718 visits from Senate staff.

Collection Development
            Audiobooks
    The Library acquired 45 new audiobook titles in 2011, bringing the 
total number to 170 titles. Designed to assist users with diverse 
needs, including those who may be visually challenged, as well as to 
draw patrons into the Library, the program remains popular with patrons 
whose 902 loans were equivalent to circulating each item in the 
collection more than five times over. An online bibliography of 
audiobooks on Webster contains links to the catalog and the online book 
request form.
            New Digital Resources
    The overall number of searches using the Serials Solution A-Z list 
was 3,156, 60 percent of which were the result of users finding and 
using SIS program content from LexisNexis, ProQuest, and Westlaw. The 
26-percent decline in usage following the launch of the State NewsWatch 
platform in January was because of improved access to State and local 
newspapers and Library efforts to focus training on and increase user 
awareness of the new site. Content was updated to include two new 
databases that resulted from changes in vendor offerings.
    The Library added the Bar Journals Library to its Hein Online 
subscription expanding digital access for librarians to more than 80 
journal titles, and also subscribed to the online version of the legal 
encyclopedia Corpus Juris Secundum on Westlaw which provides a 
thorough, contemporary statement of American laws as derived from 
reported cases and legislation. Senate-wide access was provided to the 
2011 e-book edition of the Gale Directory of Publications & Broadcast 
Media. These resources increase the scope of material available and the 
efficiency with which reference librarians can answer questions from 
Senate staff.
    The Library began offering Senate-wide access to a legislative 
histories database on the ProQuest Congressional platform. The 
legislative histories database provides information on all hearings and 
reports associated with a law and provides direct links to the full 
text of these congressional documents.
            Government Documents
    As a participant in GPO's Federal Depository Library Program, the 
Library receives selected categories of legislative, executive, and 
judicial branch publications. The Library received 8,997 Government 
publications in 2011. In response to the trend of issuing Government 
documents in electronic format, 5,206 links were added to the Library 
catalog, bringing the total number to 39,649, an increase of 15 percent 
more than last year. The links provide Senate staff desktop access to 
the full text of each document.

                           ACQUISITIONS, 2011
------------------------------------------------------------------------
                          Category                              Total
------------------------------------------------------------------------
Congressional documents....................................        7,048
Executive and judicial branch publications.................        1,949
Books (including audiobooks and e-books)...................          841
Electronic links...........................................        5,206
                                                            ------------
      Total acquisitions...................................       15,044
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff in LIS, DMS, the Congressional Record, 
Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic) and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2011, the Legislative Validation Clerk 
submitted 271 corrections out of hundreds of thousands of verified 
legislative actions that took place during the year.

             LEGISLATIVE VALIDATION CLERK CORRECTIONS, 2011
------------------------------------------------------------------------
                                                                Number
                           Office                             submitted
------------------------------------------------------------------------
Bill, Enrolling, Executive, Journal, and Legislative Clerks           88
Reporters of Debates, Morning Business Editor, and Daily             146
 Digest....................................................
GPO and Library of Congress--LIS...........................           37
                                                            ------------
      Total corrections....................................          271
------------------------------------------------------------------------

Cataloging
    The Library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 217,000 
bibliographic items. During 2011, they added 4,673 new titles to the 
catalog (an increase of more than 25 percent from the previous year) 
and performed 28,137 record maintenance and enhancement activities (an 
increase of 18 percent from the previous year), including correcting 
subjects and names that have become obsolete and retrospectively adding 
links to full-text content and book jacket images to existing records.
    Catalogers' time and skills at categorizing and describing content 
are increasingly in demand for taxonomy-related projects designed to 
enhance Webster. These include creating the records that drive 
functionality in the new online Red Book Senate Services Directory, 
analyzing logs of unsuccessful searches to create ``keymatches'' that 
target Webster search results, and developing a topical framework to 
support the development of news alerts, improve content organization, 
and enhance the effectiveness of predefined searches in Senate 
NewsWatch and the InfoViewer client.
    Catalogers created 623 bibliographic records for Senate hearings 
not yet printed using information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
provide preliminary access for Senate staff and remain in the catalog 
until the printed hearing is received and cataloged.
    The catalog is updated nightly to ensure that Senate staff will 
retrieve accurate and current information on Library holdings. The 
addition of 740 book jacket images in 2011, an increase of 38 percent, 
enhanced the catalog's visual appeal.
    2011 was a milestone for the Library catalog, marking its first-
time availability to Senate users via remote access through the 
Senate's virtual private network gateway. Visitors to the catalog 
increased 24 fold as a result of promotional efforts to highlight the 
Library's collection coupled with this expanded access. The Library 
catalog was used by 3,804 Senate staff accounting for 7,210 visits in 
2011.

Library Automation
    An upgrade to the Library's integrated library system was installed 
in September. Among the many fixes, the patch provided support for 
various fields and codes recently introduced by the Library of 
Congress, including a new genre/form thesaurus code and new fields 
intended to support the future implementation of the Resource 
Description and Access (RDA) cataloging rules. The OCLC Connexion 
software, used to create bibliographic records for the catalog, was 
also upgraded on Technical Services staff computers in October.
    The Library purchased a Cognos report writer authoring license as 
an add-on for the integrated library system. This product will enable 
Library staff to write structured query language queries against the 
cataloging and circulation database to create custom reports as needed, 
facilitating catalog maintenance projects, streamlining data exports 
from the catalog, and improving the gathering of statistics.
    The Library and the Information Systems Office worked with SAA 
staff to upgrade and fully implement a Web-based, off-the-shelf call 
tracking application to log, track, and route incoming SIS support 
requests. Clearly defined processes and procedures were also 
established to monitor email and telephone requests and establish data 
entry and statistical requirements prior to use. The result has been 
efficient tracking of calls, vendor support requests, and prompt 
response to the needs of Senate staff.

Preservation, Binding, and Collection Maintenance
    Technical Services staff continued to participate in book repair 
training sessions led by the director of the Office of Conservation and 
Preservation. Trainees repaired 281 volumes, making significant 
progress in the preservation of the Library's bound book collection.
    The Library continues to preserve and protect rare and fragile 
print materials in its collections using commercial binding services 
procured through GPO. In 2011, a total of 48 volumes were sent out for 
binding, and 153 volumes were completed, with excellent results.

Budget
    Budget negotiations with database vendors resulted in flat or 
reduced pricing for online research services and subscriptions. Budget 
savings from price reductions in 2011 online research services and cuts 
in subscriptions totaled $6,000. After 14 years of budget monitoring, 
savings total $155,013. This continual review of purchases eliminates 
materials not meeting the Senate's current information needs. This 
oversight is also critical in containing and offsetting cost increases 
for core materials and for acquiring new materials.

Special Projects
            UNUM, Newsletter of the Office of the Secretary of the 
                    Senate
    UNUM, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997 and is distributed throughout 
the Senate and to former staff and Senators. It serves as an historical 
record of accomplishments, events, and personnel news in the Office of 
the Secretary of the Senate. Highlights from the 2011 UNUM issues 
include articles on letters donated by Senator Fred Harris that shed 
light on the process for choosing the ``Famous Five'' Senators whose 
portraits now hang in the Senate Reception Room; a feature on the 
Senator Bill Frist leadership portrait; an article on the 20th 
anniversary of the Office of Captioning Services; book reviews on Civil 
War books and on ``great reads for new Senate staff''; an article by 
Senate Associate Historian Betty Koed setting the record straight about 
the Russell Senate Office Building basement as a horse stable; and the 
continuation of the ``Senate Voices'' series prepared by the Historical 
Office that contains excerpts of oral histories of former staffers.
            National Library Week
    James Swanson, author of Bloody Crimes: The Chase for Jefferson 
Davis and the Death Pageant for Lincoln's Corpse, was the featured 
speaker at the Library's 13th annual book talk in honor of National 
Library Week with 90 people in attendance. Other events included a book 
display, Rarities and Oddities of the Senate Library, and a well-
attended dessert reception.
            Display Cases
    Hallway display cases continue to educate staff and visitors alike 
while highlighting the Library's collections. Display cases featured 
this year include:
  --African Americans in the Civil War;
  --Philip Reid and the Slaves Who Built the Capitol; and
  --19th Century Gilded Book Bindings in the Senate Library.
            Cooperative Projects
    Hearing Universal Resource Locator (URL) data from the Library 
catalog is exported weekly to provide LIS and THOMAS with full-text 
links to Senate hearings. The Library contributed 2,905 new Senate 
hearing links to the LIS database during 2011, a 176-percent increase 
more than 2010.

Major Library Goals for 2012
    Implement a rebuilt Senate NewsWatch platform to accommodate 
anticipated changes in news feed delivery with better integration and 
presentation of available State and local news content on the site.
    Continue team evaluation and enhancement of instructional course 
offerings, review available applications to create online course 
offerings, and expand Web-based training opportunities to reach State 
staff.
    Complete project to create an online archive of the Senate 
Executive Calendar, in collaboration with the Senate Executive Clerk 
and the Office of Web Technology.
    Complete and release a redesigned LexisNexis customized user search 
interface for the Senate.
    Begin the collaborative development of a topical framework for 
Senate NewsWatch to support the development of news alerts, improve 
content organization, and enhance the effectiveness of predefined 
searches in Senate NewsWatch and the InfoViewer client.
    Create and install two new displays for the entrance to the Dirksen 
Senate Auditorium, SDG-50, under the direction of Senate Committee on 
Rules and Administration in collaboration with the Office of Senate 
Curator and the Senate Historical Office.
    Prepare for the anticipated implementation of new cataloging rules, 
called RDA by the Library of Congress and other libraries worldwide in 
2013.
    Begin project to improve access to the Library's collection of 
unpublished Senate hearings on microfiche by adding item-level records 
to the catalog with links to full-text content.

                                              SENATE LIBRARY ACQUISITIONS STATISTICS FOR CALENDAR YEAR 2011
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             Books         Government documents           Congressional publications
                                                    ------------------------------------------------------------------------------------------
                                                                                                                                    Reports/     Total
                                                      Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaws     Documents
--------------------------------------------------------------------------------------------------------------------------------------------------------
January............................................         21         63        108         49        320         15         65         227         847
February...........................................         18         72         60         80        311         42        137         107         809
March..............................................         14         48        401         72        335         39        123         141       1,159
                                                    ----------------------------------------------------------------------------------------------------
      1st Quarter..................................         53        183        569        201        966         96        325         475       2,815
                                                    ====================================================================================================
April..............................................         12         64        103         83        239         30         91         140         750
May................................................         14         45         68         11        257         20        110         165         676
June...............................................         15         41         82         70        232         11        112         208         756
                                                    ----------------------------------------------------------------------------------------------------
      2nd Quarter..................................         41        150        253        164        728         61        313         513       2,182
                                                    ====================================================================================================
July...............................................         26        131         39          2        283          7        169         294         925
August.............................................         35         90         83         70        452          7        109         171         982
September..........................................         74         63         66         85        283          9         88         226         820
                                                    ----------------------------------------------------------------------------------------------------
      3rd Quarter..................................        135        284        188        157      1,018         23        366         691       2,727
                                                    ====================================================================================================
October............................................         23        105         95         79        228          6         99         166         778
November...........................................         20         50         52         82        188         10        100         197         679
December...........................................         22         69         97         12        188         14         92         185         657
                                                    ----------------------------------------------------------------------------------------------------
      4th Quarter..................................         65        224        244        173        604         30        291         548       2,114
                                                    ====================================================================================================
2011 Total.........................................        294        841      1,254        695      3,316        210      1,295       2,227       9,838
2010 Total.........................................        299        761      1,589        699      3,719        135      1,210       2,726      10,839
Percentage change..................................      -1.67     +10.51     -21.08      -0.57     -10.84     +55.56      +7.02      -18.31       -9.24
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2011
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                Bibliographic records cataloged
                                           S.    ---------------------------------------------------------------------------------------------
                                        Hearing           Books               Government documents             Congressional publications        Total
                                        numbers  ---------------------------------------------------------------------------------------------  records
                                        added to                                                                                  Documents/   cataloged
                                          LIS       Paper    Audio/ E-    Paper      Fiche    Electronic   Hearings    Prints   Publications/
                                                               Books                                                               Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................         17         80          3         19  .........          19        174        126          103          524
February.............................         64         47          4         10  .........          19        185         55           47          367
March................................         18         39          5          4         18           9        273        170           61          579
                                      ------------------------------------------------------------------------------------------------------------------
      1st Quarter....................         99        166         12         33         18          47        632        351          211        1,470
                                      ==================================================================================================================
April................................         40         16          4          3         31          10        158         38           47          307
May..................................         13         12          9  .........  .........          10        206          9           28          274
June.................................         48         13          2          3  .........          13        140         60           61          292
                                      ------------------------------------------------------------------------------------------------------------------
      2nd Quarter....................        101         41         15          6         31          33        504        107          136          873
                                      ==================================================================================================================
July.................................         47         24          1          6  .........          10        120         74           74          309
August...............................         73         40          6          4          3          26        315         76           65          535
September............................          7         41         11          4  .........           7        227         73           55          418
                                      ------------------------------------------------------------------------------------------------------------------
      3rd Quarter....................        127        105         18         14          3          43        662        223          194        1,262
                                      ==================================================================================================================
October..............................         10         63          6          2  .........           9         89          3          156          328
November.............................         38         34          7          3          5          23        163          1          121          357
December.............................  .........         41          6          7          1          16        174          1          137          383
                                      ------------------------------------------------------------------------------------------------------------------
      4th Quarter....................         48        138         19         12          6          48        426          5          414        1,068
                                      ==================================================================================================================
2011 Total...........................        456        450         64         65         58         171      2,224        686          955        4,673
2010 Total...........................        312        338         46         58          7         122      1,796        234        1,135        3,726
Percentage change....................     +46.15     +33.14     +39.13     +12.07    +728.57      +40.16     +23.83    +193.16       -15.86       +25.42
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY DOCUMENT DELIVERY STATISTICS FOR CALENDAR YEAR 2011
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   center pages      pages
                                                   loaned     delivered                 printed        printed
----------------------------------------------------------------------------------------------------------------
January........................................         245         433          26            50         4,629
February.......................................         251         361          25            47         4,652
March..........................................         249         369          41            11         3,996
                                                ----------------------------------------------------------------
      1st Quarter..............................         745       1,163          92           108        13,277
                                                ================================================================
April..........................................         255         415          19            63         3,570
May............................................         239         388          14            85         3,089
June...........................................         296         307          22           101         5,696
                                                ----------------------------------------------------------------
      2nd Quarter..............................         790       1,110          55           249        12,355
                                                ================================================================
July...........................................         273         328          17           101         5,256
August.........................................         339         313          28            64         2,998
September......................................         331         366          19            52         3,879
                                                ----------------------------------------------------------------
      3rd Quarter..............................         943       1,007          64           217        12,133
                                                ================================================================
October........................................         298         385          15            22         5,776
November.......................................         296         361          16            47         3,002
December.......................................         299         365           9             5         4,735
                                                ----------------------------------------------------------------
      4th Quarter..............................         893       1,111          40            74        13,513
                                                ================================================================
2011 Total.....................................       3,371       4,391         251           648        51,278
2010 Total.....................................       3,251       4,349         223           857        71,983
Percentage change..............................       +3.69        +.97      +12.56        -24.39        -28.76
----------------------------------------------------------------------------------------------------------------

                      <greek-l>sos deg.PAGE SCHOOL

    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's capital, within the 
limits of the constraints imposed by the work situation.

Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April 2013. The midpoint re-accreditation process 
began with review of the standards by staff in the fall of 2011.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 10, 2011, and January 27, 
2012, the last day of school for each semester.
    Orientation and course scheduling for the spring 2011 and fall 2011 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    English usage pre- and post-tests were administered to students 
each semester and the results were reviewed by faculty to determine 
what usage instruction or remediation was needed.
    A general study skills tutorial was presented to all students, and 
study skills sessions were provided to identify students in need of 
training in specific areas.
    Faculty and staff provided extended educational experiences to 
pages, including 21 field trips, four guest speakers, opportunities to 
play musical instruments and vocalize, and foreign language study with 
the aid of tutors. Summer pages took eight field trips to educational 
sites and heard two guest speakers as an extension of the page 
experience. In addition, a panel of former pages spoke with current 
pages during the fall semester. They presented their views on the value 
of the program and advice on how to make the experience meaningful.
    Fourteen pages took 27 Advanced Placement (AP) exams in eight 
subjects for qualification in scholarship programs.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel serving in various locations. Pages 
included letters of support to the troops.
    All Page School staff attended continuing education and training 
classes.
    New tutors were trained in evacuation procedures.
    All Page School staff attended continuing education and training 
classes.
    Communication among SAA, Secretary of the Senate, Party 
Secretaries, Page Program, and Page School is ongoing.
    Equipment purchased included an Optoma Projector for enhanced 
teaching and communication in social studies classes, three power 
supply units for the science laboratory, an electronic lab for science 
classes, dry erase board overlays for use in math and social studies 
classes, and additional copies of a novel for English classes.

Continuity of Operations Planning
    The evacuation plan and COOP have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites. Pages participated in escape hood training.

Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered, as well as 
        optional academic support for students preparing to take AP 
        tests.
  --Foreign language tutors will provide assistance to students.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --English usage pre- and post-tests will continue to be administered 
        to students each semester to assist faculty in determining 
        needs of students for usage instruction. Pre- and post-tests 
        will be devised to administer to students each semester to 
        assist faculty in determining course placement and achievement 
        in both math and science.
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
  --The community service project will continue.
  --Continuation of the work for re-accreditation will proceed.

            <greek-l>sos deg.PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with title 44, United States Code as 
it relates to Senate documents, hearings, committee prints, and other 
official publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents, and 
other publications; orders all blank paper, envelopes, and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.

Printing Services
    During fiscal year 2011, OPDS prepared 3,568 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this prepared office's cost accounting duties, 
OPDS is able to review and assure accurate GPO invoicing as well as 
play an active role in helping to provide the best possible bidding 
scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk, Senate Library, 
as well as the U.S. Botanic Garden, USCP, AOC, and the CVC. These tasks 
include providing guidance for design, paper selection, print 
specifications, monitoring print quality, and distribution. Last year's 
major printing projects included:
  --Semi-Annual Report of the Secretary of the Senate;
  --The Senate Civil War brochure;
  --The U.S. Senate Leadership Portrait Collection brochure;
  --The U.S. Senate Appropriations Committee brochure;
  --The Senate Manual;
  --Authority and Rules of Senate Committees;
  --2011 Senate Telephone Directory;
  --Senate gallery passes and visitor badges; and
  --CVC tour tickets and informational brochures.

Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services to 
ensure that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the Sergeant at Arms Computer 
Division that provides greater billing accuracy and information 
gathering capacity; and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies. During 2011, OPDS provided commercial reporting companies 
and corresponding Senate committees a total of 894 billing 
verifications of Senate hearings and business meetings, a 9-percent 
increase more than fiscal year 2010 levels. More than 62,920 
transcribed pages were processed at a total billing cost of $573,974.
    During fiscal year 2011, the office processed all file transfers 
and billing verifications between committees and reporting companies 
electronically ensuring efficiency and accuracy. Department staff 
continues training to apply today's expanding digital technology to 
improve performance and services.

Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. This allows committees to decrease, or eliminate, 
additional overtime costs associated with the preparation of hearings. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate recesses.

Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed 7,770 distinct legislative items during the 
first session of the 112th Congress, including Senate and House bills, 
resolutions, committee and conference reports, executive documents, and 
Public Laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed by other Web sites, such as LIS and Thomas, used by 
congressional staff and the public.
            Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate, but documents are also made available to the general public and 
other Government agencies. During 2011, more than 10,000 requests for 
legislative material were received at the walk-in counter, through the 
mail, by fax, and electronically. Online ordering of legislative 
documents and the Legislative Hot List Link, where Members and staff 
can confirm arrival of printed copies of the most sought after 
legislative documents, continued to be popular. The site is updated 
several times daily each time new documents arrive from GPO to the 
Document Room. In addition, the office handled thousands of phone calls 
pertaining to the Senate's official printing, document requests, and 
legislative questions. Recorded messages, fax, and email operate around 
the clock and are processed as they are received, as are mail requests. 
The office stresses prompt, courteous customer service while providing 
accurate answers to Senate and public requests.
            On-Demand Publication
    The office supplements depleted legislation when needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide Member offices and Senate 
committees with on-demand printing and binding of bills, reports and 
other legislation. On-demand publication allows the department to cut 
the quantities of documents printed directly from GPO and reduces 
waste. In particular the decrease in the number of documents routinely 
received by Senate Committees during the last quarter of 2011 increased 
the need for DocuTech services. OPDS anticipates that need to further 
increase over the next year. The office produced 132 on-demand jobs for 
committees during 2011, a 94-percent increase more than the previous 
year. Total jobs run on the DocuTech increased 62 percent more than 
2010. The DocuTech is networked with GPO, allowing print files to be 
sent back and forth electronically. This allows OPDS to print necessary 
legislation for the Senate floor, and other offices, in the event of a 
GPO COOP situation.
            Accomplishments and Future Goals
    Over the past year, OPDS has faced challenges by providing new 
services for customers and improving existing ones. Of particular note 
is the office's commitment to help ``green'' the Senate. During 2011 
more than 12.9 million sheets of 100-percent recycled paper were 
ordered by Senate offices, representing a 235-percent increase in the 
use of recycled paper over the previous year. Additionally, the office 
anticipates its print-on-demand capabilities will continue to grow in 
2012, answering the Senate's needs in light of decreased GPO 
distribution of legislative documents. The office works diligently to 
track document requirements, monitor print quantities, and reduce waste 
and associated costs.
    The office continues working with the GPO on behalf of its 
customers to improve efficiency and help answer the evolving needs of 
the Senate. Focus on COOP planning and emergency preparedness will 
continue.

                    <greek-l>sos deg.PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995 (LDA), as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2010 through September 2011, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone or email, nor help given to 
lobbyists attempting to comply with the provisions of LDA, as amended. 
In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics, and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned acts and Senate rules.

Fiscal Year 2011 Accomplishments
    The office continued to implement S. 1, the Honest Leadership and 
Open Government Act, which amended the LDA and the Senate Code of 
Conduct. The office posted two LDA guidance updates and concentrated on 
developing additional research tools to assist with LDA compliance 
issues, referring 305 cases of potential noncompliance to the U.S. 
Attorney for the District of Columbia. The Senate Office of Public 
Records continued to test COOP plans and pandemic response plans.

Plans for Fiscal Year 2012
    The Public Records office will continue to assess technology 
infrastructure needs, as well as continue to work with the Clerk of the 
House of Representatives (Clerk) and her staff to semiannually review 
and update the LDA Guidance as needed. Additionally, the office will 
work with the Clerk to initiate a review and update of the LDA filing 
system. The office will also continue to develop and implement 
educational information and tools that will help all report filers 
comply fully with the law and assist customers in accessing the 
information they seek.

Automation Activities
    During fiscal year 2011, the Senate Office of Public Records 
continued to work with SAA to enhance database performance for all 
issue areas and improve public query programs.

Federal Election Campaign Act, as Amended
    The act requires Senate candidates to file quarterly and pre- and 
postelection reports. Filings totaled 4,740 documents containing 
394,676 pages.
LDA, as Amended
    The LDA requires semi-annual contribution reports, and quarterly 
financial and lobbying activity reports. As of September 30, 2011, 
there were 4,738 registrants representing 18,510 clients. The total 
number of individual lobbyists disclosed on 2011 registrations and 
reports was 13,609. The total number of lobbying registrations and 
reports processed was 124,849.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 16, 
2011. The reports were made available to the public and press by June 
15, 2011 as required by statute. Public Records staff provided copies 
to the Select Committee on Ethics and the appropriate State officials. 
A total of 3,765 reports and amendments were filed containing 23,923 
pages. There were 293 requests to review or receive copies of the 
documents.

Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 223 Gift Rule/Travel 
reports during fiscal year 2011.

Registration of Mass Mailing
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2011 was 380.

                    <greek-l>sos deg.STATIONERY ROOM

    The Senate Stationery Room is the provider of office and 
administrative supplies, health and personal security supplies, 
personalized stationery, and special order items for official 
Government business. The Stationery Room serves all Members, both 
current and retired; support offices, and other authorized 
organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid or General Services 
        Administration (GSA) schedules for supply procurement.
  --Maintaining sufficient in-stock quantities of select merchandise in 
        order to best meet the immediate needs of the Senate community.
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise.
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements.
  --Managing all accounts receivable and accounts payable 
        reimbursement.
  --Ensuring the integrity and security of all funds and Government 
        assets under our control.

------------------------------------------------------------------------
                                                  Statistics
                                     -----------------------------------
                                      Fiscal year 2011  Fiscal year 2010
------------------------------------------------------------------------
Gross sales.........................     $3,535,526.90     $3,343,167.00
                                     ===================================
Sales transactions..................            36,198            44,626
Purchase orders issued..............             6,041             6,354
Vouchers processed..................             6,441             7,022
Office deliveries...................             6,578             5,986
Number of items delivered...........           142,132           136,021
Number of items sold................           351,408           390,528
Total cartons received offsite......            25,192            22,583
Total of all items received.........           161,431           149,762
Average office deliveries per day...                27                25
------------------------------------------------------------------------

Fiscal Year 2011 Overview
            Wireless Point of Sale System
    During fiscal year 2011, the Stationery Room purchased mobile 
point-of-sale licenses for three existing MC-70 handheld computers. 
Used primarily for inventory control and merchandise ordering, the MC-
70 can now be used as a wireless mobile sales station. These devices 
are used in conjunction with the Stationery Room's retail management 
system (RMS) and can be deployed at times of extremely heavy sales 
volume to shorten checkout lines or to improve customer service with 
``concierge'' type personal shopping, whereby the sales associate can 
accompany the customer around the store, scan the desired items, 
finalize the sale, and package the order for delivery.
            Credit Card Acceptance
    Continuing to improve customer service, the Senate Stationery Room 
began accepting credit card payments for in-store purchases. The stand-
alone terminals utilized to process payments via local area network 
connection are secure and compliant with industry standards. No fees 
are incurred by the Stationery Room or the customer. Purchases are 
accepted from all Members, staff, and others who are authorized.
            Credit Card Payment for Flags
    Utilizing the Pay.gov service offered by the Department of the 
Treasury, the Stationery Room began to accept flag requests and 
payments online from constituents. Five offices are currently utilizing 
this service, and feedback has been very positive. Wait time for the 
constituent has been drastically reduced, payment inaccuracies have 
been almost eliminated, and the workload for office representatives is 
much more manageable. The service will eventually be offered to all 
offices.
            Permit Mailing of Flags
    With the assistance and support of SAAs' PGDM branch, the 
Stationery Room has begun the transition from using a postage meter to 
mail flags to a much more economical permit mailing and manifest 
process. PGDM personnel will utilize their experience with this process 
(already in use by several other offices) to mail flags, saving the 
Stationery Room approximately $2,000 per year in fees for rent, 
maintenance, and supplies. Additionally, the Stationery Room will 
realize savings in general postage fees and, while no accurate estimate 
is possible until the process is fully operational, these savings could 
amount to several more thousand dollars each year.

                    <greek-l>sos deg.WEB TECHNOLOGY

    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to the Senate Staff;
  --central portions of the Senate Intranet (Webster.senate.gov)--
        available to the Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, Library of 
        Congress, AOC, GAO, GPO, Congressional Budget Office (CBO), and 
        USCP.

The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Senate Web site content is maintained by more than 30 
contributors from seven departments of the Secretary's office and three 
departments of SAA. Content team leaders regularly share ideas and 
coordinate the posting of new content. All content is controlled 
through the Secretary's Web content management system (CMS) managed by 
the Office of Web Technology.
            Major Additions to the Site in 2011
    Civil War Sesquicentennial Exhibit.--This exhibit has provided a 
continuing series of online features exploring the Senate's wartime 
experiences. The components of this exhibit have been updated monthly 
to highlight various events, people, and locations related to the 
Senate during the war and connecting users to rich historical 
information throughout the site.
    Nine featured documents were also added as part of the Civil War 
exhibits. These provide pictures of the original historic documents, 
portable document format versions of the text, and in some instances 
transcripts. These documents are a great primary source reference and 
range in topics from Charles Sumner's speech on the Trent Affair to 
Civil War era petitions.
    http://www.senate.gov/artandhistory/history/common/civil_war/
CivilWar.htm
    http://www.senate.gov/artandhistory/history/common/civil_war/
Petitions_
FeaturedDoc.htm
    http://www.senate.gov/artandhistory/history/common/civil_war/
TrentAffair_

FeaturedDoc.htm
    Civil War Chronology Based on the interactive display created for 
the Senate Chronology page, this tab-based exhibit groups Civil War-
related Senate events on a yearly basis. This page has a great wealth 
of knowledge displayed in a small amount of space with a useful display 
leveraging Web 2.0 technologies that appeals to a wide audience.
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
CivilWar_
chronology.htm
    Civil War Senate Virtual Reference Desk Page.--The virtual 
reference desk provides links to all the various features that 
comprised the Civil War Sesquicentennial Exhibit along with additional 
resources relating to the Senate and the Civil War. The page is useful 
to many different audiences and conveniently organizes this vast 
information set by chronology, featured documents, historical minutes, 
powers and procedures, and Senators.
    http://www.senate.gov/reference/Index/Civil_War_Senate.htm
    Historical Senate Floor Reports.--Legislative floor reports are now 
available for the previous 5 legislative days. An archive of previous 
reports is also now available online and is being incorporated to other 
ongoing projects to increasing their usefulness and accessibility.
    http://www.senate.gov/pagelayout/legislative/
g_three_sections_with_teasers/legislative_home.htm
    Report of the Secretary of the Senate.--In conjunction with the 
Disbursing Office, Web Technology enabled online electronic access of 
the Report of the Secretary of the Senate. The display housing the 
links will expand nicely to serve as a hub to access various Secretary 
Reports for many upcoming years, while ensuring accuracy and security 
of the information via GPO's electronic certification and hosting.
    http://www.senate.gov/legislative/common/generic/report_secsen.htm
    Executive Calendar Archive.--Web Technology created new display, 
upload method, and automatic updating routines to display historic 
executive calendars. The archive goes back to 1997 and includes star 
prints and multiple versions for the same day when they exist. The 
fully automated system does not require any human intervention for the 
updates to appear nightly.
    http://www.senate.gov/legislative/LIS/executive_calendar/2011/exec_
calendar.htm
    Custom 404 Page.--The new advanced error page provides more options 
for missing content through providing a listing of current Senators by 
State, access to the search box, webmaster email, and general 
navigation. In revamping the global error page, we provide assistance 
to public users accessing the central, Committee, and Member sites that 
may have lost their way.
    http://www.senate.gov/pagelayout/general/one_item_and_teasers/
file_not_
found.htm
    This Week in Senate History.--Senate.gov added an exciting new 
interactive slideshow displaying what happened on a particular date in 
Senate history. The repurposing of this legacy content makes it much 
more interesting for the user, provides more information on a single 
page, links to related content, and utilizes Web 2.0 technologies.
    http://www.senate.gov/pagelayout/history/
g_three_sections_with_teasers/
origins.htm
    Officers and Staff.--This revamped historical section includes 
richer content and a more visually pleasing display. Pictures are now 
associated with various categories making browsing more intuitive and 
interesting. Greater depth of content is provided for each officer 
section in an easier to update format.
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
officers.htm
    Party Leadership.--Newly developed side-by-side images helped 
rework this historical section and maintain equal emphasis on multiple 
parties. The visually pleasing display presents updated content in a 
useful and interesting way, and the new format is much easier to 
maintain and update for content authors.
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
leader.htm);
    Senators.--Leveraging new content templates and organization 
methods, the new historical Senators page provides an even greater 
wealth of information on previous Members than was available online 
before. The new format makes access easier and more logically presents 
information about featured Senators and distinctions.
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
senators.htm
    Timepieces.--The Decorative Arts section on Senate.gov was expanded 
to include timepieces of the Senate. These artifacts were added as 
individual pages then grouped using an advanced browse list with a 
searching feature as well.
    http://www.senate.gov/artandhistory/art/common/collection_list/
Timepieces.jsp
    Information About the Archives.--New pages were added on various 
aspects of archiving in the Senate, related reports, and other useful 
resources for scholars. Complex reports broken down by section 
facilitating quick browsing and more robust searching, making pages 
useful and relevant to a wide audience.
    http://www.senate.gov/artandhistory/history/common/generic/
Information_
about_Senate_Archives.htm
    Enhanced Calendars and Schedules Virtual Reference Page.--The 
greatly improved calendars and schedules virtual reference page makes 
finding information on the various Senate calendars much easier for all 
audiences. Also, now included are useful links to similar House 
information and resources to find out more about schedules, 
adjournments, and recesses.
    http://www.senate.gov/reference/Index/Calendars_schedules.htm#
BrowseExecutiveCalendars
    New Officers and Treaties Virtual Reference Pages.--The virtual 
reference pages continue to be some of the most popular and useful on 
the public site. The new versions of the officers and treaties provide 
a great wealth of information in well-organized and easy to use matter.
    http://www.senate.gov/reference/Index/Officers.htm
    http://www.senate.gov/reference/Index/Treaties.htm
    Senate Art and History Publications.--The new display groups all 
Senate Art and History publications in one place making them much 
easier to locate and take advantage of the cleaner bibliography 
displays.
    http://www.senate.gov/reference/bibliography/Art_History/
index.shtml
    Privileged Nominations.--The new report lists privileged 
nominations received. Initially, the report is posted as a simple text 
file in the same manner as other nominations on Senate.gov. Web 
Technology is working with the LIS/DMS group to make this XML-based and 
the foundation for a new format for delivering reports that will 
provide greater flexibility for display.
    http://www.senate.gov/pagelayout/legislative/one_item_and_teasers/
nom_
priv.htm
    Biographies and Oral Histories.--Seven featured biographies and 
five oral histories conducted by the Senate Historical Office were 
added to Senate.gov this year.
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
featured_
biographies.htm
    http://www.senate.gov/pagelayout/history/
g_three_sections_with_teasers/oralhistory.htm
    Homepage Feature Articles.--
  --What Happens When a New Congress Begins?
  --Locate Senate Speeches
  --Discover the Senate Chamber Desks
  --Locating Senate Legislation
  --Notable Senate Investigations
  --Focus on the Constitution: The Seventeenth Amendment
  --Learn about the Senate: Officers & Senate Leaders
  --Advice & Consent: Treaties
  --The Senate and the Second World War
Secretary's Intranet--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Secretary of the Senate intranet (http://webster.senate.gov/
secretary) continued to expand in information and services offered. 
Web-based order forms were maintained, expanded, and enhanced for the 
requesting of specific legislative documents, class registration, blank 
paper, room reservations, and stationery product suggestions.
    The catalog-based ordering system developed for the Stationery 
Office continues to be a large success. The system is managed with the 
content directly from the Stationery Office's existing Microsoft RMS, 
which underwent several successful inventory updates during this past 
year. For the 2011 calendar year, 145 orders were successfully placed 
and filled using the online order form.
    Web Technology added on-demand videos for required sexual 
harassment courses on the SCCE site on Webster. These videos are 
required to be viewed annually by Senate staff and interns. Having the 
video on the intranet facilities the timely consumption of this seminar 
by all staff.
    A new Archiving in the Senate section adds many useful sources 
regarding archiving. Utilizing Web 2.0 technologies we were able to 
display lots of information in a small amount of space and have it 
still be useful to a wide range of audiences (http://
webster.senate.gov/secretary/departments/Historical_office/Archiving/
archiving_services.htm).
    Frontpage, the Web portal for SIS, continued to be heavily 
utilized. Adjustments were made to accommodate information architecture 
changes to guarantee consistent access on and off campus. A newly 
launched interface for news.senate.gov was put in place seamlessly to 
the users and an enhanced class registration system was launched.
    A new survey template was developed and utilized for internal use. 
The survey, http://webster.senate.gov/secretary/library/survey/
westlaw_survey.htm, was successfully used to collect information on a 
newly launched Westlaw interface. It was designed and developed in a 
way to easily be repurposed for any subject.
Webster Central Web site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with SAA, Chaplain, and Senate Committee on Rules 
and Administration, Web Technology continued administering, managing, 
and enhancing the central section of Webster. We were happy to partner 
with the SAA and the Senate Library to add a unique services directory 
search. This was accomplished through the creation of a separate Google 
onebox that enables automated creation of indexes based on XML files.
    Enhancements made to the floor schedule include an RSS feed and 
direct population of the information on the home page from the same 
source file used on Senate.gov. These are both good examples of how 
management of content on the central site continues to be streamlined 
by repurposing additional files that are already updated through 
existing systems on Senate.gov. The expansion of repurposed data 
continues to reduce duplicative efforts, increase consistency, 
relevancy, and timeliness of data displayed on Webster. Standardizing 
XML across both sites and having them integrated into the CMS was 
essential to making this possible.

Senate Legislative Branch Web site (Legbranch.senate.gov)
    The legislative branch server is accessible by the Senate, House of 
Representatives, Library of Congress, AOC, GAO, GPO, CBO, and USCP. The 
Office of Web Technology maintains a basic Web site for a Capitol Hill 
email messaging working group managed by the SAA. In the future the 
server will be used to share more information with other Capitol Hill 
entities.

Accomplishments of the Office of Web Technology in 2011
    States in the Senate Project. Worked extensively over the past year 
with the Historical Office and GPO in the design and implementation of 
a new stand-alone site for States (http://www.senate.gov/states). The 
interactive exhibit will be useful to many different audiences and 
provides information about each State's history that relates to the 
U.S. Senate in a fun and interesting manner. Links to contact 
information for Senators from each State have contact information 
linked to, which will further aid constituents with connecting to their 
Senators. Dynamic pieces of content are pulled from existing lists, 
making updating much more fluid, timely, and accurate.
    Senate Floor Webcast on Senate.gov. In a joint project with the 
SAA's Chief Information Officer and Senate Recording Studio and the 
Committee on Rules and Administration, launched live streaming video of 
its floor proceedings, along with a searchable archive of previous 
proceedings (http://www.senate.gov/floor). An internal clipping tool 
was also developed for staff, greatly streamlining the process of 
generating and posting a video clip from the Senate floor to a Member's 
Web site or social networking site.
    SCCE Seminar streams added to SCCE internal Web site. The streaming 
service allows for viewing of live events and on-demand viewing of 
previous sessions in a secure manner. Worked in conjunction with SAA, 
Senate Recording Studio, and SCCE to establish procedures to easily 
produce, publish, and control the various streams from yearly seminar 
serious. This is the first system of its kind at the Senate and sure to 
be used for future developments.
    Electronic Report of the Secretary of the Senate available online 
for the first time (http://www.senate.gov/legislative/common/generic/
report_secsen.htm). Completed a year-long initiative with the 
Disbursing Office, GPO, and the Senate Committee on Rules and 
Administration on the generating, authenticating, securing, and 
publishing of the report. The implemented solution guarantees accurate 
and valid information is available for this first online report and all 
future versions.
    Senate.gov Web Audit. Audited pages regularly; updating, enhancing, 
and correcting pages; verifying content; and reviewing individual page 
designs throughout Senate.gov for accessibility and usability. 
Additionally, attended training on the latest advances in coding 
techniques to ensure accessibility and applied them to our sites.
    Constantly monitored data feeds from the LIS/DMS system ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance regarding information such as 
Committee hearing schedules, vote data, and Member contact information.
    Responded to approximately 1,204 emails from the general public 
regarding senate.gov sites. Worked with various content providers, Web 
support groups, SAA, Member, and committee offices to make suggestions 
and resolve issues. This marks a slight increase from the previous 
year.
    Continually reviewed and adjusted search operations and canned 
matches for both Senate.gov and Webster based on user tendencies and 
requests. A major addition was the creation and maintenance of a new 
Google onebox for services (Redbook) recently released. Also, 
investigated other search technologies as alternatives to existing 
searches and as ways to accomplish potential future projects.
    Conducted user testing with Senate staff and interns to increase 
understanding of current Web site interactions, desires, and best 
practices.
    Helped organize Capitol Hill-wide Webmaster meetings, where best 
practices were shared across entities. Regularly gave presentations and 
facilitated conversations during meetings.
    Continually trained and practiced working from remote locations to 
be prepared should the need arise. All staff members are fully capable 
of accomplishing their job functions from any location with Internet 
access. This was accomplished largely through configuring virtual 
machines that mimic workstations on office laptops. Regardless of which 
staff member uses which laptop, the experience will be ubiquitous and 
consistent with being in the office. Additionally, completed new 
emergency action plan and director completed the eight course Emergency 
Coordinator Certificate Program.
    Aided the Senate Library in aspects of SIS transition. The new 
FrontPage interface exposes many more resources in an easy to use 
manner. In leveraging advances in Web 2.0 technologies we are able to 
take greater advantage of available space and provide robust 
information concisely. Through designing and developing the system in 
XML and leveraging the CMS, it is easy for nontechnical users to update 
and maintain.
    Worked extensively with the Senate Library in the continued 
development, implementation, and maintenance of taxonomies utilizing 
the knowledge base system. Participated in the planning, design, 
development, and administration for including the ``Red Book'' data in 
the knowledge base and then on Webster.
    Maintained virtualized production and development server for the 
Secretary's intranet. Also, maintained virtualized production server 
for the Secretary's dedicated Google onebox server and transfer 
mechanisms to keep indices current.
    Administrated content management system constantly throughout year 
and resolved issues as they arose. Modified existing system for 
enhancement requests and changes in general Senate information 
architecture for both production and development systems. Resolved 
tricky update bug to ensure the CMS worked with most recent security 
updates to our computer systems. Ensured continuity of operations with 
fully functional alternate computer facility system.
    Implemented new coordinated monthly features across Senate.gov, 
highlighting various topics. Worked in conjunction with Historical 
Office, Curator's Office, and the Senate Library to produce and publish 
interesting content about historical events with current significance. 
Generating this fresh content also helped emphasize other sections of 
the public site by incorporating many useful hyperlinks.
    Aided in the generation of a printed cloture brochure containing 
information up to the 110th Congress. Worked in conjunction with the 
Congressional Research Service, GPO, Senate Committee on Rules and 
Administration, and the Senate Library to provide mapping of XML 
content on senate.gov to print version. This marks the first time GPO 
has produced a printed document on XML-based senate.gov content. 
Utilizing the content in XML greatly simplified the overall workflow 
and ensured the accuracy of information across delivery mediums.
    A major architecture change was made to the hosting of the central 
site in 2011. We worked closely with the SAA as a proof of concept for 
a distributed network approach to hosting Senate Web content for the 
public. This project has been highly successful and guarantees greater 
security of our site and even faster response times to users. This 
approach, fine tuned through the central site, is being implemented to 
Member and Committee sites. The change in architecture has made our 
methods for capturing Web statistics obsolete. We are currently 
exploring new ways to capture this information.

    Senator Nelson. Senator Hoeven, are there any opening 
remarks you might like to make?

                    STATEMENT OF SENATOR JON HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman, I would like to 
make some remarks.
    I apologize for being late, and I appreciate the 
opportunity be with you and want to thank all of you for coming 
in today, but also for the really great job you do.
    I've been here only a little more than 1 year, but I have 
to tell you, I am impressed with the work you do and your 
people. They don't treat it as just a job. They care about what 
they do, and it shows. That is a reflection of them and their 
good work, but it is a reflection of your leadership, too.
    So I do thank you for that, and I appreciate it very much.
    As a way of starting my comments, I want to note that this 
will actually be the last hearing that Senator Nelson has as 
chair of the Legislative Branch Subcommittee, so I just want to 
take a minute to recognize him for his service here.
    I actually first got to know Senator Nelson when he was 
elected Governor of his State. He, of course, served two terms 
as Governor of Nebraska. When I met him, he was just 
transitioning from his governorship to coming down here and 
serving in the Senate. I can remember, I was a new Governor or 
maybe I was just running, I'm not sure. But I had come to 
Washington, DC for some event and met him. Our States have a 
lot in common, strong agriculture background.
    But what I would say, having observed Senator Nelson, is 
that he really brings a grounded, common-sense attitude and 
approach, he is easy to work for and with, and he is very 
straightforward in how he handles things. I think as I have 
observed the legislative branch now over the past year, it has 
made for a very, very good working relationship.
    I think that has enabled all of you and others that are in 
the legislative branch to do the outstanding job that you do. 
It has helped support you in that effort, and particularly 
helped do it at a time when it's really tough with the budget 
situation.
    It's one of those situations where we're going to have to 
do more. You're going to have to continue to do more. That is a 
reality, and you know that, and we know that.
    My observation, though, would be that you are doing a good 
job at finding savings, even when it is tough and in these 
circumstances. You're doing a good job.
    My overall sense is that, in terms of discretionary 
spending, you are doing your share and what has to be done to 
address the discretionary spending issues. I think there are 
other drivers of our debt and deficit that are much bigger 
factors, which I won't go into here, but that we're going to 
have to address. We're going to have to try to find ways to do 
more in terms of generating savings to really get on top of the 
challenge we face.
    So, number one, thank you, Senator Nelson, for your 
leadership on the legislative branch. I appreciate the 
opportunity to work with you.
    I appreciate the great job all of you do. We are going to 
have to continue to find more savings. As you know, we will get 
a topline number, and we'll have to work to get there.
    You did it last year, and you did a good job. We'll work 
with you to do the best job again this year in finding savings 
while doing the best job we can with the dollars we have, in 
terms of trying to accomplish all the things, and covering all 
the bases that you have to cover in your very important tasks.
    Senator Nelson. Thank you, Senator Hoeven, for those kind 
remarks. I want to thank the audience for their suppressed 
applause when you said it was my last hearing.
    Before you arrived, I already leaked out the word ``cheap'' 
in introducing Chief Morse, so I appreciate you not using that 
word to describe me, but I have been described that way more 
than once.
    I appreciate working with you, because we've created a 
partnership here where we can work together and share ideas. 
Which makes this job a lot easier from this side of the bench, 
and I think it makes it a lot more doable from the other side, 
to know that we are all going to work together to get through 
where we are, because we're all in it together. And if we begin 
to think otherwise, then it is very hard for you to function 
and it is impossible to function over here, so I want to thank 
you very much for those nice remarks.
    Senator Hoeven. Absolutely. Thank you, Senator.
    Senator Nelson. Thank you.
    Sergeant at Arms Gainer, the floor is yours.

                    SERGEANT AT ARMS AND DOORKEEPER

STATEMENT OF TERRANCE W. GAINER, SERGEANT AT ARMS
    Mr. Gainer. Thank you very much, Mr. Chairman and Ranking 
Member Hoeven, for the opportunity to appear before you today 
on behalf of the Sergeant at Arms team and to present our 
budget request for fiscal year 2013.
    I do ask that my written testimony be submitted and made 
part of the record.
    Senator Nelson. It will be.
    Mr. Gainer. Thank you.
    Before I begin, in addition to my two colleagues here, I 
would like to acknowledge in the audience House Sergeant at 
Arms Paul Irving, who is new to his position, and Ken Eads, who 
is representing the AOC. They are here because of our 
partnership in our oversight of the police department and here 
to affirm the work that the Chief has been doing.
    As to my office, our primary goals for fiscal year 2013 are 
to maintain a safe and secure environment, to support the 
Senate's information and communications technology 
infrastructure, and to deliver printing, parking, photography, 
mail delivery, and other services to the Senate community in an 
efficient, cost-effective manner.
    The budget request, as you indicated for this year, totals 
a bit more than $205 million. This is an increase of $1.7 
million, or 0.8 percent more than last year's budget.
    As I went through some of the remarks my staff was 
preparing, I noticed that probably every paragraph we mentioned 
something about tough budget.
    I do want to talk a little bit about how we are maintaining 
what we do and our slight budget increase.
    Aside from additional funding for the State office security 
programs, which is $1.2 million, our overall expense budget 
would decline next year. The tragic shooting of Congresswoman 
Giffords and the recent white powder letter event that you 
referred to are just two examples of the necessity for this 
extra security.
    This increase is fully offset within our overall expense 
budget. Mr. Chairman, and Senator Hoeven, as you know, the 
Sergeant at Arms budget was reduced by nearly 7 percent in the 
current fiscal year. We have worked through the impact of that 
reduction. However, continued reductions in our budget will 
eventually have an adverse impact on the way we support our 
customers, especially in the areas of information and 
communications technology.
    We have had to reduce our services, scale back allocations, 
reduce our subsidies for some services, and defer the critical 
improvements that are required to keep pace with continued 
demands for improved technology. At some point, the price will 
be paid.
    And even today, the Stop Trading on Congressional Knowledge 
(STOCK) Act, which the Senate passed this afternoon and sent to 
the White House, places new and expensive burdens on our 
department. This legislation requires the Sergeant at Arms to 
create and deploy a new electronic financial disclosure 
application and database that will allow the public to search, 
sort, and download filers' financial information. As worthy as 
the policy goals of this legislation are, they do come with a 
cost. We estimate that it will cost approximately $1.5 million 
to develop the system and another $200,000 a year to maintain 
it.
    The range of services we provide to the Senate take place 
both here in Washington and in the 454 State offices.
    My written testimony covers our accomplishments and 
challenges during the past year. Allow me to share some 
highlights.
    We are more than one-third of the way through the 
installation of the new Watson phone system and are on track to 
complete the project by the end of this fiscal year. This is 
one of the largest communication projects in the history of my 
office, replacing a more than 30-year-old telephone system. The 
new system is based on modern, expandable, and cost-efficient 
technology.
    The new system's redundancy and flexibility will prove 
invaluable in a continuity of operations event and in 
accommodating the Senate's many changes, while reducing the 
cost by more than $2 million annually. Working with Members and 
other stakeholders, we adopted a schedule that reduced 
installation time from 3 years to less than 1 year.
    We had other major successes in the information technology 
(IT) realm this year, including our ongoing server 
virtualization project, where we reduce energy, maintenance, 
and support costs by running more than 800 servers in a virtual 
environment.
    Our help desk team continued to perform extremely well, and 
they achieved a customer satisfaction rate of 99 percent.
    We successfully processed 356 million email messages during 
the past calendar year while protecting our customers from spam 
and malicious messages.
    We also completed a major upgrade of our messaging 
infrastructure that significantly increased mail storage 
capacity, while reducing overall costs.
    We continue to update and expand the tools available to 
Senators and staff can use to stay connected with one another 
and the people they represent. We are supporting the latest 
Apple and BlackBerry smart phones and tablets as well as 
enhancing email functionality on the Apple iPhone and iPad to 
include file editing and local file storage. These functions 
were demanded by many Members and staff.
    We upgraded our already robust videoconferencing 
capabilities to make it significantly more reliable and 
resilient in the instance of a catastrophic event.
    We also improved our IT security posture. Despite numerous 
and extensive attempts, the Senate has not suffered any major 
compromises of information security over the past year.
    Our emergency plans and procedures ensure the safety of 
Senators, staff, and visitors within our facilities, and equip 
them with the necessary tools to respond to any emergency.
    Mr. Chairman, the SAA always tries to be good stewards of 
the funds appropriated to us. As you know, this subcommittee 
granted us approval 2 years ago to relocate our printing, 
graphics, and direct-mail printing function from Postal Square 
here on Capitol Hill to a new facility in Landover, Maryland. 
From July through September 2011, the relocation was completed 
in a two-part move without any break in service to the Senate. 
This new facility, which was completed on time and under 
budget, projects a net cash flow of $2.8 million, which means a 
3.6-percent return on investment over 20 years.
    Fifty-nine staffers now work in Landover, and they remain 
committed to providing exceptional service in a state-of-the-
art facility.
    Another cost-saving project involves our cabinet shop, 
which we will move from the basement of Postal Square to a 
space in the Government Printing Office on North Capitol 
Street. This move will not only improve the working environment 
of our employees, it will also generate a saving of $2.4 
million over the first 20 years, reflecting a 64-percent 
reduction in cost.
    The Senate Post Office processed the second-highest volume 
since the year 2000. During the past year, the Senate Post 
Office received and tested 18.5 million items to the Senate 
offices, including U.S. mail, internal mail, packages, and 
courier items.
    During the same time period, the Senate Post Office off-
site staff intercepted 383 suspicious pieces of mail that were 
addressed to Senators with the intent to disrupt Senate 
business. All suspicious items were reported to USCP and 
investigated by them and their partners.
    Our dedicated postal employees, as you mentioned, Mr. 
Chairman and Mr. Hoeven, did a great job on intercepting those 
pieces of mail, working with USCP, the Senate Post Office, and 
the Federal Bureau of Investigation (FBI) to ultimately bring 
that offender to justice.
    For the convenience of retail customers, our Senate Post 
Office began accepting credit cards, which has improved service 
and increased overall sales.
    Our five Senate appointment desks, processed nearly 200,000 
visitors during this past year, and we have had the second-
highest issuing of badges for those visits that we've had in 25 
years.
    The Senate Recording Studio produced 1,300 television 
shows, 1,100 radio productions, and 845 Senate committee 
hearings. They also played a vital role in launching a new 
service, the live streaming of the Senate floor to the public 
online at www.senate.gov.
    Our offices work closely with the Secretary of the Senate, 
USCP, AOC, the Senate Committee on Rules, and this subcommittee 
to provide quality of service to the Senate.
    I think our team do an outstanding job. They are 
industrious. They are smart and honest. And I am very grateful 
for the leadership of the Deputy Sergeant at Arms, Martina 
Bradford. And I would just like to acknowledge Chris Dey, our 
chief financial officer (CFO). He has served me and my 
predecessors for more than 20 years. He is an unbelievable CFO. 
This is the fifth agency I have been in, and fourth one in 
which I have had a leadership role. I've never worked with a 
finer individual than Chris. He does a great job.

                           PREPARED STATEMENT

    We're here to serve you and answer any of your questions. 
Thank you.
    Senator Nelson. Thank you.
    [The statement follows:]

                Prepared Statement of Terrance W. Gainer

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to testify before the subcommittee today. I am pleased to 
report on the progress the Office of the Senate Sergeant at Arms (SAA) 
has made over the past year and our plans for the coming year.
    For fiscal year 2013, SAA respectfully requests a total budget of 
$205,447,000. This is a modest increase of $1.7 million, or 0.8 percent 
more than the fiscal year 2012 enacted level. This budget will allow us 
to maintain the high level of service we provide to the Senate 
community, while continuing to be good stewards of the public's 
resources. Mr. Chairman, as you know the SAA is currently operating 
under a 7-percent reduction less than last year's funding level. Our 
funding was cut by $4 million in salaries and $11 million in expenses 
from the fiscal year 2011 level. We understand the tremendous economic 
challenges this subcommittee is facing and we are committed to doing 
our part to reduce costs and streamline our operations.
    Although we have taken extraordinary steps to mitigate the impact 
of this reduction, continued decreases in our budget have had an 
adverse effect on the way we support our customers, especially in the 
areas of information and communications technology. We have had to 
reduce services, scale back allocations, and reduce our subsidies for 
some services, as well as defer the capital improvements that are 
required to keep pace with continued demands for improved technology. 
In addition, the pending STOCK Act, S. 4038, would place new and 
expensive burdens on SAA, if enacted. For example, this legislation 
would require us to create and deploy a new electronic financial 
disclosure application and a data-base that will allow the public to 
search, sort, and download filers' financial information. We estimate 
that it will cost approximately $1.5 million to develop the system and 
$200,000 annually to maintain it.
    In developing our proposed fiscal year 2013 budget and our 
operating plans, we are guided by priorities framed in our Strategic 
Plan. These priorities include ensuring the U.S. Senate is as secure 
and prepared for an emergency as possible, and providing the Senate 
with outstanding service and support, including the enhanced use of 
technology.
    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities and to 
equip Senate staff with the necessary tools to respond to any emergency 
situation. Throughout 2011 we were committed to improving these 
procedures using industry best practices, training, and lessons learned 
through exercises and scheduled events. We made significant strides to 
ensure staff preparedness through enhanced Emergency Action Plans, 
mobility-impaired evacuation procedures, internal relocation actions, 
and the annual Chamber Protective Actions exercise.
    Our preparedness efforts during the past year placed a premium on 
our interaction with Senate offices. During 2011, 100 percent of Senate 
offices possessed a customized Emergency Action Plan based on their 
unique circumstances and needs. Over this past year, 85 percent of all 
Senate office Emergency Action Plans were reviewed and validated using 
guidelines set forth by the Occupational Safety and Health 
Administration (OSHA) and the Congressional Accountability Act (CAA). 
With a goal of maintaining current levels of protection while holding 
down costs, my office, together with the House SAA, requested an 
analysis of the current supply of emergency escape hoods to determine 
whether their shelf life could be extended. The results of the analysis 
showed the escape hoods were still effective and the procurement of 
replacements could be postponed for another year. This allowed us to 
defer more than $4.5 million in fiscal year 2013.
    This year we continued our server virtualization efforts, whereby 
we reduced energy, maintenance, and support costs by running more than 
800 servers in a virtual environment. Our Help Desk team continued to 
perform extremely well, with a customer satisfaction rating of more 
than 99 percent at the very satisfactory or excellent level. Our 
telecommunications modernization effort has moved into the deployment 
phase; we are now in the process of installing the new Watson phones in 
all Senate offices. We are about one-third complete, including all 
Members' offices in the Russell Senate Office Building. We will 
complete installations in Member offices by Memorial Day, and the 
remainder of all Senate offices by the end of the current fiscal year.
    In addition, we successfully processed 356 million email messages 
during calendar year 2011, while protecting our customers from spam and 
malicious messages. We also completed a major upgrade of our messaging 
infrastructure that significantly increased email storage capacity yet 
reduced overall costs. We continued to upgrade and expand the tools 
that Senators and staff can use to stay connected with one another and 
their constituents. We are supporting the latest Apple and BlackBerry 
smartphones and tablets and enhancing email functionality on the Apple 
iPhone and iPad to include file editing and local file storage. We 
upgraded our already robust video conferencing capabilities to make 
them significantly more reliable and resilient in the event of a 
catastrophic event. We also continued to evaluate new equipment and 
vendors to ensure that office equipment offerings stay current. In 
addition, we launched a new, highly anticipated application that allows 
offices to review their equipment inventories online and submit 
corrections electronically, as well as to report stolen or lost 
equipment and request moves. We also improved our IT security posture, 
to ensure that the Senate does not suffer any major compromise of 
information security.
    I am also pleased to report that the Committee Hearing Room Upgrade 
Project, which began in 2003, will be completed later this year. This 
project provides the Senate community with greater flexibility and 
audio/visual capability for committee hearings. This subcommittee has 
been very generous over the years in allowing us to use end-of-year 
Senate carry-over funds to accelerate this important project. When 
completed in June, your constituents will have far more extensive 
access to Senate committee and subcommittee hearings than ever before.
    Mr. Chairman, as you know, this subcommittee granted us approval 2 
years ago to relocate our Printing, Graphics, and Direct Mail (PGDM) 
main printing function from the Postal Square building, on Capitol 
Hill, to a new facility in Landover, Maryland. In September 2011 the 
two-phase relocation was completed without any break in services to the 
Senate. This new facility, which was completed on time and under 
budget, projects a net positive cash flow of $2.8 million, a 3.6-
percent return on investment over 20 years. Fifty-nine staffers now 
work in the Landover facility and remain committed to providing 
exceptional service to the Senate from this state-of-the-art facility.
    My organization continues to be a good steward of taxpayers' 
dollars. Our productivity increased to unprecedented levels, 
exemplified by the Senate Post Office processing the second-highest 
volume of mail in the last decade, surpassed only by 2009. This past 
year, 2011, was another busy year within the Capitol and for the SAA 
units that support Capitol operations. From 2007 through 2011, the 
Senate was in session an average of 178 days a year, a 19-percent 
increase more than the previous 10 years. Once again, SAA staff 
responded to this increased activity with professionalism, diligence, 
and outstanding customer service.
    For example, personnel staffing the five Senate Appointment Desks 
processed nearly 195,000 visitors to the Capitol during 2011. The total 
number of visitor badges issued was the second highest in any year 
since the appointment desks were created more than 26 years ago. 
Additionally, our Doorkeepers assisted more than 211,000 visitors to 
the Senate Gallery.
    The Senate Recording Studio helped Senators communicate more 
efficiently with their constituents back home. During 2011, we produced 
1,330 shows from our television studios and more than 1,100 radio 
productions, as well as broadcast coverage of 845 Senate committee 
hearings--all increases from 2010. The Recording Studio also provided 
1,102 hours of gavel-to-gavel coverage of Senate floor proceedings, and 
played a vital role in launching a new service: the live streaming of 
the Senate floor to the public online at www.senate.gov.
    These are just a few examples of how the SAA continues to respond 
to the challenges of more activity and more demands with reduced 
resources. Our customer satisfaction levels remain high.
    As you can see, the SAA team continually works toward the vision of 
our Strategic Plan: Exceptional Public Service. Exceeding the Expected.
    Leading the efforts of the SAA is an outstanding senior management 
team including Martina Bradford, who serves as my Deputy; Republican 
Liaison Mason Wiggins; General Counsel Joseph Haughey; Legislative 
Liaison Nancy Olkewicz; Assistant Sergeant at Arms for Continuity and 
Emergency Preparedness Operations Rich Majauskas; Assistant Sergeant at 
Arms for Intelligence and Protective Services Mike Stenger; Assistant 
Sergeant at Arms and Chief Information Officer (CIO) Kimball Winn; 
Assistant Sergeant at Arms for Operations Bret Swanson; Deputy 
Assistant Sergeant at Arms for Capitol Operations Kevin Morison; and 
Chief Financial Officer Chris Dey. The many goals and accomplishments 
set forth in this testimony would not have been possible without this 
team's leadership and commitment.
    We are grateful for our relationship with USCP. I value the input 
of the other members of the Capitol Police Board--newly appointed House 
Sergeant at Arms Paul Irving, serving as Chairman; Architect of the 
Capitol Stephen T. Ayers; and USCP Chief Phillip D. Morse, Sr., who is 
an ex officio member of the Capitol Police Board.
    SAA also works with other organizations that support the Senate. I 
would like to take this opportunity to mention how important their 
contributions have been in helping us achieve our objectives. In 
particular, we work regularly with the Secretary of the Senate (SOS), 
AOC, and the Office of the Attending Physician. When appropriate, we 
coordinate our efforts with the United States House of Representatives 
and the agencies of the executive and judicial branches. I am impressed 
by the people with whom we work and greatly appreciate the quality of 
the relationships we have built together.
    I am very proud of all the men and women of the SAA team who help 
keep the Senate running. While serving as Sergeant at Arms, I have seen 
their great work and devotion to this institution. Our employees are 
among the most committed and creative in Government. A perfect example 
of this occurred last August 23, when a 5.8 magnitude earthquake shook 
the Washington, DC, region and forced the evacuation of the Capitol--
just 30 minutes before a scheduled pro forma session of the Senate. 
Working with leadership and the SOS, our personnel relocated to the 
briefing center at the Postal Square building and made it ready for 
Senate business. Thanks to the hard work, ingenuity, and practice of 
our staff, Senator Coons was able to gavel in the historic session--the 
first routine session of the Senate held outside the Capitol in 197 
years--at just after 3:30 p.m., about 1 hour after the session was 
originally scheduled to start.
    As always, my staff and I are grateful for the support and guidance 
of your subcommittee, the full Committee and the Senate Committee on 
Rules and Administration.
   <greek-l>saa deg.continuity and emergency preparedness operations
Emergency Planning
    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities and equip 
them with the necessary tools to respond to any emergency situation. 
Throughout 2011 we were committed to improving these procedures using 
industry best practices, training, and lessons learned through 
exercises and scheduled events. We made significant strides to ensure 
staff preparedness through enhanced Emergency Action Plans, mobility-
impaired evacuation procedures, internal relocation actions, and the 
annual Chamber Protective Actions exercise.
    The central document that reflects our preparedness efforts across 
the Senate is the Emergency Action Plan. In 2011, 100 percent of Senate 
offices possessed a customized Emergency Action Plan based on their 
unique circumstances and needs. Over this past year, 85 percent of all 
Senate office Emergency Action Plans were reviewed and validated using 
guidelines set forth by OSHA and CAA. Significant areas of improvement 
included the addition of office-specific shelter-in-place locations, 
emphasis on using the secondary assembly area as an AIRCON assembly 
point, internal relocation actions, and AIRCON threat procedures.
    Accommodating staff with accessibility needs is outlined in each 
office's Emergency Action Plan and is an integral part of our training 
efforts. A major enhancement to our program was the addition of Victim 
Rescue Unit (VRU) public caches at each emergency staging area, with 
each cache containing eight VRUs. The VRU is a special smoke hood that 
is issued to self-declared mobility-impaired staff members and their 
``buddies'' for use in an evacuation emergency. Another addition to our 
mobility impaired program for 2011 was a new ADA-accessible exit 
located at 1st and C Streets, NE. We trained Senate staff on the 
location of the new exit and have updated all Russell Senate Office 
Building Emergency Action Plans to reflect this new ADA-accessible 
exit. We also collaborate with the House of Representatives to promote 
emergency preparedness among our special needs community. In December, 
we jointly hosted a seminar with the House Office of Emergency 
Management on emergency planning for individuals with access and 
functional needs.
    The protection and preparedness of Senators, staff, and visitors 
within the Senate Chamber continues to be a focus. Each year we test 
and validate the Chamber Protective Actions Guide by conducting a full-
scale exercise. The guide serves as a comprehensive summary of the 
complementary actions each organization will take if the Chamber is 
required to evacuate, shelter-in-place, relocate, or don escape hoods. 
The 2011 exercise addressed evacuation due to an AIRCON threat and 
procedures to shelter in place. Additional areas of emphasis for this 
exercise included setting up portable comfort stations, Doorkeepers' 
duties in the Capitol Visitor Center (CVC) gallery check-in room, 
fourth floor ALERTUS notification system activation, and transportation 
of mobility-impaired Senators to the briefing center during an AIRCON 
evacuation. The addition of a transportation capability for Senators 
represents a further refinement in our plans and capabilities that was 
previously absent.

Emergency Communications and Accountability
    We continue to improve notification and communication programs to 
ensure devices and systems are ready to support the Senate during local 
or large-scale emergencies. The Accountability and Emergency Roster 
System (ALERTS) is the primary alert and notification system that 
provides a single interface for delivering emergency email, PIN, and 
voice messages to the Senate community. Key achievements during 2011 
included training 128 Office Emergency Coordinators on ALERTS and 
remote check-in procedures, updating emergency contact information for 
all Member offices, increasing the number of Senators receiving ALERTS 
notifications from 35 to 51, and signing up all Senate chiefs of staff 
to receive ALERTS and be listed on the emergency contact list.
    We conducted monthly emergency notification tests for staff and 
biannual tests for Senators in conjunction with the USCP, SOS, party 
secretaries, and other stakeholders. These tests are designed to ensure 
our emergency messaging system is reaching all intended recipients. We 
conducted monthly communications tests with executive branch agencies 
to verify contact information for each other's continuity sites.
    In 2010, we introduced the ALERTS Dashboard to provide the Senate 
and USCP with real-time accountability data through a user-friendly 
graphic interface. This year we extended this capability to the USCP 
Command Center SAA duty desk. This provides the USCP Command Center 
with real-time accountability data for incidents that occur both after 
hours while the Senate is in session and during normal duty hours. We 
consistently reinforce the importance of accountability with Senate 
staff by conducting remote check-in drills and training using 
BlackBerry devices.
    We provide ``watch standers'' in the USCP Command Center after 
normal business hours when the Senate is in session or during emergency 
incidents and special events. Watch standers are trained to use the 
Senate Dialogic and Chyron systems to assist USCP as necessary and 
provide senior leadership with amplifying information regarding ongoing 
events. Because we rely on these two systems, the Dialogic Communicator 
System was upgraded to improve our voice messaging connectivity to desk 
and mobile phones. Upgrades were made to the Chyron Cable TV Alert 
System to provide the capability to broadcast over digital and high-
definition channels. We are developing a new Chyron Web interface for 
2012 that will improve our capability to edit and review alert messages 
during an emergency and release them faster to the Senate community.
    We procured and installed WebEOC Mapper Professional, a geospatial 
information system that provides Senate emergency managers with the 
ability to create a dynamic, geographically based operating picture of 
an incident and its effects. Multi-layered mapping has proven to be a 
highly effective emergency management technique for government and law 
enforcement agencies throughout the country, and we successfully used 
this feature during the last State of the Union Address. Recent 
improvements to the core emergency operations center management 
application provide better situational awareness during emergencies and 
special events and were used to a limited degree following the August 
2011 earthquake. These improvements include the ability to track the 
setup of individual rooms in continuity facilities as they become 
available and to track and report on the locations of contingency 
staff.
    Information sharing between legislative and executive branch 
emergency managers was further improved through the installation of a 
Homeland Secure Data Network (HSDN) terminal in February 2011. Our 
mission requires access to classified email, messaging, data analysis, 
and collaboration tools along with law enforcement, emergency 
management, and National Capital Region intranet resources. The use of 
HSDN assists in intelligence gathering, situational awareness, 
decisionmaking, and event reporting.

Training and Equipment
    Training and outreach programs are designed to provide interactive 
classroom and personalized instruction to the Senate community. These 
valuable programs give staff a wealth of preparedness and life-safety 
awareness information to enhance office and personnel preparedness. 
This year, we conducted 246 training sessions in which more than 5,000 
staff were trained on a variety of preparedness topics. We initiated an 
Office Emergency Coordinator (OEC) certification program in 2008 for 
staff that completed requisite emergency preparedness courses. In 2011, 
15 staff members received this certification.
    The culmination of our emergency preparedness training and outreach 
programs is the Senate's annual National Preparedness Day observance 
held each September as part of National Preparedness Month. This event 
invites members of the National Capital Region emergency management 
community to set up equipment displays, provide program capability 
awareness training, and demonstrate new products. More than one dozen 
regional emergency preparedness partners participated in this past 
year's event.
    One of the keys to our preparedness posture is the continued 
management and support of emergency protection and communication 
equipment in each Senate office. Every office is issued escape hoods, 
emergency supply kits, and wireless emergency annunciators. These 
annunciators allow offices to receive notifications from USCP to 
shelter in place, deploy to their designated internal relocation site, 
receive situational updates, or use specified equipment to evacuate the 
building. The SAA ensures functionality of all equipment through an 
annual inventory and operations check of assigned equipment, and 
replacement of faulty or expired items. More than 270 offices and more 
than 28,000 pieces of equipment were inventoried in the past year. 
Enhancements to the equipment preparedness posture included additional 
emergency equipment for Continuity of Operations vehicles.
    In 2011, we released an updated version of the Roadmap to 
Readiness, which included a condensed Emergency Response Guide and 
portable pocket guide providing concise critical emergency information. 
The Roadmap to Readiness is a comprehensive guide designed to provide 
offices with the necessary tools to create emergency plans for 
Washington, DC, and State offices. It also outlines ways to educate and 
train staff to respond appropriately in emergencies. New Web-based 
training classes on personal preparedness and shelter in place have 
been developed to provide staff with the means to educate themselves 
from the convenience of their desktops. Additionally, we developed a 
new Web site that provides staff with the resources and information 
required to begin preparing for emergencies.
    The Senate Emergency Operations Center (EOC) is utilized during 
emergencies and special events to coordinate information, resources, 
and our response efforts. Training for EOC staff is critical for 
understanding roles and responsibilities. During 2011, two exercises 
and several training classes were conducted to provide staff with the 
opportunity to improve their skills.

Exercises
    We continue to manage a comprehensive exercise program that ensures 
Senate plans are practiced and validated regularly. The Test, Training, 
and Exercise (TT&E) Program administered by the SAA serves to validate 
our ability to respond in times of crisis as well as identify areas 
where better planning and procedures would be beneficial. As the August 
2011 earthquake event demonstrated, nearly every Senate support 
organization has a role and responsibility that supports successful 
implementation of Senate emergency plans. It is important that each 
organization knows and is able to execute its respective tasks. A 
viable Senate TT&E program provides training and includes practicing 
individual and group responsibilities as well as overall emergency 
plans on a regular basis to ensure preparedness to implement those 
plans. Our program is outlined in an annual guidance document that is 
coordinated with stakeholders and that I sign jointly with the 
Secretary of the Senate. This document provides overarching guidance 
for three TT&E program areas:
  --a 6-year exercise program that focuses on areas relating to our key 
        capabilities;
  --regular TT&E-supporting activities that occur throughout the year; 
        and
  --a calendar of annual exercises that reflects contingency program 
        goals and objectives.
    During 2011, in collaboration with the SOS, we led several joint 
exercises with the USCP, AOC, Office of the Attending Physician, party 
secretaries, and other key congressional stakeholders. Primary among 
these were the Chamber Protective Actions; Briefing Center; Alternate 
Office Space; and alternate Chamber exercises. We completed more than 
20 exercises, tabletops, tests, and guided discussions in 2011, 
covering all aspects of emergency response including Offsite Alternate 
Chamber; Emergency Operations Center; Chamber Protective Actions; 
Briefing Center; Transportation; Contingency Telecommuting, 
Accountability Measures; Evacuation; Internal Relocation; Mass 
Casualty; Alert Notification; Continuity of Government; and Alternate 
Office Space. We successfully exercised an offsite alternate Chamber to 
test our abilities to quickly set up a contingency facility away from 
Capitol Hill in a timely manner. An offsite emergency operations center 
exercise was conducted to test the ability to quickly move staff to a 
location distant from Capitol Hill and begin operations. The general 
exercise format included functional capabilities demonstrations and 
tabletop scenarios designed to test the Senate's ability to function 
during an event that requires relocating to alternate facilities or 
contingency sites. After-action reports were generated for each of our 
exercises to document lessons learned for future plan improvement. We 
plan to conduct more than 15 exercises during 2012 in addition to 
numerous training events and smaller-scale tests and drills designed to 
maintain and strengthen existing capabilities while addressing emerging 
needs.

Continuity of Operations
    In 2011, we focused on developing contingency transportation and 
site-specific plans while continuing to refine and validate other 
existing plans and procedures. We continued collaborating with Member 
offices and committees to develop internal COOP plans and train staff 
accordingly. We acquired new transportation assets and developed 
accompanying activation and operations plans. We worked with our 
counterparts in the House to develop the Personnel Accountability 
System to enhance accountability during contingency transportation. The 
program is now in the final stages of development.
    A full-scale exercise at the Postal Square Briefing Center was 
conducted to validate movement of Members to a safe and secure 
environment in the aftermath of an incident. We also improved plans to 
utilize alternate office space in the event the Senate is no longer 
able to occupy its regular office building work space. COOP materials 
and vital records were placed at contingency facilities and on 
classified networks for convenient access. We acquired space in the 
Ford House Office Building for use as a briefing center should Senators 
evacuate to the House side of the Capitol complex in an emergency. We 
also recently negotiated with the Government Printing Office for use of 
their auditorium and conference rooms for Senate and House briefing 
centers.
    We finalized the first edition of an Alternate Office Space Plan 
that establishes set-up and operational procedures for the COOP space. 
Our focus has been on establishing and validating connectivity to the 
Senate network, and working with USCP security teams on establishing 
access control requirements for the facility when the Senate is 
operating there. We successfully tested our planning assumptions by 
conducting a functional exercise at the alternate site.
    Maintaining a viable COOP program is critical to the Senate's 
ability to continue performing constitutionally mandated functions 
during local emergencies. Our team worked closely with Member offices 
and committees to produce individualized COOP plans utilizing a 
simplified template which was designed and tested within my 
departments. The resulting COOP template is a simplified and proven 
tool for use by Member and committee offices throughout the Senate.
    We conducted an exercise that validated that facilities at our 
offsite location could be used as an alternate Chamber and identified 
additional improvements to enhance the facilities' capabilities.
    We established the COOP Council to assist planners in all SAA 
departments with the development of coordinated plans for our COOP 
sites. The inclusion of key stakeholders in a forum where critical 
decisions may impact our operations during emergencies is essential 
while planning for contingencies.

Continuity of Government
    To assist in coordinating plans and resolving issues affecting the 
House of Representatives as well as the Senate, we developed a 
Congressional Contingency Planners Group that meets monthly to 
coordinate Continuity of Government planning for the House and Senate. 
That planning group has worked through issues concerning strategy, 
design, and plan implementation. We expect this effort to continue to 
help resolve issues as we encounter them in the joint planning 
environment.
    We are working with the House, USCP, and others to consolidate our 
separate operational plans into a single coordinated plan. Progress has 
been made, but additional work must be done to finalize the plans. This 
will require all parties involved to remain focused on the objective--a 
consolidated operational plan.
    We developed and implemented the concept of a Continuity of 
Government Council to provide invaluable planning guidance and internal 
coordination at the executive level for continuity planners. This has 
been extremely valuable in helping guide the development of site and 
activation plans.

         <greek-l>saa deg.INTELLIGENCE AND PROTECTIVE SERVICES

    The Intelligence and Protective Services division of the Office of 
the Sergeant at Arms represents the integrated plans and programs for:
  --Execution of law enforcement support and coordination;
  --Security of the Senate as both an institutional body and a campus; 
        and
  --Protection of Members and staff in the District of Columbia and 
        their State offices.

Security Policy and Planning
    The State Office Readiness Program is a single security and 
preparedness resource that mirrors programs currently available to 
Washington, DC offices. Nearly two-thirds of the 450 State offices 
located across the United States occupy office space in commercial 
buildings with no internal security. The remaining offices are located 
in Federal buildings with some level of building security, but may be 
routinely targeted for disruptive activity. Violent incidents in and 
around State offices, including the January 8, 2011, shooting that 
critically injured U.S. Representative Gabrielle Giffords, have 
increased State office awareness of, and participation in, this 
voluntary but critical program. Participating offices are provided with 
a variety of security enhancements including secure reception areas to 
screen visitors, emergency duress buttons, burglar alarm systems, and 
closed-circuit camera systems. SAA pays for installation, maintenance, 
and alarm monitoring services including annual inspections and 
equipment testing.
    During 2011, 333 or 73 percent of State offices received direct 
assistance in completing or updating their Comprehensive Emergency Plan 
(CEP). The CEP combines security, emergency preparedness, and 
Continuity of Government processes into one document. It meets CAA 
requirements and prepares offices to continue services during an event 
with minimal negative impact. A streamlined template and an online 
component to enter preliminary plan information allow us to offer CEP 
assistance to the remaining offices not currently participating in the 
program.
    State office hazard overviews were completed or updated for 349 
offices during 2011; these identify natural or manmade hazards to be 
considered during plan development. Additionally, 79 new State offices 
received program briefings and emergency equipment similar to 
Washington, DC offices. A monthly Office Emergency Coordinator (OEC) 
bulletin is distributed to all State offices and State OECs complete a 
certification program. Online and video teleconferencing security and 
preparedness training is now regularly offered to State office staff.
    Security enhancements were provided for 90 State offices during 
2011. The program has provided security enhancements in 86 percent of 
all State offices including 90 percent of offices located in commercial 
spaces and 76 percent of offices located in Federal buildings. 
Additionally, more than 300 State office alarm systems were tested and 
inspected this year.
    For 2012 the focus of the State Office Readiness Program is on 
using an all-hazard risk assessment to survey State offices and 
offering security enhancements to nonparticipating offices. Site visits 
and collaboration with USCP, GSA, Federal Protective Service, and U.S. 
Marshals Service representatives will continue.

Police Operations
    The Senate Campus Access Program coordinated inspections of 
construction vehicles and special deliveries with the USCP during 
recent renovations at the Sewell-Belmont House. The program also 
processed 795 special requests for vehicle clearances, deliveries, and 
bus access during 2011. Additionally, we developed the successful 
Committee Hearing Security Assistance Program to provide a single point 
of contact to coordinate USCP coverage at committee hearings. We 
collaborated with USCP and other law enforcement agencies to monitor 
and secure special events such as the State of the Union Address, 
Senatorial party retreats, summer concert series, and various joint 
sessions of Congress.
    The SAA Duty Desk continues to assist in the USCP Command Center by 
utilizing staff to monitor and track security events and incidents 
within the National Capital Region during normal business hours and 
after hours while the Senate is in session. Staff members monitoring 
these events provide direct and timely information necessary to make 
key decisions. The program provides a cost-saving measure as it uses 
existing full-time equivalents (FTEs) with appropriate communication 
training instead of vendor support.
    The January, 2011 shooting of Representative Giffords prompted our 
office to greatly expand monitoring law enforcement investigations 
involving threats to Members. Our goal is to provide updates to 
affected offices from case opening through adjudication. We routinely 
process Senate office requests for local law enforcement assistance at 
public events and coordinate security evaluations and assessments with 
the USCP.

Intelligence and Threat Assessment
    Our office recognizes the value of identifying potential security 
risks early, so that appropriate awareness, mitigation, and prevention 
strategies can be deployed. The Threat Assessment Program proactively 
identifies and analyzes open-source online information in order to 
detect potential security threats targeting the Senate community and to 
enhance situational awareness of possible security risks. The program 
is fundamentally designed as an effective security and prevention tool 
to assess and mitigate risks in collaboration with the USCP.
    We have been reviewing open-source information and creating daily 
threat reports since December 2011. A total of 283 incidents, an 
average of almost 7 incidents per work day, were reported between 
December 2011 and February 2012. Each incident was reviewed and an 
average of 2 incidents per work day, or a total of 86 incidents in 3 
months, was forwarded to USCP for follow-up investigation. This program 
has allowed us to provide important early warnings and situational 
awareness of possible security risks. It has also guided protection and 
prevention efforts regarding specific threats against Senators, 
possible civil disobedience activities regarding specific topics, and 
cyber threats to online Senate assets.
    The Threat Assessment Program is a tool designed to help us 
collaborate with the USCP and other partner agencies to stay ahead of 
the curve in a constantly changing threat environment. The program was 
initiated as a pilot effort to test processes and evaluate outcomes. 
The next key step is to properly evaluate the program. We have engaged 
the National Academy of Public Administration as an experienced, 
knowledgeable, and independent organization to conduct the formal 
program evaluation.
    Even though a formal evaluation has not been completed, it is clear 
the Threat Assessment Program has elevated situational awareness of 
security-related issues and events among my organization, USCP, and 
Member offices. The program supports the Senate's collective safety and 
prevention efforts.

                <greek-l>saa deg.INFORMATION TECHNOLOGY

Enhancing Service, Security, and Stewardship
    We continue to provide a wide range of effective IT solutions to 
facilitate the Senate's ability to perform its legislative, constituent 
service, and administrative duties; to safeguard the information and 
systems the Senate relies upon; and to be ready to respond to 
emergencies and disruptions. As in our other areas, we also emphasize 
stewardship--the careful use of all of our resources, including the 
funding we are provided, our personnel, and the external resources that 
we consume--in all aspects of our IT operation.
    As we do each year, we have updated, and are performing under, our 
2-year Information Technology Strategic Plan. The current version, 
under which we will be operating in fiscal year 2013, continues to 
emphasize our five strategic IT goals and their supporting objectives 
that drive our programmatic and budgetary decisions:
      Secure.--A secure Senate information infrastructure.
      Customer-Service Focused.--A customer service culture top-to-
        bottom.
      Effective.--IT solutions driven by business requirements.
      Accessible, Flexible, and Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances.
      Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our fourth strategic IT goal--Accessible, Flexible, and Reliable--
may be the most far-reaching of the five goals. This goal undergirds 
everything we do from a technology standpoint. We must ensure that 
almost every system and every service we deploy can withstand 
disruptions to our operating environment, can be reconfigured if 
necessary to cope with disruptions, and can be used regardless of the 
user's location. We continuously re-evaluate existing services and 
systems to identify areas for improvement and make those improvements 
as soon as we can, in an effort to ensure the Senate can continue to do 
its work under any circumstances.
    From a budgetary standpoint, more than one-half of the CIO 
organization's fiscal year 2013 request will cover the installation and 
support of the equipment acquired by offices through the economic 
allocation, and for other programs that benefit offices directly. One-
third will be devoted to providing services at the enterprise level, 
such as information security, the Senate data network, email 
infrastructure, and telephone systems. The remainder is almost equally 
divided between supporting the office of the Secretary of the Senate 
with payroll, financial management, legislative information, and 
disclosure systems; and our own administrative and management systems.

            <greek-l>saa deg.ENHANCING SERVICE TO THE SENATE

Customer Service, Satisfaction, and Communications
    Our IT strategic plan stresses customer service as a top priority, 
and we actively solicit feedback from all levels and for all types of 
services. For instance, we ask for customer feedback on every Help Desk 
ticket opened. In major contracts that affect our customers, we include 
strict service levels that are tied to the contractors' compensation--
if they do well, they get paid more; if they do poorly, they get paid 
less. Because of reductions to our budget, we have had to relax the 
service level requirements, reducing services to our customers. During 
the past year, the percentage of on-time arrivals for the IT 
installation team never dropped less than 99 percent. The percentage of 
Help Desk calls that were resolved during the initial call averaged 57 
percent, and 99 percent of customer surveys rated the IT Help Desk and 
installation services as either ``very satisfactory'' or ``excellent''. 
We expect this excellent level of performance to continue through 
fiscal year 2013.
    We satisfy our customers' demands for the latest in mobile wireless 
technology by keeping our catalog up to date with the latest offerings. 
Last year, we made available several new models of iPhones, iPads and 
BlackBerry devices, as well as enhanced iPhone and iPad email and tools 
integration that include secure intranet browsing, and document editing 
and storage features. We will continue to offer the Senate community 
the latest smartphone technology as well as add MiFi mobile hotspots to 
our technology catalog in fiscal year 2013. Our CIO staff also 
continues to work extensively with third-party software providers to 
enhance our iPhone and iPad corporate email client. Finally, we 
continue to monitor and test Android devices for support with the goal 
of supporting these devices when we can do so with adequate security.
    In fiscal year 2013 we will continue to communicate effectively 
with our customers through a well-developed outreach program that 
includes IT newsletters, periodic project status reviews, IT working 
groups, weekly technology and business process review meetings with 
customers, and joint project and policy meetings with the Committee on 
Rules and Administration, the Senate Systems Administrators 
Association, and the administrative managers steering group.

Robust, Reliable, and Modern Communications
    We provide robust, reliable, and modern data network and network-
based services that the Senate relies upon to communicate 
electronically within and among offices on Capitol Hill and in the 
States; to and from other legislative branch agencies; and through the 
Internet to the public, other agencies, and organizations.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily and emergency operations, and to take 
advantage of technological advances to provide a more flexible and 
robust infrastructure. We completed the replacement of the main 
telephone switch this year, and have processed more than 3 million 
phone calls since it came online. We are currently installing up to 250 
new telephones a week in Senate offices and are scheduled to complete 
the Watson phone migration by the end of the current fiscal year. 
Moving forward, we will replace systems such as the cloakroom alerts 
and conference services systems over the coming year. We are securing 
the Watson implementation with the same high level of diligence as we 
secure the whole of the Senate's IT infrastructure. We also conduct 
rigorous vulnerability testing on Watson, which exemplifies our 
proactive and preventive approach to information security.
    Our wired and wireless data network forms the core of our IT 
infrastructure. This past year we improved the ability of Members and 
staff to gain access to the Senate network remotely, which is a 
critical function for our customers and a key to success for our 
support organizations. We integrated client-based and clientless remote 
access services into a single platform. We did this without any 
significant effects on our customers, while improving our internal 
efficiency.
    In 2011, we also enhanced the security of the Senate's wireless LAN 
or ``WiFi'' service by introducing a new network--Odyssey--that 
supports a more secure authentication mechanism and allows us to 
support mobile devices such as the Apple iPhone and iPad. Over the 
course of the next year, we will continue to enhance our wireless 
network by replacing more than 700 access points.
    We continued reducing costs for the wide area network services that 
support State offices, achieving a $200,000 reduction in fiscal year 
2012; less than the fiscal year 2011 cost. A portion of this reduction 
results from better contract pricing for services in Alaska.
    In order to support our new PGDM facility in Landover, Maryland, we 
invested in a direct fiber-optic connection, both to provide high-speed 
service to the location and to save money in the long-term less than 
the cost of a leased connection. We received favorable monthly pricing 
by using the same contract and vendor that provides us ``dark fiber'' 
service to the Alternate Computing Facility (ACF) and other locations 
off Capitol Hill. The direct fiber-optic connection to this new 
facility closely matches the connection PGDM had while on Capitol Hill 
and does so at a reduced cost. The monthly rate for our direct 
dedicated connection is approximately 40 percent less than comparable 
shared bandwidth with a contract commitment of 10 years. Because it is 
a private connection, we also eliminated the need for security 
equipment, which is necessary when using a commercial-based service. We 
plan to extend this service to the nearby Senate Support Facility to 
substantially increase the level of network service there.
    We continue to make effective use of our investment in performance 
monitoring equipment to manage service levels on our connections to the 
Internet. This has allowed us to keep service capacity levels constant, 
without sacrificing performance for our customers. However, we will not 
be able to ensure this critical resource meets our customers' demand 
indefinitely without additional funding.
    Because our data network is vital to everything we do, we must 
continue to invest in performance monitoring equipment to proactively 
identify and resolve problems within the network as quickly as 
possible, including before our customers recognize a problem exists. 
This also allows us to use statistical information for trend analysis 
purposes so that we can be in front of the need for additional network 
capacity. With more than 1,500 devices supporting our enterprise data 
network, it is imperative that our CIO organization be well positioned 
to identify problems (fault management), traffic levels (performance 
management) and modifications (change management).
    We use many tools in our efforts to monitor the health of the 
Senate data network, which spans Capitol Hill, more than 450 State 
offices, and two data centers. We processed more than 1,800 incident 
tickets during calendar year 2011 and more than 1,400 network change 
requests associated with data center services. As 2011 was the first 
year of the 112th Congress, with attendant changes in Senate 
membership, we provided 90 new State office connections and 
decommissioned 60 others.
    In partnership with other legislative branch agencies, our CIO 
organization participated in the replacement of the legislative branch 
intranet known as CapNet. This private network provides all legislative 
branch agencies the ability to communicate with each other without 
traversing the Internet. The Senate has been one of the leading voices 
in promoting the value of this network for inter-agency communications 
and business services. The replacement of older technology enables the 
entire legislative branch to maintain existing services and expand into 
new services. Our CIO organization led the effort to develop the 
redundant CapNet solution centered at the Alternate Computing Facility. 
In combination with the new primary network, we are well-positioned to 
support new and expanding inter-agency services in a highly available 
environment.
    Another significant undertaking in 2011 was the upgrade of all of 
the Senate's data network chassis equipment. This upgrade was 
essentially a replacement of 100 chassis units spread across the Senate 
campus to ensure we remained well-positioned for growth within the data 
network. The upgrade also provided additional redundancy and increased 
power supplies to support power over Ethernet for the new Watson 
phones.
    Also in support of telecommunications modernization, we designed 
and implemented a quality of service architecture to ensure that voice 
services are prioritized as they traverse the data network. Due to its 
real-time nature, it is critical to the quality of a phone call that 
the corresponding data traffic be properly processed and not be delayed 
by other non-real-time communications.
    In addition to our robust messaging infrastructure that processed 
approximately 356 million Internet email messages during the past 
calendar year, we also support effective communication through the use 
of videoconferencing. Our videoconferencing infrastructure processes an 
average of 300 video calls per day when the Senate is in session. 
Recent enhancements include the ability to call anyone in the world 
through a secure, publicly available client, as well as to make a 
point-to-point call into a multipoint call regardless of bandwidth or 
whether the system has multipoint capability installed. We are also 
strengthening the resiliency of the core services we currently provide 
by designing and deploying a high-availability infrastructure for those 
core services. This will result in less downtime and increased 
reliability.
    This past year we upgraded the Microsoft Office Communicator 
application to Microsoft's latest product, Lync, enabling a convenient 
multi-party desktop sharing feature and preparing the environment so we 
can deliver additional unified communication capabilities such as 
integrated audio and Web conferencing. More than 5,000 people in 80 
offices take advantage of the service.
    In a more visible effort, we collaborated with the Secretary of the 
Senate and the Committee on Rules and Administration to offer, 
beginning with the second session of the 112th Congress, the ability to 
view Senate sessions live on computers and many common mobile devices 
via senate.gov. The public also will be able to use our video archives 
as a powerful research tool by utilizing keyword searches for topics of 
interest.
    The new streaming capability enhances the ability of Members and 
committees to incorporate video into communications with constituents 
by offering the live video of floor activity on their official Web 
sites. We also introduced a video clipping tool, to enable staff to 
capture video segments from archived sessions to post on their official 
Web sites.
    The Large File Transfer System (LFTS), which has been in use for 
nearly 2 years, has streamlined the process of sending large files. 
Currently, 45 offices use it to correspond with other offices in the 
Senate as well as with external entities, including other government 
agencies, the media, and constituents. For example, during the weeks 
and months following the Deepwater Horizon oil spill in the Gulf of 
Mexico, the Committee on Environment and Public Works used LFTS to send 
and receive video files containing extensive footage of the incident. 
In addition, the Senate Recording Studio uses the LFTS to send video 
files to Senators' offices not only on Capitol Hill, but also in their 
home States. Since January 2011, LFTS has processed more than 3,800 
files with 500 gigabytes of data.

Web-Based and Customer-Focused Business Applications
    As in past years, we continue to add functionality to TranSAAct, 
which is our platform for moving business online. Based on the business 
requirements of offices and the Committee on Rules and Administration, 
we continue to develop TranSAAct to eliminate paper-based manual 
processes and move them to the Web. Because it is built on an 
extensible modern database framework, TranSAAct allows indefinite 
expansion as new requirements are identified. This year we completed 
several enhancements to TranSAAct, giving staff the ability to make 
telecommunications service requests online, and integrating with the 
asset management system to allow administrative managers and chief 
clerks to view the assets assigned to their office. They can report 
inaccuracies and lost or stolen items and generate reports on the fly. 
We also started development of a depot to house the forms and documents 
that chief clerks use, with links to a collection of how-to documents 
and checklists for chief clerks to collaborate on best practices. We 
look forward over the coming months and years to moving additional 
business processes to the Web; delivering increasing functionality to 
administrative staff; and reducing the time, paper, and errors 
associated with the current manual processes.
    We are working in collaboration with the Secretary of the Senate to 
replace the current payroll system with a new one that is built on a 
modern technological platform. It will provide additional capabilities 
to benefit members and employees, office management and the Secretary's 
staff. We plan to implement Phase I of the new system, which replaces 
the current payroll functionality, later this year. Phase II will 
follow that implementation and will provide self-service capabilities 
to Members and employees.
    We expanded the services of other Web-based applications such as a 
program that more than 60 offices use on their Web sites for accepting 
service academy nomination requests, intern applications, budget 
requests and other types of applications and requests. To date, 
constituents have submitted more than 24,000 different requests through 
this system. We also modernized CapFOR, the application that allows 
offices to request services from our Capitol Facilities department.
    We provide numerous Web-based systems to enhance the productivity 
of office staff, such as one for the Placement Office that allows 
external applicants to electronically submit job applications for 
positions in Senate offices. Currently, there are more than 36,000 
accounts in the system. We provided significant enhancements to the 
lobbyist registration application to create more robust search 
functionality as well as improve the application's overall performance. 
Committees extensively use streaming video to broadcast their hearings 
over the Internet. This year we transitioned from Flash video to the 
more ubiquitous MPEG4 video standard. This is a huge improvement--using 
the MPEG4 standard allows us to stream and archive video in high 
definition with only a minimal increase in bandwidth usage.

Showcasing and Promoting Modern Information Technology in the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through demo days, which have been 
well-attended in the past. After products are tested and validated in 
our technology assessment laboratory, they are then available for staff 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, and to ensure we are considering 
technologies that will directly support the Senate's mission, we 
continue to improve the capabilities in our technology assessment 
laboratory. Technologies and solutions are vetted and tested here prior 
to being announced for pilot, prototype, or mass deployment to the 
Senate. To ensure we focus on the most relevant technologies and 
solutions, the Technology Advisory Group, consisting of CIO staff and 
our customers, performs high-level requirements analysis and 
prioritizes new technologies and solutions for consideration for 
deployment in the Senate.
    We continue to work toward providing unified communications 
capability, tying together voice, video, and data communications into a 
single tool. This allows the user to choose the best communication 
option available--based on the capabilities of the device they are 
using and the preferred method of communication.
    We will continue these efforts in fiscal year 2013 to ensure that 
the Senate is always well-equipped to perform its functions. To keep 
our customers informed of our efforts, we publish the results of our 
studies on the emerging technology page of the CIO's area on Webster.

           <greek-l>saa deg.ENHANCING SECURITY FOR THE SENATE

Enhancing Security Through System and Information Resiliency
    As I mentioned earlier, we build security, accessibility, 
flexibility, and reliability into every system and service. We continue 
to test our technology in scenarios in which our primary infrastructure 
and primary work locations have become inaccessible. This includes the 
simulated loss of our primary data and network facilities, as well as 
simulated loss of staff work spaces. All mission-essential Senate 
enterprise information systems continue to be replicated at our ACF, 
using our upgraded optical network and storage area network technology. 
We have created a high-availability videoconferencing infrastructure 
that operates simultaneously at the primary and alternate facilities. 
This allows for automated recovery from a loss of either the primary or 
alternate facility without loss of core videoconferencing network 
services. We also upgraded the redundant active directory domain 
controllers in the ACF to the latest operating system. The new servers 
were deployed in virtual machines, removing more than 20 physical 
servers from the facility. We conduct a variety of exercises to ensure 
we are prepared from an IT standpoint to cope with events ranging from 
a burst water pipe, to a pandemic, to an evacuation of Capitol Hill. 
These exercises demonstrate our ability to support mission-essential 
systems under adverse conditions, and the ability to support 
substantial numbers of people working from home. We continue to 
exercise the ability to support our Senate customers in the event of an 
emergency situation which may limit our ability to get to work. This 
includes weekly and monthly exercises designed to ensure technical 
support is available from the ACF and other remote locations. Our 
diligence in this initiative has proved worthwhile during various 
weather events.
    With the knowledge that the business of the Senate continued and 
that State office locations were not affected by the weather in 
Washington, DC, our staff continued to support the Senate community 
remotely throughout these events. This included answering the phones 
from home-based locations, highlighting the capabilities that our 
current migration to IP telephony will bring to the rest of the Senate.

Securing our Information Infrastructure
    As I have described in previous testimony, active and aggressive 
adversaries continue to target Senate information and technology 
assets. These adversaries use increasingly sophisticated tools, 
techniques, and procedures; rapidly shift their attack methods in 
response to new countermeasures; and continually refine their targeting 
of Senate information. Our key strategy to meet this threat has been to 
improve our coordination with other Federal agencies to share and adopt 
current best practices. We have greatly improved and expanded our 
relationships with other agencies over the past year. In addition we 
have undertaken a number of other efforts that we will continue 
throughout this fiscal year.
    Training on information security awareness is mandatory for every 
member of my staff. The information we provide in this training helps 
our staff better identify and respond to suspected attempts to gain 
unauthorized access to Senate resources. We have also made this 
training available to the rest of the Senate community, and have 
received positive feedback.
    We continue to develop and conduct individual threat briefings for 
system administrators, office leadership, and other staff to educate 
them on the evolving threat environment and to recommend services that 
we provide at no cost to help them reduce their risk. We incorporate 
current best practices into our general awareness materials that we 
provide through Webster and in-office presentations. In the last year 
our training and awareness briefings have paid off as office staff 
members are better equipped to detect and respond appropriately to 
possible malicious events.
    Last year's inclusion of an IT security briefing in the new system 
administrator training process was a great success. In these briefings 
we inform new system administrators of our services and help them 
enroll, so that they may make the best use of our offerings soon after 
they are hired. We also help system administrators identify critical 
systems under their control that our adversaries would consider high-
value targets. This asset identification enhances situational awareness 
for continuity of operations by allowing us to focus our efforts on 
protecting IT assets for which we have actionable threat intelligence. 
We work to continuously improve the quality of our training and, using 
office feedback regarding such training, we have improved both content 
and delivery.
    Two other programs that support situational awareness and help us 
maintain a common operating picture (giving stakeholders at all levels 
the same relevant information) are the vulnerability assessment and 
systems management services. Together, these programs help us identify 
and remove threats as quickly as possible.
    Our Systems Management Service (SMS) allows an office to 
automatically apply critical security patches to non-Microsoft 
software, saving staff time and effort and improving the security 
posture of the individual workstations in an office. It has been widely 
accepted with 134 offices enrolled, which is nearly 97-percent 
participation. We saw an immediate decrease in the average security 
vulnerability of systems as the service was implemented. SMS serves as 
an excellent enhancement to our vulnerability assessment (VA) program 
and to Windows Server Update Services, (WSUS) which automatically 
patches Microsoft software. The vulnerability assessment program, SMS, 
and WSUS combine well to serve as a ``success enabler'' for offices by 
giving them the tools they need to continuously assess and improve 
their IT security posture. We are looking at expanding our SMS service 
within the next year to better reach perimeter systems, such as laptops 
that remotely connect to the Senate network. We will also seek to 
provide automated update capability for operating system and third-
party software security updates to Apple systems.
    Our objectives call for maintaining strong relationships with our 
customers and improving customer care processes. The Senate community 
enthusiastically received both the SMS and the VA programs, which 
operate synergistically to mitigate operational cybersecurity risk. We 
devote considerable effort to helping the Senate community maximize 
their benefit from the VA and SMS programs. We pay careful attention to 
the feedback from offices concerning these vital programs, and this 
attention to detail helps us strengthen our relationships with those we 
serve and protect in the Senate community.
    We also provide our staff and contractors with the tools, training, 
and skills necessary to quickly respond to potential threats. These 
ongoing skill training initiatives support our commitment to develop 
and nurture an agile CIO team. Because we are continuously leveraging 
and augmenting our knowledge base as technologies evolve, we quickly 
and productively respond to the challenges that new technology poses.
    To detect, defend against, and pre-empt threats when possible, we 
are employing new operating concepts to protect networks and systems. 
An example of our evolving conceptual innovation is that we employ and 
continuously monitor a strong core of layered defenses. This defensive 
posture enhances IT security. If our adversaries create a challenge at 
one layer, we have multiple, robust security layers making it difficult 
for them to successfully navigate all the security layers.
    We strongly believe that integrating key concepts from the 
Department of Defense's Active Defense doctrine with our strategic 
goals bolsters our cybersecurity posture. As a result, we awarded a new 
cybersecurity contract to a provider with extensive defense sector 
experience. The new service provider is now applying its security 
experience to the protection of Senate information assets. The 
contractor has already taken the initiative to reconfigure network 
monitoring tools for improved performance.
    As mentioned earlier, we share our awareness material and best 
practices with other agencies and adopt useful material and practices 
they have shared with us. We have achieved improved cybersecurity as a 
result of this cooperation, always with a view toward proactive risk 
prevention. Sharing information with other government agencies and the 
private sector also helps us fulfill our objectives of pre-empting 
threats. Such cooperation enables us to put other agencies' experiences 
to good use in effectively and confidently pre-empting threats that may 
not yet have reached us.
    Using best practices from other Federal agencies also helps us 
ensure that the cybersecurity services we offer are aligned with and 
support the Senate's business needs. We continue to expand our reach in 
partnership with other government agencies and the private sector in 
implementing reciprocal mutual trust mechanisms for exchanging email. 
These mutual trust mechanisms guarantee that we can trust messages that 
originate in participating agencies, and they can trust that our 
messages are genuine as well. We described this trust program in last 
year's testimony, and we continue to expand our exchange of encrypted 
messages with more agencies and public-private partnerships.
    Many Members and committees have embraced social media services and 
technology, and are increasingly using these services to communicate 
with constituents. Consequently, we forged direct partnerships with 
leading social media companies to ensure quick and effective 
communications with them. As a result, we are able to provide the 
quickest possible cybersecurity response when required. In this way we 
enable our community to maintain the confidence of constituents that 
each message is actually from the member or committee.
    We have also faced significant challenges. For instance, last March 
we learned of a security breach associated with the company that is a 
major supplier of user authentication devices, RSA. This affected the 
Senate because we make extensive use of RSA's SecurID tokens and the 
breach compromised the security of these tokens. In June, RSA initiated 
the replacement of all ``hard tokens'', or SecurID devices. We were 
tasked with replacing more than 2,500 SecurID tokens for our customers. 
Additionally, we were able to reduce the number of tokens in service by 
almost 1,100 units, working with each office to identify tokens that 
were no longer being used. This saved the Senate approximately $43,000 
in device costs alone and, by reducing the overall count, allowed us to 
avoid a more costly upgrade in license support.
    In an effort to protect data past the useful life of the systems it 
is stored on, this past year we upgraded our on-site degausser to one 
that is better able to erase data from increasingly denser media and 
which will support future improvements and refinements to tapes and 
disks as the data density increases. The model we have is also the only 
degausser approved by the National Security Administration that can 
accommodate multiple drives per cycle.
    We continued our BlackBerry scanning program designed to detect 
security intrusions on wireless devices used during international 
travel. In fiscal year 2011, we upgraded our scanning software from 
AutoBerry to Fixmo's Sentinel, allowing us to scan up to 10 devices 
simultaneously. This past year, we scanned more than 370 BlackBerry 
devices, some multiple times, and found no discrepancies that we could 
not resolve. In fiscal year 2013 we will continue to seek ways to 
improve and enhance our scanning program.

                 <greek-l>saa deg.ENHANCING STEWARDSHIP

    Stewardship of our resources is integral to everything we do. We 
are always looking for ways to improve our processes or technologies so 
that we save time, money, electricity, paper, and other resources. Our 
CIO organization is a good steward of the fiscal resources of the 
Senate, consistently and continuously improving the services offered to 
our customers while seeking only modest increases in funding. Many of 
these initiatives can save an office hundreds or thousands of dollars 
in costs that would otherwise be paid out of their official accounts. 
As most of these initiatives save money due to a reduction in the 
purchase of some commodity, they also fit in with our efforts toward 
environmental stewardship. Following are some examples of our efforts 
to enhance fiscal and environmental stewardship:
  --We completed a major upgrade of our messaging infrastructure that 
        significantly increased email storage capacity yet reduced 
        overall costs. The upgrade also provided for further 
        consolidation and virtualization of the Senate's messaging 
        environment, reducing by more than half the physical servers in 
        use. Improvements in high-availability capabilities have 
        further reduced service disruptions for routine maintenance, 
        and a change to leverage native email archiving features 
        resulted in additional cost savings in software maintenance, 
        administrative support, and storage.
  --Our SMS for automated deployment of applications and updates to 
        workstations and servers reduces the maintenance burden on 
        users and aids in maintaining a secure systems baseline. Almost 
        every office currently uses this service.
  --We have continued our virtualization efforts, where we now reduce 
        energy, maintenance, and support costs by running more than 800 
        of our servers in a secure, virtual environment. We will 
        continue an aggressive campaign to virtualize every server that 
        can be virtualized.
  --Offices have taken great advantage of our virtual machine 
        infrastructure that allows us to centrally host their file and 
        application servers on shared hardware at our primary and 
        alternate facilities. This greatly increases server hardware 
        efficiency, and, through system duplication and data 
        replication, offers enterprise class data redundancy and 
        recovery in the event of a critical local failure or crisis. 
        The virtual solution also relieves offices of considerable 
        noise and excess heat, and increases usable working area for 
        staff. It also removes the single point of failure from 
        existing office servers and meets continuity of operations and 
        data replication requirements for approximately one-half the 
        cost of existing solutions. To date we are providing 97 Member 
        and committee offices with a total of 131 virtual servers. 
        Virtual servers running in the data center consume only 25 
        percent of the energy of a comparable number of physical 
        servers. This means a reduction in power consumption and air 
        conditioning requirements, saving Senate funds, while enhancing 
        our ability to provide reliable and redundant services. Fewer 
        servers used by the Senate also mean fewer servers that need to 
        be disposed of at the end of their lives. This is greening on a 
        national scale.
  --Work continues on offering offices the ability to host their 
        constituent support systems and SharePoint collaboration 
        systems offsite or in a virtual environment. This will provide 
        offices the opportunity to operate without any physical servers 
        in their offices. Three offices are currently participating in 
        the pilot test for this effort.
  --We continue to use our catalog to highlight the energy-efficient 
        aspects of our supported IT and general office equipment, and 
        we participated in the Senate Environmental and Energy 
        Showcase.
  --We continue our efforts to dispose of surplus electronic equipment 
        through such initiatives as the Computers for Schools program. 
        Last year we fulfilled 35 Member office requests and packed and 
        shipped 775 surplus computers to eligible public schools. We 
        send other surplus equipment to the GSA for redistribution or 
        resale.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable ENERGY STAR guidelines and, where feasible, the 
        guidelines for the responsible manufacture of IT equipment.

                      <greek-l>saa deg.OPERATIONS

          <greek-l>saa deg.PRINTING, GRAPHICS, AND DIRECT MAIL

    PGDM provides high-level, direct customer support to the Senate 
community through photocopying, graphic design, printing, mailing, 
archiving, logistics, and security. During fiscal year 2011, in an 
ongoing effort to continuously improve and serve Senate offices, PGDM 
introduced 10 new products and services:
  --retractable signs;
  --pocket folders;
  --Quick Response (QR) codes;
  --CD/DVD high-level production;
  --transportation of Library of Congress (LOC) books;
  --Constituent Services System (CSS) letter address validation 
        reports;
  --full-color CSS letter printing;
  --secure scanning;
  --Section 9 mail imaging; and
  --panel panoramic picture printing.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate. We saved more than $1.1 million in postage 
costs by pre-sorting 6.9 million pieces of outgoing Senate franked 
mail; $55,000 in postage by using new software to identify 124,960 
undeliverable addresses before they were introduced into the United 
States Postal Service mail stream; and approximately $687,000 by 
producing 7,731 charts in-house for Senate floor proceedings and 
committee hearings.
    PGDM continued to improve operations and responded to 65,810 
individual Senate job requests in fiscal year 2011, an increase of 8 
percent more than fiscal year 2010. PGDM met Senate office demands for 
archiving by scanning and digitizing 3.8 million pages of Senate 
documents during fiscal year 2011, an increase of 23 percent more than 
fiscal year 2010. PGDM recently expanded its document scanning service 
to include special requests for very large volumes of documents from 
Members' storage attics and from the Suitland storage facility. In one 
such request, PGDM converted more than 451,000 documents from paper to 
digital media. This conversion service helps offices organize documents 
from their desktop and reclaim scarce storage space.
    PGDM's document management system, OnBase, continues to gain 
popularity among Senate office staff. This service, which allows 
offices their own private document management space, imported more than 
78,500 documents to individual office accounts during fiscal year 2011 
compared to 27,600 in fiscal year 2010, an increase of 184 percent.
    Senate offices increased requests for CD/DVD production by 16 
percent--PGDM produced 7,383 CDs/DVDs in fiscal year 2011 as compared 
to 6,361 in fiscal year 2010. PGDM offers secure disposal for obsolete 
documents, and during fiscal year 2011, we shredded and disposed of 
4,615 boxes of obsolete documents as compared to 3,898 boxes in fiscal 
year 2010, an increase of 18 percent. Printing volumes PGDM-wide 
totaled more than 30 million printed pages during fiscal year 2011, and 
more than 4 million pages were produced utilizing self-serve copy 
centers. In an effort to assist Member offices to more efficiently 
direct constituent mailings, PGDM can individually address and seal 
mail pieces simultaneously. In fiscal year 2011, PGDM individually 
addressed 1,649,794 mail pieces to target specific constituents, as 
compared to 1,354,304 in fiscal year 2010, an increase of 22 percent.
    PGDM's commitment to teamwork and excellent customer service 
extends to its legislative branch partners as well. Collaborative work 
with AOC fulfilled 94,045 flag requests during fiscal year 2011, an 
increase of 14 percent compared to fiscal year 2010. By working in 
tandem with the Government Printing Office, PGDM delivered more than 2 
million documents (Pocket Constitutions, Our Flag, Our American 
Government, etc.) to requestors.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security during fiscal 
year 2011 by receiving 1,006,337 items from the USCP off-site 
inspection facility and transferring them to the Senate Support 
Facility. This process eliminated 460 truck deliveries to the Capitol 
complex, reducing traffic, and allowing the USCP to focus on other 
aspects of safety.
    PGDM is committed to assisting the USCP with innovative methods of 
managing crowds and access for special events taking place on Capitol 
Hill. PGDM provides large format printing of signs and banners for 
major events, plus security enhancements for tickets, badges, and 
placards through the use of hologram foil stamping and clear toner 
technology that cannot be easily reproduced.
    During fiscal year 2011, SAA successfully relocated 2 of the 3 
sizeable sections that make up PGDM. The Logistics and Operations 
section was relocated in early fiscal year 2011 to allow for structural 
renovation on the lower level of the southwest corner of the Russell 
Senate Office Building. Later in the year, the Printing, Mailing, and 
Archiving sections were relocated from the Postal Square building to 
Landover, Maryland, to improve efficiency of production and reduce 
facility lease costs. This relocation will generate substantial savings 
in the years to come.
    During fiscal year 2011, PGDM's Logistics and Operations staff 
worked very closely with the AOC to relocate the PGDM Logistics and 
Operations section from SR-B31F to the Hart Senate Office Building 
loading dock, now SH-B08. Construction of the Hart Senate Office 
Building location began in early January and was completed by early 
April. PGDM and AOC staff collaborated on the design of the space to 
efficiently accommodate material, documents, and staff in less square 
footage than had been available in SR-B31F.
    From July through September 2011, PGDM relocated its main printing, 
mailing, and archiving facility from the basement of Postal Square to 
the new Landover Print Facility (LPF). This facility, which was 
completed on time and under budget, projects a net positive cash flow 
of $2.8 million, a 3.6-percent return on investment over 20 years. All 
equipment and the significant PGDM computer infrastructure was re-
established at Landover without any break in services to the Senate. 
During this move, PGDM produced more than 1,577,400 mass mailing pieces 
and more than 704,200 town meeting notices as well as standard printing 
requests that happen year-round. Fifty-nine staffers now work at LPF, 
and they remain committed to providing exceptional service to the 
Senate from this state-of-the-art facility.

                  <greek-l>saa deg.CENTRAL OPERATIONS

Smart Card Programs--ID Office
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12, the Policy for a Common Identification Standard for Federal 
Employees and Contractors, will significantly impact Senators and staff 
whose State offices are located in Federal buildings across the 
country. While the legislative branch adoption of HSPD-12 is optional, 
compliance will allow Senators and staff unhindered access to work 
freely within Federal facilities. Staffers from the ID Office and 
Technology Development Services are collaborating with executive branch 
counterparts to implement compatible access cards to paid staff within 
the 112th Congress.
    Although a substantial cost is associated with system architecture, 
we continue to explore advantages of Smart Card deployment. 
Sophisticated Smart Card credentials can provide multiple functions 
beyond current ``flash pass'' identification badges. While maintaining 
proximity technology used in USCP's current physical access control 
system, digital certificates on Smart Cards may be used for encryption 
of personally identifiable information exchanged with executive branch 
agencies in the processing of constituent casework. Other future 
benefits within the Senate community for digital certificates include 
digital signatures on financial documents and a secure, single network 
sign-on.
    The ID Office continues to research the expanding field of 
biometric security and study potential applications for this enabled 
technology.

Parking Operations
    Having implemented numerous changes to policies and procedures at 
the beginning of the 112th Congress, the Parking Operations team 
continues to seek areas of improvement. Parking Operations has 
increased monitoring of parking usage in order to effectively manage 
the Senate's limited number of spaces and maximize space utilization. 
Enhancements to TranSAAct, SAA request processing application, and 
modifications to SPARK, the Senate Parking Operations' management 
system, have improved customer service experiences for office 
administrators.
    Parking operations continues to accommodate all permit holders, 
even though repair and renovation projects frequently impact parking 
spaces. Projects such as sidewalk replacement, window repair, steam 
tunnel rehabilitation, and building revitalizations resulted in a 
temporary reduction of available spaces in almost every parking area 
during calendar year 2011. Parking operations continues to work with 
USCP and the District of Columbia government to reach viable solutions 
regarding appropriate enforcement measures in order to ensure spaces 
are available to permit holders.

Transportation and Fleet Operations
    Transportation and fleet operations safely and securely procures, 
manages, and maintains SAA vehicles; provides transportation 
information to offices; and manages the Senate Parking Shuttle service. 
The SAA fleet includes trucks, vans, buses, SUVs, and a handicapped-
accessible van to support the Senate community. Transportation and 
Fleet Operations is responsible for completing work orders, equipment 
installations, tag/registration renewals, and vehicle inspections for 
all fleet vehicles. Fleet staff transported more than 20,500 passengers 
through the SAA Fleet Shuttle service in fiscal year 2011.
    Transportation and Fleet Operations is a leader in ``go green'' 
initiatives with flex-fuel/E-85 vehicles, gas-electric hybrids, all 
electric vehicles, Segway Personal Transports, diesel exhaust fluid-
certified trucks, and a MAXXFORCE-equipped diesel engine with Exhaust 
Gas Recirculation (EGR) to meet the latest EPA standards.

Photography Studio
    The Photography Studio provides photography and imaging services 
for Senate offices, capturing more than 74,000 photo images and 
producing more than 95,000 photo prints in fiscal year 2011. The 
studio's popular image archiving service was used to scan, organize, 
and transfer more than 47,000 photo images for archiving purposes in 
fiscal year 2011.
    In fiscal year 2011, the Photo Studio converted photo print 
production to chemical free, inkjet printing systems, eliminating the 
use of photo chemicals for the majority of the photos produced. The 
Photo Browser application continues to provide Senate offices a secure 
location to store and organize photos with the capability to download 
and upload photos, as well as place orders for photo prints through a 
Web-interface.

                <greek-l>saa deg.OFFICE SUPPORT SERVICES

    The Office Support Services team continues to ensure all SAA 
services to Senate offices are provided efficiently through timely 
communication, and consistently meet high-quality standards.
    Office Support Services staff serve as liaison between Senators' 
State offices and the commercial or Federal landlords. The State Office 
Liaison oversees 450 State offices and assists Members in negotiating 
leases for commercial and Federal office space and mobile offices in 
their home States.
    Staff continue to consult Members, leadership, and committees 
regarding the most efficient use of office automation, and analyze 
functional operations and workflow in Senate offices to determine how 
new office technology might improve efficiency and productivity. We 
continue to provide training on Office Application Manager, a secure 
Web-based, user-friendly application that allows Senate office staff to 
create and manage online forms such as service academy nominations, 
flags, internships, and fellowships.
    During fiscal year 2011, Customer Support assisted 16 newly elected 
Senators and one appointed Senator in setting up DC offices. The State 
Office Liaison negotiated 101 leases for State Senate offices, 
including 72 in new commercial space, 27 in new Federal buildings, and 
82 renewals. Customer Support and the State Office Liaison have begun 
preparations for upcoming elections by ensuring all documentation and 
procedures are current.

                  <greek-l>saa deg.SENATE POST OFFICE

    The Senate Post Office continues to be a good steward of taxpayers' 
dollars as it continues to elevate performance. Productivity increased 
in unprecedented levels, exemplified by processing the second-highest 
volume of mail since 2000, surpassed only by 2009. For the convenience 
of our retail customers, the Senate Post Office began accepting credit 
and debit cards in February 2011. Our customers have praised this 
service upgrade and overall retail sales exceeded $946,000.
    Mail remains a key medium for constituents to communicate with 
Senators and their staff. During fiscal year 2011, the total volume of 
mail addressed to the Senate's Washington, DC offices was significant. 
The Senate Post Office received, tested, and delivered 18,432,995 safe 
items to Senate offices, including 11,703,600 pieces of U.S. Postal 
Service (USPS) mail; 6,729,395 pieces of internal mail routed within 
the Senate and to/from other government agencies; 72,108 packages; and 
302,122 courier items. Mail received by the Senate has increased 
substantially over the past 3 years as compared to the nationwide trend 
showing USPS mail volumes declining.
    All mail and packages addressed to the Senate's DC offices are 
tested and delivered by Senate Post Office employees. During fiscal 
year 2011, highly trained Senate Post Office off-site mail staff 
intercepted 383 suspicious pieces of mail that were addressed to 
Senators with the intent to disrupt Senate business. All suspicious 
items were reported to USCP and investigated.
    Senate Post Office management has also worked with the Committee on 
Appropriations and the Committee on Rules and Administration to build 
and operate one of the best facilities within the Government to process 
time-sensitive documents delivered to the Senate. The Congressional 
Acceptance Site ensures all same-day documents are xrayed, opened, 
tested, and are safe for delivery to Senate offices. During fiscal year 
2011, more than 300,000 items were successfully tested with zero safety 
incidents. Working in conjunction with the USCP, the Senate Post Office 
was able to upgrade xray technology and redesign monitoring stations to 
improve the flow of mail intake.
    The Senate's method for processing mail has become the model for 
other Government agencies.
    The Senate Post Office has demonstrated its procedures and 
showcased its facilities for some of the Nation's allies, as well as 
other government agencies, including the Department of Defense, 
Department of Homeland Security, FBI, and the Secret Service. 
Organizations that know the most about mail safety cite our highly 
trained staff and the Senate mail facilities as among the most 
efficient and secure in existence.
    Additionally, Senate Post Office staff worked collaboratively with 
its scientific subject matter experts to introduce the first device 
designed to provide Senate staff who work in State offices with a level 
of protection when handling mail. The scientific subject matter experts 
believe that the Postal Sentry, if used properly, provides the best 
level of protection to State offices and their staff should they 
receive mail containing a potentially harmful substance. The Senate 
Postmaster has requested that all Senate State office staff utilize the 
Postal Sentry mail processing system whenever mail is opened in their 
offices. All newly elected Senators' State offices have been equipped 
with the Postal Sentry and many other Senators have opted for the 
device as well. Currently, 268 State offices have the Postal Sentry, an 
increase of 30 units since 2010.
    The Senate Post Office initiated a recycling program of the Tyvek 
suits utilized by Post Office Mail Specialists when testing the mail. 
To date more than 4,000 pounds of Tyvek suits have been successfully 
recycled.

                  <greek-l>saa deg.CAPITOL FACILITIES

    Capitol facilities serves the Senate community by providing a clean 
and professional work environment through its Environmental Services 
branch. This branch cleans Capitol spaces, moves Capitol furniture, and 
provides special event setups in the Capitol--including 10 event spaces 
in the CVC Senate expansion space among other service requests. To meet 
cyclical customer demands during peak event setups and furniture moves, 
Capitol facilities ensures labor cost efficiency by supplementing the 
full-time workforce with contracted labor in place of additional FTEs. 
This resulted in a third-year cost savings of $150,000.
    During fiscal year 2011, Capitol facilities completed 3,532 special 
event setups in the Capitol and CVC Senate expansion space. Service 
requests from Capitol offices for moving furniture and supplies totaled 
4,735, an increase of nearly 3 percent more than fiscal year 2010. 
Staff also completed 520 service calls to Capitol offices for minor 
repairs, furniture touch-ups, and lock changes by the Cabinet Shop, an 
18-percent increase more than fiscal year 2010.
    The Furnishings branch provides framing services to all Senators 
and committees. Demand for framing services increased by nearly 14 
percent more than fiscal year 2010 with a total of 4,031 orders 
completed. The branch also provides custom cabinets and other high-
quality furniture, carpeting and draperies to Capitol offices. During 
fiscal year 2011, the Cabinet Shop designed, built, and installed 165 
pieces of furniture including cabinets and a work station in the highly 
visible area outside the Senate Lobby near the Clay painting.
    Capitol facilities, with the assistance of the Senate Curator, 
Senate Historian and other individuals responsible for the appearance 
of the Capitol public spaces, was able to produce a set of furnishing 
standards to ensure a cohesive appearance of furniture built for 
Capitol public spaces in the future. These standards have been approved 
by the Committee on Rules and Administration and are being used for 
other projects. To support SAA ``green'' initiatives, Capitol 
facilities implemented a recycling program for sawdust generated by the 
Cabinet Shop. Sawdust is now converted into compostable material for 
the U.S. Botanic Garden.

                  <greek-l>saa deg.CAPITOL OPERATIONS

Senate Appointment Desks
    Personnel staffing our five Senate Appointment Desks collectively 
processed 194,776 visitors during 2011. The total number of guest 
badges issued was the second highest in any year since the appointment 
desks were created more than 26 years ago. Our appointment desk system 
enables visitors to the Capitol to be processed in an efficient, safe 
and customer-friendly manner.
    Capitol Appointment Desk staff alone processed 40,094 guests 
through the North Door in 2011, up more than 7 percent from the 37,577 
guests in 2010. Another 57,499 visitors entered the Capitol through the 
CVC with its state-of-the-art security features and accommodations. 
Processing visitors through the CVC Appointment Desks has improved 
safety, reduced wait time for official business visitors entering the 
Capitol through the North Door, improved visitor flow, and reduced 
congestion within the Capitol proper.
    Assisting guests with getting to the Capitol and CVC from the 
Senate office buildings is an important role of the Senate Appointment 
Desks. In 2011, 88,053 guests entered the Capitol via the Russell 
Appointment Desk, including 69,914 who were destined for the CVC. This 
represented the most badges issued by personnel at the Russell 
Appointment Desk in its history. Another 13,804 visitors entered 
through the Hart Appointment Desk. Begun as a pilot project in May 
2010, the Hart desk was made permanent in 2011. We have worked 
collaboratively with the Senate Committee on Rules and Administration, 
USCP, and the AOC to design a secure and welcoming process for staff 
who escort Senate guests to the Capitol from the Hart building. This 
desk is now contributing to the safe and efficient processing of 
visitors from the Senate office buildings.

                      <greek-l>saa deg.DOORKEEPERS

Facilitating the Needs of the Senate
    Our Doorkeepers play an important role in supporting the Senate. 
Doorkeepers provide access to those with Senate floor privileges and 
enforce the rules of the Senate while facilitating the needs of 
Senators, Senate floor staff, and Pages. They also assist the tens of 
thousands of people who visit the Senate Gallery each year. Demands on 
our Doorkeepers, and expectations for excellence, have increased in 
recent years. From 2007 through 2011, the Senate has been in session an 
average of 178 days. This represents a 19-percent increase from the 150 
average days the Senate was in session from 1996 through 2006.
    Doorkeepers train and regularly exercise procedures for performing 
their duties outside the Senate Chamber. As a result, when the Capitol 
was evacuated due to an earthquake last summer, our team stood ready to 
support the historic offsite pro forma session that took place that day 
in the Postal Square building.
    Doorkeepers provide exceptional support for a number of special 
events attended by Senators, their families, and special guests. In 
2011, these events included the swearing in of Senators elected for the 
112th Congress, the reenactments that followed in the Old Senate 
Chamber, and the movement and seating of Senators during the 2011 State 
of the Union Address and three Joint Sessions of Congress conducted in 
the House of Representatives. Congressional tributes and Congressional 
Gold Medal ceremonies also require the services of Doorkeepers who 
assisted with professionalism and poise at these historic events which 
included the 50th Anniversary of the Inaugural Address of President 
John F. Kennedy, the September 11th Congressional Remembrance Ceremony, 
the Apollo 11/John Glenn Congressional Gold Medal Ceremony, and the 
Japanese-American World War II Congressional Gold Medal ceremony.

Improving the Senate Gallery Visitor Experience
    For many people who visit the Capitol, sitting in the Senate 
Gallery is a highlight. Doorkeepers ensure their experiences are 
memorable and safe. Last year, Doorkeepers assisted 211,004 visitors in 
viewing the Senate Chamber both when the Senate was in session and when 
it was in recess. Reopening the Gallery during scheduled recesses has 
provided thousands of people with the opportunity to take in the beauty 
of the Chamber and see where the ``world's greatest deliberative body'' 
conducts its business. The increased use of pro forma sessions in 
recent years has also provided our Doorkeepers with the opportunity to 
educate visitors about the practice and purpose of this procedure.
    Doorkeepers routinely collaborate with USCP and CVC representatives 
at working group meetings and information sharing sessions with Senate 
office staff in an effort to provide the best possible experience to 
our visitors. As part of that effort, Doorkeepers have become 
increasingly skilled at welcoming visitors to the Capitol and educating 
them on the history of the Senate Chamber. The visitors' experience has 
improved over the past year as a result of continued training for the 
Doorkeeper staff and the development of handout materials. The feedback 
that we have received from Senate Gallery visitors has been 
consistently positive. Senate Gallery visitors regularly comment on our 
Doorkeepers' ability to process groups in an efficient, friendly, and 
helpful manner.

                <greek-l>saa deg.SENATE RECORDING STUDIO

Expanded Broadcast Capability
    The Senate Recording Studio had another busy and productive year in 
2011. Staff produced a total of 1,330 television shows for Senators, a 
25-percent increase from the year before. Radio productions increased 
as well, from 1,074 in 2010 to 1,108 in 2011. Additionally, last year, 
we provided 1,102 hours of gavel-to-gavel coverage of Senate floor 
proceedings and broadcast coverage of 845 Senate committee hearings. 
Recording Studio staff successfully tested, installed, and commissioned 
eight new high-definition cameras on the Senate floor which replaced 
the first generation high-definition cameras that were installed more 
than a decade ago. In an era of rapidly changing technology, the 
Recording Studio strives to stay abreast of the latest solutions that 
will allow the Senate to stay accessible to the public and enable 
Senators to communicate with their constituents across the country.

Noteworthy Efforts and Groundbreaking Firsts
    Support of major congressional events is another important role for 
the Recording Studio. This past year, our Recording Studio provided 
full coverage of the Apollo 11/John Glenn Congressional Gold Medal 
ceremony and transmitted the coverage to the National Aeronautics and 
Space Administration (NASA) to air on NASA TV. Similarly, coverage of 
the Japanese-American WWII Veterans Gold Medal ceremony was shared with 
the Department of Defense for airing on the Pentagon Channel, as well 
as to the CVC overflow rooms (Congressional Auditorium, North and South 
Orientation Theaters), allowing more than 1,000 guests to view the 
ceremony. These collaborative efforts highlight the important work of 
the Recording Studio beyond coverage of Senate floor business.
    The Senate Recording Studio demonstrated its flexibility, 
commitment, and expertise on the afternoon of August 23, 2011, when an 
earthquake forced the evacuation of the Capitol complex just 30 minutes 
before a scheduled pro forma session in the Chamber. Recording Studio 
staff quickly assembled at the Postal Square building and were ready to 
capture the extraordinary session when it was gaveled in a short time 
later. Studio staff ensured the continuity of the public's access to 
witness the Senate conduct its business, despite the unique and 
challenging circumstances.
    In 2011, the Recording Studio began providing support for the live 
streaming of the Senate floor, on www.senate.gov. Studio staff played a 
vital role in upfront planning, technical specifications, and 
installing, testing, and maintaining equipment in the Recording Studio. 
They worked closely with the SAA CIO, Senate Committee on Rules and 
Administration, and the contractor to make sure this innovative service 
went online smoothly and on time. Now, anyone with access to a computer 
can witness the Senate at work with the click of a mouse.

Reducing Costs by Leveraging Technology
    The Committee Hearing Room Upgrade Project, which began in 2003, 
continued through 2011. This project provides the Senate community with 
greater flexibility and audio/visual capability for committee hearings. 
State-of-the-art technology being installed includes digital signal 
processing audio systems and broadcast-quality robotic camera systems, 
improved speech intelligibility, and software-based systems that are 
configured based on individual committee needs. This project is 
scheduled for completion in June of this year.
    In conjunction with the Committee Hearing Room Upgrade Project, the 
Recording Studio installed technologies to enhance our ability to 
provide broadcast coverage of more hearings simultaneously without 
having to add staff. As a result of these efficiencies, staff has been 
cross-trained in several areas of the Recording Studio's operation in 
an effort to maximize the talents of each individual and do more 
without adding staff.

                    <greek-l>saa deg.MEDIA GALLERIES

    The Senate Media Galleries comprise the Senate Daily Press Gallery, 
the Senate Periodical Press Gallery, the Press Photographers' Gallery, 
and the Senate Radio and Television Gallery. The unique structure of 
the four Media Galleries requires them to work closely with their 
respective Standing and Executive Correspondents' Committees, SAA, 
USCP, and the Senate Committee on Rules and Administration in order to 
facilitate media arrangements and credentials for the more than 7,000 
members of the media who cover Senators, Senate committees, and related 
media events on Capitol Hill.
    The growth of 24-hour news outlets and Web sites, and the explosion 
of social media, has made the demand for news constant. As a result, 
the Congress is being covered more vigorously and in greater depth than 
ever before. Given this new dynamic, the staff of the Media Galleries 
has worked hard to accommodate the ever-changing technology environment 
that shapes how the news media do their job and how Americans get their 
news. For example, the four Media Galleries worked with the office of 
the SAA CIO to upgrade the technical infrastructure, including 
incorporating Wi-Fi in all four galleries and across the Senate campus. 
This wireless system is secure, and can be accessed only through a log-
in script. Committee press secretaries, in particular, appreciate that 
the wireless system aids in the press coverage of their hearings. In 
addition, the credentialing process has been enhanced, taking into 
account recent technological advances in the media industry and the 
security needs of the Capitol.

Senate Daily Press Gallery
    Our Daily Press Gallery staff provides the growing ranks of 
reporters with background information on legislation on a daily basis. 
Chief among their responsibilities is assisting Senators and staff in 
making information available to the public and generally assisting the 
press dedicated to covering the Congress. Our Daily Press Gallery staff 
monitors Senate floor activities and schedule changes, prepares for big 
events and ceremonies, and researches and assesses the flood of new 
credential applicants in conjunction with the Standing Committee of 
Correspondents. Any given day, the Daily Gallery staff will monitor and 
assist with access on the Capitol's second floor and other locations 
where news is breaking, facilitate coverage of major hearings, and 
answer numerous press inquiries on legislation, floor action, and 
parliamentary procedure from media and Senate staff.
    Reaccreditation of Gallery members occurs every year, and in 2011 
approximately 1,800 reporters were credentialed for the Daily Press 
Gallery alone. As we head into a Presidential election year, the 
Gallery is gearing up to credential reporters for the Democratic and 
Republican national conventions. This past year, staff conducted site 
visits to each city where the respective conventions will be held. 
Gallery staff must have intimate knowledge of the locale and the 
positions their members will have to cover the events. Planning for the 
2013 Inaugural ceremonies, which draws more interest and requests for 
credentials than in a non-Presidential election year, has also begun.

Senate Periodical Press Gallery
    The Senate Periodical Press staff focuses much of its work on 
supporting media arrangements and logistics for Senate committee 
hearings. In 2011, Gallery staff worked with new committee and 
Senators' press secretaries to familiarize them with the Gallery's 
functions at committee hearings. Regular collaboration allows various 
Senate committees to set up media arrangements for a number of widely-
viewed hearings, including confirmation hearings for all Presidential 
nominations, Senate budget consideration, and Senate Committee on 
Appropriations events. In addition to hearings, Senate Periodical Press 
Gallery staff also works to monitor press conferences, stakeouts, 
Rotunda events and various other media events in the Capitol and Senate 
office buildings throughout the year.
    The Periodical Press Gallery staff maintains a daily Senate floor 
log on its Web site, which has become a valuable resource to both 
Gallery members and Senate staff. The log tracks legislative activity, 
votes, and schedule updates in order to assist reporters covering the 
Senate and staff monitoring floor activity. In the past 2 years, the 
Gallery's Web site has attracted nearly 140,000 page views from more 
than 53,000 unique visitors. Traffic to the Web site continues to grow, 
with an all-time high of 16,000 page views in January 2012.
    The Senate Periodical Press Gallery handles press accreditation for 
the National Presidential Nominating Conventions. This is a year-long 
process that involves logistical planning and coordination with the 
Executive Committee of Periodical Correspondents and the Democratic and 
Republican Convention Committees. Immediately following the 
conventions, the Senate Periodical Press Gallery manages press 
accreditation for the Presidential Inaugural Ceremonies.
    Coordination between the Executive Committee of Periodical 
Correspondents, Gallery staff, Senate Committee on Rules and 
Administration staff, and Senate Sergeant at Arms staff has already 
begun.

Press Photographers Gallery
    The primary role of the Press Photographers Gallery is to 
credential photographers and to assist at news events at the Senate. 
Gallery staff also has the unique responsibility of assisting at large 
news events and hearings in the House of Representatives. The demand 
for news images has increased dramatically in recent years, as Web-
based publications have expanded and social media has gained in 
popularity. Today, deadlines for images are immediate, as organizations 
and publications strive to have the latest pictures available for 
online publications. These radical changes in how events are captured 
have increased the number of photographers covering Capitol Hill on a 
daily basis. Ten years ago, a ``big'' event might attract 10 to 12 
photographers. Today, it is standard to have 10 photographers at a 
routine event while a popular hearing will draw between 20 and 30 
photographers, and a large event, such as the State of the Union 
Address, can attract more than 50 photographers.
    The Press Photographers Gallery was involved with a number of 
events in 2011 including the State of the Union Address; a portrait 
unveiling ceremony for Senator Frist in the Old Senate Chamber; three 
Joint Sessions of the Congress with Australian Prime Minister Julia 
Gillard, Israeli Prime Minister Benjamin Netanyahu, and the President 
of the Republic of Korea, Lee Myung-bak; debt ceiling meetings 
involving Vice President Biden, as well as numerous hearings in both 
the House and Senate on the subject; and two Congressional Gold Medal 
Ceremonies in Emancipation Hall.

Senate Radio and Television Gallery
    The staff of the Radio and Television Gallery works closely with 
Senate staff and more than 3,600 credentialed members of the electronic 
media to facilitate coverage of Senate news and events in and around 
the Capitol. Senate staff relies on Radio and Television Gallery 
personnel for information on legislative business and press conference 
details in the Gallery's state-of-the-art studio.
    In an effort to address new requirements for electronic media 
coverage of Senate events, improvements were made in the technical 
infrastructure of Senate committee hearing rooms and other news event 
locations throughout the Senate campus. For example, in a collaborative 
effort with the Senate Committee on Rules and Administration, Gallery 
staff oversaw the installation of fiber optic cable in 18 Senate 
committee rooms. Several meeting rooms in the Capitol and the Senate 
wing of the CVC were also outfitted with fiber optic cable. This 
project allows reporters and Senate staff ease and flexibility with 
transmitting information during meetings, hearings, and media events.
    In 2011, Gallery staff, along with the staff of the Senate 
Committee on Rules and Administration, AOC, and media representatives, 
finalized installation of fiber connectivity in the Russell Rotunda 
media area. The scope of the project not only encompassed the 
installation of new fiber optic cable but also the upgrading of the 
rotunda's electrical infrastructure. The Russell Rotunda media area is 
used daily by Senators for conducting interviews and has become a 
favored interview location for Senators following the State of the 
Union Address and other major events.
    The Radio and Television Gallery was given an opportunity to 
demonstrate its technical prowess and organizational acumen in 2011, 
when on July 27, Brian Williams and several NBC News camera crews were 
granted unprecedented access to the Capitol to produce a special report 
entitled, ``Taking the Hill: Inside Congress''. Working with the 
Committee on Rules and Administration, Radio and TV Gallery staff 
organized the placement of cameras throughout the Senate campus and 
provided the necessary oversight with respect to broadcast coverage 
rules. Along with interviewing Members, NBC's crews chronicled a ``day-
in-the-life'' of Senate staff while they performed their essential 
services in supporting Capitol operations.

        <greek-l>saa deg.SENATE OFFICE OF EDUCATION AND TRAINING

    The Senate Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, DC and the 
States. There are two branches within the office:
  --the Education and Training branch; and
  --the Health Promotion branch.
    The Education and Training branch provides training opportunities 
for all Senate staff in areas such as management and leadership 
development; human resources management; legislative and staff 
information; new staff and intern orientation; and training support for 
approved software and equipment used in Washington, DC, and State 
offices. This branch also coordinates and provides major training 
events for State and DC staff.
    Training and education are provided through instructor-led classes; 
one-on-one coaching sessions; specialized vendor-provided training; 
Internet and computer-based training; webinars; video teleconferencing; 
informal training and support services; documentation, job aides; and 
quickcards.
    The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans blood drives 
throughout the year.

Capitol Hill Training
    The Office of Education and Training offered 1,058 classes and 
events in 2011, drawing more than 12,000 participants. This office's 
registration desk handled more than 25,000 email and phone requests for 
training and documentation.
    The above total includes 160 customized training sessions for 2,667 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators to conflict resolution and organizational 
development. We provided individual consultation on Web site 
development and office systems training. We provided specialized 
training for many of the newly elected Senators' offices.
    The Senate's Intern Program is also a focus of the office. We 
provide training for intern coordinators as well as ten orientation and 
training sessions for approximately 1,225 interns.
    Annually, we provide a Senate Services Expo for Senate office 
staff. This year we had 36 presenters from our office as well as the 
offices of the Secretary of the Senate, AOC, USCP, and LOC providing an 
overview of their services to 260 staff. This is part of the 
orientation for new staff and the aides to the Senators-elect. During 
the first quarter of this year, we held eight orientation sessions for 
chiefs of staff and administrative directors with a total attendance of 
105.

State Office Training
    The Office of Education and Training provided 94 learning 
opportunities to State offices for which 2,625 State staff registered. 
Our office continues to offer the State Training Fair Program and video 
teleconferencing and webinars as a means to train State staff. In 2011, 
a session of a State Training Fair was attended by 40 State staff. We 
also conducted the State Directors Forum, which was attended by 42 
State administrative managers and directors, and a Constituent Services 
Forum attended by 57 State staff. We introduced a conference for 
outreach staff that was attended by 41 staff. We also provided advanced 
all-staff meeting facilitation to more than 30 offices; more than 500 
staff members attended. Additionally, the office offered 20 video 
teleconferencing classes, for which 718 State staff registered, and 
offered 22 webinars that were attended by more than 200.
    We provide sources of Internet-based training covering technical, 
professional, and language skills and an online research library of 
30,000. This allows staff in both DC and the States to take training at 
their convenience. To date, 826 DC and State office staff have 
registered and accessed 1,780 different lessons and publications using 
this training option. Education and Training also provides 64 Senate-
specific self-paced lessons that have been accessed more than 4,800 
times.

Health Promotion
    In the Health Promotion area, 2,000 staff participated in 64 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day, seminars on health-related topics, and the Annual Senate 
Health Fair. We also coordinate Weight Watchers, yoga, and Pilates 
sessions using the revolving fund for health promotion.
    We continue to develop job-specific training and resources for 
Senate staff. Currently we are developing training for Legislative 
Directors, Legislative Correspondents, Schedulers, and Chief Clerks. We 
are also developing training specifically for those who regularly 
interact with Senate floor staff.
    We will be working with the SAA technical staff to develop and 
build a new Learning Management System. This will provide Senate staff 
with a user-friendly method for finding and registering for training. 
It will become a part of our Education and Training portal which will 
provide a variety of means for staff to obtain the training they need.
    We will expand online training options for Hill and State staff. We 
are planning for additional training for security and mental well-being 
in the State offices, job-specific training and, as the need arises, 
training on floor policy and procedures.

Cost-Saving Impacts
    The Office of Education and Training reduced each of our DC-based 
State training sessions by one-half day to reduce per diem costs to the 
offices without sacrificing quality. We have added self-paced training 
modules to our catalog to allow State and Hill staff to learn at their 
own time and place. Video-conferencing and webinar training offerings 
have also been expanded.

              <greek-l>saa deg.EMPLOYEE ASSISTANCE PROGRAM

    Our Employee Assistance Program (EAP) offered a variety of services 
to pages, interns, staff, and their family members. In 2011, nearly 1 
in 20 Senate employees utilized the services of an EAP counselor; 170 
employees took a mental health on-line screening; 3,489 employees 
attended an EAP training activity; and 1,489 employees accessed 
resources for personalized information and referrals addressing 
childcare, parenting, adult care, aging, education, legal concerns, or 
financial issues.
    Early problem recognition and referral is a critical component of 
the EAP. To that end, EAP counselors work closely with Senate managers 
and supervisors. Through presentations, handouts, and individual 
consultations, the EAP supports managers and supervisors who are 
addressing challenging employee or staff issues. In 2011, EAP consulted 
with more than 175 managers or supervisors.
    An invaluable characteristic and goal of EAP services is to utilize 
outreach to effectively reach our client base. Working toward this goal 
in 2011, EAP renovated our Web site, providing a more interactive and 
user-friendly resource. These changes included confidential mental 
health screenings, an increased number of self-paced training modules, 
and greater access to mental health, management, and trauma response 
resources. In addition to refining our Web site, EAP continued to 
update materials on a wide array of mental health topics while offering 
a variety of time-sensitive and community-focused training programs, 
including video teleconferencing programs for State offices. Last year 
EAP also continued to hone, expand, and utilize the skills of the 32-
member Senate Peer Support Team through a series of presentations, 
trainings, and informational lectures.
    With regard to specific incidents in 2011, EAP responded to a 
multitude of events, including the emotional needs and concerns that 
arose from the shooting of Representative Giffords; the 10th 
anniversary of 9/11; the offices impacted by the May tornadoes; the 
offices impacted by the June floods; the deaths of employees and the 
family members of employees; and employees who requested support after 
other critical incidents.
    <greek-l>saa deg.appendix a--financial plan for fiscal year 2013

                     OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE--EXECUTIVE SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year 2013 vs. fiscal
                                                                                             year 2012
                                                    Fiscal year     Fiscal year  -------------------------------
                                                    2012 budget    2013 request                      Increase/
                                                                                      Amount         decrease
                                                                                                   (percentage)
----------------------------------------------------------------------------------------------------------------
General operations and maintenance:
    Salaries....................................         $73,000         $75,274          $2,274             3.1
    Expenses....................................          79,874          79,567           (307)            -0.4
                                                 ---------------------------------------------------------------
      Total, general operations and maintenance.         152,874         154,841           1,967             1.3
 
Mandated allowances and allotments..............          44,786          44,414           (372)            -0.8
Capital investment..............................  ..............  ..............  ..............  ..............
Nondiscretionary items..........................           6,062           6,192             130             2.1
                                                 ---------------------------------------------------------------
      Total.....................................         203,722         205,447           1,725             0.8
                                                 ===============================================================
Staffing........................................             959             957             (2)            -0.2
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2013 
budget request of $205,447,000, an increase of $1,725,000 or 0.8 
percent compared to fiscal year 2012. The salary budget request is 
$75,274,000, an increase of $2,274,000 or 3.1 percent, and the expense 
budget request is $130,173,000, a decrease of $549,000 or 0.4 percent. 
The staffing request is 957.
    We present our budget in four categories:
  --General operations and maintenance (salaries and expenses);
  --Mandated allowances and allotments;
  --Capital investment; and
  --Nondiscretionary items.
    The general operations and maintenance salaries budget request is 
$75,274,000, an increase of $2,274,000 or 3.1 percent compared to 
fiscal year 2012. The salary budget increase is due to a cost-of-living 
adjustment, merit funding, and other adjustments.
    The general operations and maintenance expenses budget request for 
existing and new services is $79,567,000, a decrease of $307,000 or 0.4 
percent compared to fiscal year 2012.
    The mandated allowances and allotments budget request is 
$44,414,000, a decrease of $372,000 or 0.8 percent compared to fiscal 
year 2012. This budget supports State office rents, $18,022,000; 
purchase of computer and office equipment, $11,504,000; voice and data 
communications for Washington, DC and State offices, $7,035,000; 
procurement and maintenance of Member office constituent services 
systems, $4,115,000; State office security enhancements, $2,147,000; 
and wireless services and equipment, $1,351,000.
    No capital investments are requested in fiscal year 2013.
    The nondiscretionary items budget request is $6,192,000, an 
increase of $130,000 or 2.1 percent compared to fiscal year 2012. The 
request funds projects that support the Secretary of the Senate:
  --contract maintenance for the Financial Management Information 
        System, $3,283,000;
  --support for the payroll system, $2,299,000; and
  --maintenance and necessary enhancements to the Legislative 
        Information System, $610,000.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF
    Senator Nelson. Chief Morse.
    Chief Morse. Chairman Nelson, Ranking Member Hoeven, I am 
honored to be here today, and I appreciate the opportunity to 
present the United States Capitol Police (USCP) budget request 
for fiscal year 2013. I also ask that my written testimony be 
entered into the record.
    Senator Nelson. It will be.
    Chief Morse. First, I would like to thank the subcommittee 
for its sustained and unwavering support for the men and women 
of the USCP. You and your staffs have continued to generously 
support both our mission as well as our personnel.
    Due in large part to your support and the support of the 
Capitol Police Board, the department continues to successfully 
execute our mission with a strong operational presence and 
under established business practices, controls, and 
efficiencies.
    Our fiscal year 2013 budget request provides for those 
critical mission and mission support requirements necessary for 
the department to address the security of the Congress, so that 
it may conduct its constitutional responsibilities in an open 
and safe manner without disruption from crime or terrorism.
    Our mission-focused request is grounded in USCP strategic 
goals that describe our mission and help us frame our budget 
planning: assessing the threat to the Capitol community; taking 
proactive measures to mitigate the threat so as to prevent 
disruption to the legislative process, responding in the event 
of a disruption so the Congress can continue to operate; and 
supporting USCP missions through constructive internal business 
processes and controls that foster effective and efficient 
mission delivery.
    This budget is strong in support of those goals with modest 
increases in initiatives to address identified risks and 
threats. Yet it is flexible enough to achieve and maintain 
solid mission-critical results with efficient use of the 
resources provided to the department.
    In addition, it contains requests for a few new initiatives 
that provide additional security for the Capitol. Finally, 
there is an emphasis in this request to ensure the necessary 
level of training for the department staff in 2013, which has 
been deferred in previous fiscal years.
    The department's fiscal year 2013 request totals $374 
million and represents an overall increase of 10 percent, or 
$34 million more than the fiscal year 2012 enacted funding 
level of $340 million.
    This request includes salary funding to support 1,775 sworn 
and 370 civilian employees, as well as overtime funding to 
support mission requirements that exceed the utility provided 
by our funded personnel to include the 2013 Presidential 
Inauguration.
    The second area of detail that I wish to provide today is 
an overall net increase in our requested general expense 
budget. It includes hiring, outfitting, and training new sworn 
personnel; supplies and equipment; life-cycle replacement for 
critical systems and assets; and, management systems.
    While we are requesting an overall increase more than the 
fiscal year 2012 funding levels, a portion of this general 
expense funding increase is related to new initiatives totaling 
$4.9 million.
    Additionally, we are requesting $800,000 in general expense 
funding to support security and law enforcement activities 
associated with the 2013 Presidential Inauguration.
    The department continues to use management and budget 
planning methodology, which we call force development process. 
It provides for a transparent decisionmaking process, including 
reviews and approvals by an investment review board made up of 
key agency management, and provides a structure that is 
results-driven and based on meeting operational needs.
    In addition, in order to ensure the accuracy of our budget 
request, the fiscal year 2013 budget went through multiple 
layers of review and validation, and is traceable to supporting 
documentation for each budget element.
    I'm pleased to report that we recently received an 
unqualified or clean opinion on our fiscal year 2011 financial 
statements.
    In addition, my staff and I have worked with the Office of 
Inspector General over the past 5 years to close audit 
recommendations to improve our programs and operations. We had 
189 recommendations. We have 38 remaining, and we closed 27 
just in the past 6 months.
    Finally, operationally for this fiscal year, the department 
has screened nearly 3 million visitors to the Capitol complex. 
It has effected more than 300 arrests, conducted more than 
54,000 K-9 sweeps, and screened more than 13,000 vehicles. In 
fiscal year 2011, the department screened more than 10 million 
visitors, effected 900 arrests, and conducted more than 160,000 
K-9 sweeps.
    These are just a few examples of the many operational 
elements that are conducted daily to ensure the success of the 
department's core mission. I want to thank all the men and 
women of the USCP for their dedicated service.
    We are well aware and we understand the economic climate 
that affect our country, the legislative branch, and the entire 
Federal Government. I want to assure you that the USCP will 
successfully adapt our resources and continue to safeguard the 
congressional community with the resources available.

                           PREPARED STATEMENT

    Again, I want to express my appreciation for allowing me to 
appear today, and I will be glad to answer any questions that 
you have at this time.
    [The statement follows:]

              Prepared Statement of Phillip D. Morse, Sr.

    Chairman Nelson, Ranking Member Hoeven, and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police (USCP) budget 
request for fiscal year 2013. I am joined here today by Assistant Chief 
Thomas Reynolds, who was recently promoted to lead our operational 
elements of the USCP, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some of the members of my executive 
management team.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support for the men and women of the USCP. You and your 
staffs have continued to generously support both our mission as well as 
our personnel--not just in a monetary way, but also in private and 
public recognition of our role and responsibilities. The security and 
protection of this great institution is not only our job, but we 
consider it a sacred duty and privilege to serve you, the congressional 
staff, and the millions of visitors from every corner of the world who 
come to the U.S. Capitol complex every year. Due in large part to your 
support and that of the Capitol Police Board, the USCP continues to 
successfully execute our mission with a strong operational presence and 
under established business practices, controls and efficiencies.
    Specifically, I would like to express our appreciation to the 
subcommittee and the Congress for providing the necessary salaries and 
general expenses funding for fiscal year 2012 to support our personnel 
and operations, while absorbing several activities within our base 
funding, such as the conventions and pre-Presidential Inauguration 
planning.
    As I begin my testimony, I would like to emphasize that my 
management team and I are keenly aware of the economic situation our 
Nation continues to face. I understand the responsibility I have to 
submit a budget request that is not only accurate, but that is 
reasonable, based on only critical requirements necessary to mitigate 
and address threats and risks. Our fiscal year 2013 budget request 
provides for those critical mission and mission-support requirements 
necessary for USCP to address the security of the Congress, so that it 
may conduct its constitutional responsibilities in an open and safe 
manner without disruption from crime or terrorism.
    To do so, USCP utilized our Force Development Business Process, 
which develops our budget based on analysis of threats and risks, while 
involving multiple levels of the organization in the process, to 
include coordination and vetting of our budget with the Capitol Police 
Board.
    Our mission-focused request is grounded in the USCP strategic goals 
that describe our mission and frame our budget planning:
  --assessing the threat to the Capitol community;
  --taking proactive measures to mitigate the threat so as to prevent 
        disruption to the legislative process;
  --responding in the event of a disruption so that the Congress can 
        continue to operate; and
  --supporting the USCP's mission through constructive internal 
        business processes and controls that foster effective and 
        efficient mission delivery.
    This budget is strong in support of those goals--with modest 
increases and initiatives to address identified risks and threats--yet 
it is flexible enough to achieve and maintain solid mission-critical 
results with efficient use of the resources provided to USCP.
    The proposed fiscal year 2013 budget contains a base budget that 
will address and mitigate identified security challenges that may 
potentially affect the safety of the Capitol complex and our ability to 
keep up with the changing security environment and threat level. In 
addition, it contains requests for a few new initiatives that provide 
additional security for the Capitol. Finally, there is an emphasis in 
this request to ensure the necessary level of training for USCP's staff 
in fiscal year 2013.
    Over previous fiscal years, USCP has greatly reduced its training 
activities in order to meet other mission requirements within available 
funding. Training has been limited to only those areas that are 
critical and mandatory as required by law, rule, or regulation; or 
necessary to meet core mission activities. This budget includes the 
overtime funding that specifically relates to the training needs of 
sworn staff to give them the time needed to be offline and receive 
training in a number of key areas. In addition, training costs are 
being requested for what USCP has deemed as mandatory or mission-
essential training. This includes resources to develop a qualified pool 
of eligible succession sworn and civilian candidates. With this 
emphasis, USCP will ensure that the workforce is prepared to address 
our mission using current and emerging methods, as well as be well 
suited to address leadership needs into the future.
    We realize that USCP's funding levels have grown in recent years, 
as opposed to other legislative branch entities, due to requirements 
set forth to support an expanding mission load, such as the merger with 
the Library of Congress (LOC) police to include absorbing the 
jurisdiction over LOC buildings and grounds, and the opening of the 
Capitol Visitor Center. Both of these activities resulted in additional 
protection responsibilities for the security operations of this 
critical addition to the Capitol. In the upcoming year, we will also be 
gaining an additional protective responsibility with the opening of the 
Federal Office Building 8 (FOB8) scheduled to reopen in fiscal year 
2013. An additional fiscal dynamic we are managing is our 
implementation of a complex Radio Modernization Project. Further, USCP 
is managing the need to implement critical life-cycle replacement for 
key security and technical systems within limited available funding. We 
realize that the subcommittee has limited resources with which to 
support all legislative branch entities and will continue to prudently 
request and execute the resources needed to meet this challenge.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2013 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and USCP.
    USCP's fiscal year 2013 request totals $374 million and represents 
an overall increase of 10 percent, or $34 million more than the fiscal 
year 2012 enacted funding level of $340 million.
    The first subject area for which I would like to provide more 
detail is in the area of personnel salaries and overtime.
    USCP's fiscal year 2013 personnel request reflects our continuous 
efforts at all levels of management to effectively manage our existing 
resources to achieve the best possible balance of staff-to-mission 
requirements. We are constantly analyzing our workforce to align job 
functions, assignments, workload, risk management, and organizational 
readiness along with the ever-changing threat assessments and mandatory 
mission requirements of a dynamic congressional community.
    To operate within our current budget, we are currently carrying out 
our mission requirements with 1,775 of our 1,800 sworn positions and 
370 of our authorized 443 civilian positions, and with only limited 
training. Much of our overall increase allows the USCP to operate at 
our current staffing levels.
    With regard to our funding request related to personnel, we are 
requesting an overall increase of 9 percent more than the fiscal year 
2012 enacted funding levels, which include funding for two new civilian 
positions for the Office of Inspector General, as well as new sworn 
positions to address operational requirements.
    USCP's current sworn strength does not entirely provide the 
necessary resources to meet all our mission requirements within the 
number of work-hours in a year that each officer is available to 
perform work. This ``utility'' number is used to determine overall 
staffing requirements, and balances the utility of available staff with 
annual salary and overtime funding along with known mission 
requirements such as postcoverage, projected unscheduled events such as 
demonstrations, late sessions, holiday concerts, et cetera, and 
unfunded requirements that occur after the budget is enacted, such as 
unforeseen critical emergency situations.
    Thus, mission requirements in excess of available personnel must be 
addressed through the use of overtime, identification of efficiencies 
such as postrealignment and/or reductions, technology, and cutbacks 
within the utility, such as reductions in the number of hours provided 
for training. To address some of these mission drivers, we continue to 
work closely with the Capitol Police Board and our oversight committees 
to review such options to offset mission requirements where possible, 
such as closing lower-priority doors, which will reduce the total hours 
at posts and overtime costs needed to perform those activities.
    Over the last 2 years, we have also been very strategic in the 
hiring of civilian positions to best align our resources to our needs. 
In particular, vacancies in the civilian ranks are reviewed biweekly to 
prioritize requirements for backfilling operational and mission-support 
vacancies. Through this process, USCP continually monitors and 
justifies the needs of every civilian position as it becomes available. 
With this comes increased responsibility of onboard staff and a greater 
need to invest in training to gain and maintain skills needed to 
perform these duties.
    With that in mind, our requested fiscal year 2013 personnel costs 
support the current funded staffing levels of 2,145 positions, as well 
as a request for 19 sworn and civilian positions previously mentioned. 
This will result in an increase from 2,145 to 2,164, which is still 
less than our authorized levels.
    At current staffing levels, USCP's fiscal year 2013 basic and 
Inauguration overtime projection of approximately $36.5 million 
reflects an increase more than the $33.4 million that was provided for 
basic and convention overtime in fiscal year 2012. This increase 
primarily is a result of operating at fewer officers than our current 
authorized strength.
    Other requested increases to overtime include an additional $1.5 
million in funding to take staff offline for additional training 
requirements, and $400,000 for the overtime needed for the FOB8 initial 
operations until new officers are trained and deployed. These items 
bring the total fiscal year 2013 overtime request to $38.4 million 
which is an increase of $3.3 million more than the total fiscal year 
2012 overtime level of $35.1 million.
    The second area of detail that I wish to provide today is an 
overall net increase in our requested general expenses budget, which 
includes hiring, outfitting, and training of new sworn personnel; 
supplies and equipment; life-cycle replacement for critical systems and 
assets; and management systems; et cetera. While we are requesting an 
overall increase more than the fiscal year 2012 funding levels, much of 
the increase request is for new initiatives to address identified 
threats and risks, and for support of the 2013 Presidential 
Inauguration.
    A portion of this general expense funding increase is related to 
new initiatives totaling $4.9 million. Additionally, we are requesting 
$800,000 in general expense funding to support security and law 
enforcement activities associated with the 2013 Presidential 
Inauguration.
    With your support, USCP continues to successfully perform our 
operational mission and has achieved several key accomplishments over 
the last year that have resulted in greater efficiencies for USCP, 
which include addressing several administrative challenges and 
improving corresponding business practices.
    Operationally, so far this fiscal year, USCP has screened more than 
3 million visitors to the Capitol complex; affected more than 300 
arrests; conducted more than 54,000 K-9 sweeps; and screened more than 
13,000 vehicles. In fiscal year 2011, USCP screened more than 10 
million visitors, affected more than 900 arrests; and conducted more 
than 160,000 K-9 sweeps. These are just a few examples of the many 
operational elements that are conducted daily to ensure the success of 
USCP's core mission.
    As I mentioned briefly, USCP continues to use a management and 
budget planning methodology which we call the ``Force Development 
Process''. It provides for a transparent decisionmaking process, 
including reviews and approvals by an Investment Review Board made up 
of key agency management, and provides a structure that is results-
driven and based on meeting operational needs. We also expanded the 
process for program evaluations for selected existing programs. For the 
process that led to the fiscal year 2013 budget request, the Investment 
Review Board reviewed an additional 20 of USCP's existing programs than 
were selected in the previous fiscal year. In addition, in order to 
ensure the accuracy of our budget request, the fiscal year 2013 budget 
went through multiple layers of review and validation, and is traceable 
to supporting documentation for each budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General to address issues which have arisen and by 
providing the evidence necessary to close findings. In particular, I am 
pleased to report that we recently received an unqualified or ``clean'' 
opinion on our fiscal year 2011 financial statements. Further, we are 
working on the resolution of a number of recommendations in order to 
achieve efficiency and effectiveness of our administrative programs 
through long-term resolution of areas of concern. The long-term 
resolution of the remaining recommendations related to internal 
controls, business processes, and material weaknesses remain of the 
highest importance to our management team.
    As I mentioned in the beginning of my testimony, we are well aware 
of and understand the economic climate that affects our country, the 
legislative branch and the entire Federal Government, and I want to 
assure you that USCP will successfully adapt our resources and continue 
to safeguard the congressional community within the resources 
available.
    I appreciate the opportunity to appear before you today and would 
be glad to answer any questions you may have at this time.

    Senator Nelson. Thank you very much, Chief Morse.
    Why don't we do 5-minute questions, if that is okay, 
Senator Hoeven?
    Senator Hoeven. Sure.
    Senator Nelson. Ms. Erickson, first of all, again, I want 
to commend you for taking extraordinary steps to control costs 
and submitting such a lean budget.
    You took on the SIS Program in fiscal year 2011 at a 
funding level of $4.2 million, and you have been able to hold 
that funding to the same level in fiscal year 2012.
    Can you give us some ideas of what the impact, positive or 
negative, of holding to such a no-growth level has had on the 
implementation of the program?
    Ms. Erickson. Sure. Well, the historic cost for this 
program has been an average of 3- to 5-percent increase every 
year.
    And I just want to say, I am extremely proud of our Senate 
library staff as well as Terry's procurement staff, who have 
been tough negotiators with these online vendors that provide 
our services to the Senate.
    And the contracts that we negotiate are on a calendar year 
basis, not on a fiscal year basis, so for example, we were 
negotiating a 5-year contract with these vendors during fiscal 
year 2011 when we were in a continuing resolution, so as a 
result, the SIS program was subject to the 5-percent cuts. We 
were working with less money, and as a result, we had to cut 
two information services from the program, limiting business 
and economic resources for Senate staff.
    I think it's fair to say that we are providing core 
services right now, and I think the Senate is getting a very 
good deal.
    To give you an example, one of the services that we cut was 
charging the Senate $25 per user. The industry rate is $12,000 
per user. If your office manager now wants to purchase this 
information service for their Senate office, they will be 
charged $900 per user. So you can see that the enterprise model 
produces a good deal for the Senate.
    We expect a $27,000 shortfall in fiscal year 2013. We 
anticipate that since our funding is multiyear, the cost 
savings we achieved in the past 2 years will be able to make up 
that difference.
    But I have to say, going forward in fiscal year 2014, we 
welcome sitting down with your subcommittee, as well as the 
Rules Committee, to have a discussion about the long-term 
future of this program.
    Senator Nelson. Well, I would agree that you can make some 
adjustments to get to where you are, but going forward, it is 
going to require some discussion back as to what the real 
demands and needs are, so I appreciate that.
    On the payroll replacement project, first, you and Terry 
may want to respond. The disbursing office and the SAA 
technical support division have been implementing a new payroll 
project. How is this working? Is it working very well?
    First, Nancy.
    Ms. Erickson. Sure. Well, as you know, we're replacing a 
system that uses mainframe technology. And I was reminded 
recently by one of Terry's staff, who told me that nowadays 
when they hire people in their technology departments, they 
can't find people anymore who have training and experience in 
mainframe technology.
    It is very complex project that we are working on together, 
jointly. I believe we have gone about it in a very methodical 
manner.
    In 2008, we worked with the Sergeant at Arms office and 
Booz Allen Hamilton in identifying more than 1,000 requirements 
for our payroll system. In 2009, through a competitive bid 
process, we selected the PeopleSoft software for the system. 
And in 2010, we selected an integrator, which is basically the 
implementer who is working with us on the project.
    We've set an aggressive 18- to 24-month schedule for 
launching the new payroll system. We've said all along that 
before we can launch, the following milestones must be 
achieved. The pension piece, which is probably the most 
problematic right now, is the ability for the Disbursing Office 
to calculate individual retirement records. We have to have the 
budgeting piece in place, which allows the Disbursing Office to 
provide payroll projections to Senate offices. We need the 
successful conversion of employee work history records; 
training of Disbursing Office staff, not just the payroll 
staff, but the front office staff and the benefits staff; and 
then successful parallel testing with the current system.
    We should have a better idea of our launch schedule after 
the May user acceptance testing by the Disbursing Office staff.
    I think the project will probably end up costing the SAA, 
and Terry can speak to this, probably a little bit more money 
than they had originally anticipated.
    The vendor has indicated they need more time to work on the 
pension piece of the project. And I understand that the SAA is 
also factoring in extra contract support after we launch, 
because of the fact that they have limited staff to work on 
this.
    When we started the project, we met with our colleagues on 
the House side, who had also launched a payroll system, to get 
their lessons learned. And one of the things they told us is do 
it right, don't set premature deadlines. And I think it's fair 
to say that we all understand the high stakes with this project 
and the need to watch costs. But I also think it's important 
that we make good decisions now that won't cost us more money 
down the road.
    Mr. Gainer. Mr. Chairman, I would strongly agree with 
Nancy's remarks.
    It is a very complicated system, and our best estimate is 
that it is going to require additional funding. We are working 
with your staff and Ranking Member Hoeven's staff, to identify 
some of those funds. It will likely come from our prior year 
unobligated balances.
    Nancy hit the nail right on the head, being slow and 
methodical and getting this right will pay long dividends for 
the Senate for many years.
    Senator Nelson. Those are my questions.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I would start with Ms. Erickson, and also commend you for 
the good work you've done on the budget. Clearly, you've worked 
hard to submit a good budget, a thoughtful budget, which is not 
an easy thing to do, but you've already done a great job.
    Essentially, my questions are going to be, if we have to 
find further savings, describe how you would go about doing 
that.
    Then also the second question that I have, which kind of 
follows on, is: Are you getting any pushback now in terms of 
services, having Members say to you, we miss this service or 
miss that service, or why am I not getting it? Where are you 
getting push back?
    If we do have to find some further savings, what do you 
anticipate in terms of impacts?
    Ms. Erickson. Well, I just want to say as a South Dakotan, 
I think South Dakotans from my State, like North Dakotans and 
Nebraskans, would approve of the fact that they have been good 
stewards of our limited resources.
    And we have made tough decisions. And I want to single out 
the fact that beginning in 2010, we suspended our merit bonus 
program. So for the past 2 years, going on 3 years now, our 
staff have not received any bonuses for outstanding merit 
performance. And I have to say that has been one of the 
toughest decisions that I have had to make as an administrator, 
that coupled with the----
    Senator Hoeven. May I ask, how did that bonus system work, 
formerly?
    Ms. Erickson. Well, we have a formal evaluation process 
annually for our employees. And depending on the rating that an 
employee received, they would get--and I want to say, these 
were small bonuses, ranging anywhere from 1 to 3 percent. I 
think the highest an individual would get was 5 percent. So it 
was a very small program.
    But it was an important way to recognize people who work 
extremely hard. And like I said, that coupled with the fact 
they haven't had a cost of living adjustment (COLA) for 2 
years, I admire the fact that their positive attitudes and 
their work ethic and commitment to this institution haven't 
wavered.
    We are a small operation. We, between fiscal year 2008 and 
2011, had a $2 million operating budget that hadn't increased.
    We're down to small potatoes in the bigger scheme of 
things, but cutting newspaper subscriptions for legislative 
staff and our executive office achieved roughly $5,500 in 
savings.
    Our Office of Public Records moved a post office box from 
Alexandria to Union Station--that is where we receive our 
certificates of election and our campaign committee reports 
from candidates--saving $200.
    Our curators canceled $1,000 in magazine subscriptions. 
They trained their staff in repairing the gilded mirrors in the 
Capitol, so we wouldn't have to bring a conservator onsite to 
do those repairs.
    And in fact, the Curator's Office recently reused another 
office's discarded furniture, saving the SAA between $30,000 
and $45,000 in new furniture.
    And with respect to the SIS program, again, our staff was 
able to cut program costs the last 2 years by 1.5 percent, 
which had never happened before in the history of this program.
    I do have some concerns, like Terry, in terms of our 
ability to continue to serve the Senate. We also have 
responsibilities under the STOCK Act in putting the STOCK Act 
transactions on the Internet within 90 days and implementing 
the e-filing of financial disclosures.
    The Congressional Budget Office has estimated that those 
responsibilities will cost our office $424,000.
    Other priorities that I will likely have to postpone is a 
precedents database for our Parliamentarian's Office, which 
would be utilized by Senate staff, captioning software for 
continuity purposes, supplies for Conservation and Preservation 
Office.
    I am also concerned that this will be the first year that 
we are unable to set aside money for repairs to our historic 
furnishings and artwork in the Capitol.
    Senator Hoeven. Thank you.
    Really, that's the only question I have. I do recognize 
that you are doing a very good job within your budget, and I 
appreciate it.
    Senator Nelson. Thank you. What you have identified are the 
steps that have to be taken in order to do the work. The 
discussion on the floor of the Senate, the discussion outside 
the Beltway, is always about cutting. But the details are where 
things really begin to happen.
    It is not easy. It is hard work, and it is hard all the 
time to do it. We commend you for your efforts in that regard.
    It's easy to say, you'll find additional ways to cut, and 
perhaps so. But they will never be easy decisions to make.
    With the new STOCK Act, on the floor of the Senate, the 
discussion is never about what does it cost for all these 
additional reports. It is just assumes that somewhere, once 
they are filed, they will end up somewhere and somebody will do 
something with them and they will be available, and nobody will 
spend the time to identify in advance what the costs are for 
that.
    So it is more than an inconvenience to elected officials. 
It is a cost to the taxpayer to have this additional 
information.
    We have a couple questions.
    Terry, you requested, for salaries, it's about $2.3 million 
more than fiscal year 2012, which is a 3.1-percent increase, I 
understand about one-half of that request increase is for the 
COLA and merit funding. Could you tell us what the other $1.1 
million increase in funding for salaries would consist of?
    Mr. Gainer. Yes, Mr. Chairman. Approximately one-half of 
that increased funding will pay for additional political 
appointments or patronage positions. Last year, we budgeted 
less funding for that purpose in the hopes that we could 
convince those in charge of those positions to reduce the 
number of them. That was not very successful.
    With the workload and commitments that were made, the 
patronage positions were completely filled, and this is really 
to make up for the cost of all those.
    Senator Nelson. Excuse me, could you give me an example or 
two of what that might consist of, these positions?
    Mr. Gainer. They range from elevator operators, to some 
Post Office positions, to the largest group, the doorkeepers.
    They are all vital to our mission, even if the word 
``patronage'' sometimes takes on a negative connotation.
    We looked at whether the elevator operator system ought to 
be eliminated, and everybody could work the elevators by 
themselves like they do in so many places. But there's also a 
problem and a consequence to that, with the speed with which 
votes come up and the Members have to move. It is easy to say 
that it looks like low-hanging fruit, but it makes working 
around here more difficult when you witness the number of 
visitors we have.
    The other portion of that salary increase $540,000, is for 
increased overtime in connection with the Inauguration. We, 
like the Rules Committee and others, the police department, are 
already deep in the midst of preparing for that. So we are 
anticipating those costs.
    Senator Nelson. Another area in your relatively flat budget 
that has grown a little bit in the last couple years is the 
intelligence and protective services account. You are asking 
for a $2.6 million increase, which is about a 62-percent 
increase more than the current year. Under that account, your 
proposed funding level for State office security enhancements 
would increase by 125 percent from $950,000 to $2.1 million.
    Maybe you can help us understand more about that and why we 
would need to expect that kind of increase.
    Mr. Gainer. Yes, Mr. Chairman.
    Over the years, the usage of the funds by the offices for 
those security measures continued to drop. After the shooting 
of Congresswoman Giffords, there was a lot more attention on 
the 454 State offices. We helped force that attention by 
working with the police department, the USCP, the local police, 
the FBI, and others to review what was going on in those 
offices. More of the offices that are taking advantage of our 
security surveys and recommendations of the different tools 
that they can utilize to make their office safer. That is a 
large part of it.
    Senator Nelson. That's understandable. I think having 
accessed help in one of our offices in Nebraska, I appreciated 
it. So I understand the additional need for that.
    I have already, and I know my colleague and all of our 
colleagues agree about the very professional way in which you 
responded to the powder mail issue. Without revealing 
information that would probably be better discussed behind 
closed doors, can you give us some idea of what kind of 
increase, let's say an operation tempo increase that you may 
have internally within the office in dealing with threats to 
the Members and to the staff and to the offices?
    Mr. Gainer. Yes, Senator.
    There has been an increase. It has not been dramatic. Last 
year, at the same time we were doing the healthcare debates, we 
saw some tremendous spikes that affected what we and USCP were 
doing.
    The offices are much more sensitive now at our direction 
and urging, to be mindful of threatening calls, threatening 
emails, and threatening letters. That has increased the 
workload a bit. As I mentioned in our testimony, the amount of 
mail we are receiving in our Washington office is substantially 
higher.
    In the local offices, we had developed the Postal Sentry 
program with the approval of the Rules Committee and working 
with many of you and your staff. Initially, it was not very 
well received, and there were some complaints about it, mainly 
that it was too big, too noisy, and took up too much space. it 
might have been too noisy
    Again, after some of these recent postal scares, the 
requests for the Postal Sentry program--those have gone up--and 
we have deployed the program to all of the offices. Many of us 
visit those offices. I do not think they are all in use, and we 
are in the midst of developing a newer, smaller model that we 
hope will make the offices a bit safer.
    Senator Nelson. Thank you very much.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Gainer, again, I also want to commend you on the work 
you've done on your budget. But the same question, if we have 
to find some more savings, how would you go about doing that? 
Would you look to staff, your IT systems, your data processing, 
or even your security initiatives? What would be affected? How 
would you go about looking for more savings if required to do 
so?
    Mr. Gainer. Senator, I do not believe it will be prudent to 
scale back the security measures. That is a primary 
responsibility, and we would have to turn to other initiatives.
    Like Nancy and her staff, we have not had a cost-of-living 
increase. We factor that in as well as some merit pay or bonus-
type opportunities. Clearly, we would have to look at that and 
try to somehow balance the effect that has on the morale of the 
staff. That is the quick, easy, low-hanging fruit.
    I think we would try to help change the expectation of the 
Members and their staffs about our responsiveness with the 
services we provide. Clearly, the largest portion of our budget 
is in the IT area, and we have standards for which we respond 
to problems. Some of those responses are as quick as 60 minutes 
or 2 hours when a problem comes up on IT, and by scaling back 
those types of responses, you can save money. But that requires 
Members and staff to be a bit more patient with us.
    We can continue to defer the purchase of the equipment and 
the replacement of equipment, and we can probably get away with 
that for another year or so. By not keeping up with this 
technology, there will be negative impacts.
    I am reminded, and I think both of you having been 
Governors will respect this, of having run a State police 
agency for Governor Edgar in Illinois for some 8 years. The way 
we always seemed to save money was by not purchasing or 
replacing cars, and we drove their mileage up. Well, in the 
midst of my tenure, we suddenly had a large fleet that we could 
not drive.
    While it seems to be so sensible today, it is going to 
impact someone tomorrow. So we would work closely with you and 
your staffs to figure out where we are, but I really do think 
we are at that point now that if we fail to invest in our 
infrastructure, then we are going to be in the very position 
that Nancy was referring to before when we have mainframes and 
no one around who knows how to use them.
    Senator Hoeven. What is your feeling about the overall 
security situation today in terms of your system, both in terms 
of people, but also as far as your data-processing integrity 
and all those kinds of things in general, your sense of the 
security?
    Mr. Gainer. I think they do a great job, and Kim Winn, who 
runs that end of the operation, is involved with about 31 other 
Federal agencies in sharing information and sharing ideas. We 
feel we are very much on top of what is going on.
    I would like to put in context the type of battle we are 
fighting and the success we have. Our information security 
staff responded to an average of 33 confirmed security 
incidents each month, and we successfully resolved those. Our 
firewalls have rejected 10 million connection requests each 
month. Our anti-virus controls detected and countered nearly 
90,000 virus-related events. Our client computer-based 
firewalls detected some 23,000 exploited events. We experienced 
some 202 spear phishing attacks on our computers. We fought and 
defeated those, and referred some to the proper authorities to 
investigate.
    I think we are a model agency because over the years you 
have allowed us to invest in the technology and hire the right 
people to accomplish the mission.
    Senator Hoeven. Are there any things that you feel you 
particularly need in that area, in either cybersecurity or 
people-related security that are big expense items that you are 
looking at?
    Mr. Gainer. No, Kim Winn, our CIO, has crafted a good long-
term plan. I think we are where we want to be. There are some 
things we did not ask for in this budget. Deferring purchases 
is another interesting way that we have saved. I would have to 
collaborate more with my technologists to evaluate the 
downstream impact of deferring purchases.
    I think we are in a good position as we work with other 
Federal agencies nationwide in the prevention area.
    Senator Hoeven. All right. Thank you.
    Senator Nelson. Thank you.
    I understand that you have been working on an initiative 
for some time to issue smart ID cards. Maybe you can give us 
some idea of what the benefit of the program would be and how 
we could use it, let's say back in the State offices as well.
    Mr. Gainer. The State offices will be one of the primary 
beneficiaries, because around 200 of our 454 State offices, are 
in Federal buildings. As the Federal Government goes to a 
secure ID process, it has been getting more difficult in those 
various Federal buildings to get your State employees in and 
out.
    So I think they will be the ones who will see the benefit 
of that soon.
    Eventually with these new smart ID cards will be 
incorporated into new systems or processes, including payroll 
electronic signatures on vouchers, and electronic ordering via 
the catalogs, making them more secure. Another important 
benefit for the Members and their staff, is the ability to 
encrypt casework messages that are developed for your 
constituents in your various offices and to feed those into the 
executive branch.
    It is a cutting-edge system, that I admit we seem to have 
struggled with over the years. But our ID card processing 
department, operations under Bret Swanson, and the CIO 
organization under Kim Winn, have pledged to me that we are 
very close. By the fall, it will be in full swing in the State 
offices.

   <greek-l>USCP deg.UNITED STATES CAPITOL POLICE PRIORITIES UNDER A 
                             FUNDING FREEZE

    Senator Nelson. Chief Morse, you are requesting a 9-percent 
increase in funding for salaries and a 12-percent increase in 
funding for general expenses for fiscal year 2013. Obviously, 
we are talking about watching the growth in funding, but if you 
had to sustain a freeze as opposed to these increases, what 
would be your priorities for fiscal year 2013?
    Chief Morse. Well, I think that first I should say that we 
strive to have as lean a budget as we possibly can. And in my 
opening statement, I remarked about how we do our budgets. It 
really starts there with zero-based budgeting, a force 
development process, where we're looking at environmental 
assessment. We are building our budget around detecting, 
deterring, responding, and mitigating threats. And I think that 
having a lean budget specific to our mission starts right 
there.
    Some of the things that we have been doing with the 
resources that you have provided, we constantly are scrubbing 
programs. We have testified in previous hearings of savings 
that have come from that. We are currently working on a project 
where technology will reduce overtime. It will reduce the 
number of vehicles that we use with our truck interdiction and 
monitoring programs.
    So we continue to scrub our programs and find savings.
    The other thing that we have been doing is working with our 
partners. We work at the direction of the Capitol Police Board, 
and their assistance and support in committees of jurisdiction, 
to look at hourly changes, door closures, and things of that 
nature, to make savings where we don't disrupt the flow of 
business, but we also at the same time have some level of 
savings.
    We have also deferred, and Mr. Gainer spoke about deferring 
life-cycle replacement and things of that nature, life-cycle 
replacement. We have deferred training for our police officers. 
And although, again, we could, in fact, perhaps limp our way 
through 1 more year. If we were to do that, it's really at a 
critical time where life-cycle replacement is something we can 
no longer defer.
    And the training of our officers, we can't defer any 
longer. The degradation of their proficiencies may impact 
critical response to defending this campus. So we can continue 
to make the tough decisions. But many of the decisions we're 
making now do impact security. And that is one thing that we 
pledge that we won't do if we don't have to. And certainly, we 
can prioritize the risks. We can prioritize the necessity of 
the programs that provide a level of security. But I think that 
we have to be just cautious that we don't want to defer those 
much longer than we already have in order to stay abreast of 
the current and emerging threats that we face.
    Senator Nelson. If you're going to close any of the 
entrances, Senator Hoeven hopes you won't do it in Russell 
Senate Office Building and I don't want it done over in Hart 
Senate Office Building.
    Mr. Gainer. That leaves 98 other Senators in trouble.

                   <greek-l>USCP deg.NEW INITIATIVES

    Senator Nelson. You have got four new initiatives that you 
are talking about. Could you help us a little bit more with 
those four initiatives, and tell us how any kind of a reduction 
in the request or a freeze would affect those initiatives?
    Obviously, it would impact, but maybe you could tell us 
about the initiatives and give us some idea of what impact it 
would have.
    Chief Morse. Once again, the initiatives are derived from 
an environmental assessment or threat assessment or emerging 
threats. They're also derived from how we might better mitigate 
any the threats that may be out there that we don't see.
    Much like physical security, we want to detect the threat 
before it gets here, and so that is what a lot of our physical 
security is all about, before the threat gets to the campus and 
before it gets to the building.
    One of our threat initiatives is the threat assessment. 
This enables us to have another tool to detect threats against 
Members of Congress, Members of the United States Senate, 
before any actionable violence takes place.
    The threat assessment initiative is one that also we're 
requesting additional personnel to support, but my partners, 
the Capitol Police Board, we are looking at other options as 
well, because we have Federal partners who do the same type of 
work. So we are working with our Federal partners assisting us 
with maybe existing infrastructure and sort of economizing how 
we go about finding the threat to our Members and to our 
Government officials and to our community.
    So we are very mindful that increases are there and a part 
of these initiatives, but we are also, on the other hand, 
looking for ways to make them the most efficient using some of 
our partners.
    And let me just say, the increase of personnel related to 
the threat assessment initiative is not a growing of the police 
department but simply asking for more funding within our 
current authorized strength of 1,800, because we are working at 
1,775, currently, which is 25 personnel less than that level.
    Another initiative is related to the opening of a Federal 
Office Building 8 (FOB8) in the southwest area of the campus. 
And the security model is one that we follow throughout the 
campus. And obviously, it would follow there.
    But again, we're working with the Capitol Police Board to 
minimize the number of personnel or assets and resources that 
we need to make security happen there.
    Garage security is a campus-wide issue. It enables us to 
stop any sort of incursion very quickly through our garages. We 
have, obviously, the ability to detect that now and mitigate 
it, but this enhances that ability. And I think it's something 
that is very, very important to the security of our facilities.
    And then we have an Alternate Computer Facility, which 
houses assets and resources for our police department, our new 
radio modernization project. It supports the House and the 
Senate. Therefore, we have to ensure that the security there is 
robust and defends the facility and the assets and resources 
that we have provided there.
    In addition to that, one of the reasons that we have had to 
increase some of the security there through our assessment is 
because some of our neighbors who were leasing there have 
departed and now the building is more vulnerable to access than 
it has been in the past.
    So those are the four initiatives related to safety and 
security.
    And then some of our increases related to overtime that I 
would consider a new initiative is related to our training. And 
we have about 24,000 hours of training in what we call 
mandatory and priority training, which are liabilities, risks, 
and certifications.
    And we have absorbed that 24,000 hours, but the increase 
that we're asking for is related to the practical exercise, the 
proficiency of our officers, getting them in actual situations 
that they would see here daily, keeping them up-to-date on the 
security screening equipment that we have, the emerging threats 
that we're seeing that are being detected across the country 
that we are sharing with our partners. All this is necessary 
for our officers to stay the best in this country to defend 
this place.
    And so we're asking for funding to go beyond where we have 
been and what we have deferred. And we can't absorb the costs 
of that any further because of the increase in salaries.
    So that is where we are right now. And we will continue to 
work with your subcommittee and your staff and the Capitol 
Police Board to make this as lean as possible without any 
degradation of training for our police officers or security of 
the campus.
    Senator Nelson. Thank you, Chief. I will come back to the 
overtime in my next round.
    Senator Hoeven.
    Senator Hoeven. Unless you would like to now.
    Senator Nelson. No, go ahead.

               <greek-l>USCP deg.INAUGURATION PREPARATION

    Senator Hoeven. Chief, I appreciate very much the work that 
you do and recognize the challenges that go with it.
    As far as preparing for the Inauguration, is most of the 
cost in this fiscal year budget, 2013? Pretty much all of the 
costs are included in this budget cycle?
    Chief Morse. Yes. We have, I believe it is about $1.6 
million in overtime for moving toward the Inauguration and the 
Inauguration itself. And then there is an $800,000 cost 
associated with security equipment, screening equipment, and 
things that we can't take off-line for the Inauguration.
    But I wanted to add that, once that is purchased, the plan 
obviously is to integrate that into our life-cycle replacement. 
So that only happens every 4 years, but that is in fact what we 
do with the equipment that we purchase for the Inauguration 
itself.

               <greek-l>USCP deg.IMPACT OF A FLAT BUDGET

    Senator Hoeven. If you had to get back to essentially a 
hold-even budget with the exception of perhaps some of the 
expenses that are associated with the Inauguration and so 
forth, how would you go about doing that? What would be the 
impacts? And how would the Members see that in terms of 
services and so forth?
    Chief Morse. Well, if we were to freeze, what we would do 
is back to deferring life-cycle replacement, deferring 
training, some of the things that we could probably stand to 
do, but not recommend to do for another year.
    We would continue to scrub our budget or our programs and 
operations. We would continue to look for efficiencies with 
respect to the operation of the campus.
    But at this time, anything that we do is going to degrade 
or impact security or the operations of the Congress, because 
we would have to pick between security and operations. And so 
we would be first reducing our force, which we have already 
done through attrition, being about 100 personnel under our 
authorized strength--25 for sworn and around 73 or 74 for 
civilian.
    And I would just note that, even today, my staff in my 
office, I reorganized my own office and my staff. Some of my 
staff is moving today, moving out, because we have 
consolidated. We have been able to take some of their expertise 
and put them in other areas of the police department to save 
contracting money, to make my office smaller and to sort of be 
efficient as we possibly can, even in my office.
    So that is how far down into the weeds that we are getting 
to make sure that we save money, and we are operating as 
efficiently and effectively as I can.
    So when I left my office, there were people who have been 
with me for 5 years. And when I go back after this hearing, 
they will be in other places in the police department.
    Let me just say, they went very proudly, and they're 
willing to make those sacrifices. So that's really where we are 
with making sure that we do the right thing with the taxpayers' 
money.
    If we went below just a flat budget, we would be looking at 
further personnel cuts, or we would be looking at further 
security program cuts, or we would be looking at further 
operational cuts, or a combination of all three.
    So we're at bare-bones at this time, and I think we have 
done a good job of getting us there. But any further cuts 
definitely will impact those things that I mentioned.

                    <greek-l>USCP deg.NEW POSITIONS

    Senator Hoeven. Now go through what the roles are of the 17 
new sworn and two civilians and where they are stationed and so 
forth.
    Chief Morse. The two civilians are requests for the Office 
of Inspector General. And the threat initiative is for eight 
sworn positions, and that is based on a work analysis that was 
done during the testing period of the threat assessment 
initiative. And then the remaining number would be for active 
police patrol and response at the new FOB8.
    Senator Hoeven. Which is what?
    Chief Morse. It is a new building, supporting the Congress 
that is next to the Ford House Office Building down on Second 
Street, Second and D Street, Southwest. And it is going to be 
federally protected by FPS. There are a number of floors in 
that building that will house congressional staff in the 
community.
    Senator Hoeven. That new facility comes online when? This 
year? In the next fiscal year?
    Chief Morse. In fiscal year 2013.
    Senator Hoeven. So about one-half of them pertain to that 
new facility and the other one-half pertain to the threat 
initiative?
    Chief Morse. Yes, Sir.

                  <greek-l>USCP deg.THREAT ASSESSMENT

    Senator Hoeven. How is the threat initiative going? I mean, 
do you feel like it is working well and making a difference?
    Chief Morse. Well, yes. The threat initiative or 
assessment----
    Senator Hoeven. Threat assessment, I'm sorry.
    Chief Morse. Yes, it is something that is really in an 
evaluation stage. It is something that we have been working 
very hard to make sure that it's very specific to our needs, 
that it meets the Department of Justice (DOJ) criteria for a 
threat, and that we can get it to where it is most beneficial 
to detecting a threat before it gets here to the campus, so 
that we can go out and interdict, interview, and investigate 
any criminal statements that are made in the public domain. 
Therefore, we could potentially stop an attack against this 
campus and/or Members, staff, or the community.
    So I think it is a worthwhile initiative for the types of 
threats that we face, the type of individuals that commit these 
types of crimes, and we simply are trying to be as imaginative 
as we could. And, therefore, this initiative was born.
    It is not something that is new in the law enforcement 
community. Many of our Federal partners use this tool. And like 
I said, we want to try to levy that as much as we can to be as 
efficient as we can without duplication of effort.
    Senator Hoeven. I do have one follow-up, but I could----
    Senator Nelson. Go ahead.
    Senator Hoeven. Okay, the final follow-up would be, so this 
is being done on the five senior Members. Is it your 
expectation or intention to extend it? If so, what is it going 
to require in terms of resources, because you are fairly 
people-intensive already when you're talking seven or eight 
people?
    Chief Morse. Well, first, we are evaluating it, and we 
will, you know, have to tweak it as we go, to make sure it is 
the most efficient and effective as we can get it.
    But when it comes to people, because other agencies that we 
interact with currently on threats against Members use this 
type of investigative tool, we are looking at partnering with 
them so that we don't duplicate effort or have to increase the 
number of people that we have.
    So it's something that we are currently discussing. And it 
is not finalized yet, but I think that we have sort of a 
strategic plan of making that happen. And perhaps this request 
will be less than it is, and we will utilize the people within 
the organization that we currently have by leveraging the other 
assets and resources of our Federal partners.
    It also benefits them, because we jointly work, as you see 
with the Inauguration, we work at the events, all these events 
throughout the country. We utilize each other's assets and 
resources all the time, so this is really not something that is 
out of line with what we currently do when we share in security 
initiatives with other events or protection of our Members.
    Senator Hoeven. Thank you, Chief.
    Senator Nelson. Before we go into overtime, just for a 
second, could you give us an example of what you would do for 
this kind of threat assessment? What kind of threat would you 
hear about or would come to somebody's attention then that is 
brought to your attention?
    Chief Morse. First, a threat against a Member is clearly 
defined in statute. There are certain criteria, prosecutorial 
criteria, that have to be met. We follow a DOJ standard. And 
basically, that is what we look for. Someone has to actually 
make that threat, meet that criteria, and show that there is a 
potential for violence. And that is when we would investigate 
that.
    Senator Nelson. Would it be most likely reported to you by 
someone else, because you're not going to be outside of this 
area in communities to pick it up? How would it come to your 
attention? In what way or ways would come to your attention?
    Chief Morse. Well, there are companies that do this and 
have the ability to do this on a very large scale, and that is 
part of the request, as well as the people to actually perform 
the analysis of that, to ensure that it meets the criteria of a 
threat against a Member.
    And then, in fact, we would investigate that threat against 
a Member with our partner agency, the FBI.
    Now many times, and currently, people who are here, 
Members, staff, family, or community, will send us information 
that is in the public domain, that is what they believe is 
threatening or of interest or suspicion. And we do the same 
thing. We would analyze that. We would determine whether or not 
it was a threat, if there was any potential for violence, and 
then we would act accordingly within the law.
    The other thing that we have, and just I want to bring out 
some of the other resources associated with this, is we have 
embedded personnel, special agents who are within all of our 
intelligence communities. But we also have an agent who is with 
the behavioral science section with the FBI.
    We also have a staff psychologist who performs a function 
for us of reviewing direction of interest cases. Whether they 
be in an email, whether they be on a voicemail, or in person, 
they evaluate whether or not there is a potential for violence. 
And that also gives us a direction.
    So there are many things that we do to review this 
material, analyze it. And when we believe that a crime is being 
committed, or we believe that there is a potential for 
violence, we quickly interdict, so that we can deter that from 
happening.
    Senator Nelson. Okay, thank you.

    <greek-l>USCP deg.OVERTIME AND ARCHITECT OF THE CAPITOL PROJECTS

    On overtime, during the conference last December, we agreed 
with the House on a modified version of House language to 
transfer overtime costs associated with AOC projects to the 
AOC. And at that time, we had some concerns about the approach 
being used to hide the true extent of what USCP overtime costs 
were.
    We conceded and went with the House's point about getting a 
true accounting with a major construction project like the dome 
rehabilitation project that we are looking at. So we 
compromised.
    I don't know how we can continue, because you're asking for 
an increase of $3.2 million, or 9.3 percent in overtime. When 
you add the estimated $1.8 million in USCP overtime that will 
be paid for by the AOC, then the total increase in your 
overtime budget is actually 14.6 percent.
    How do we make that work? It looks to me like we've got two 
trajectories going now. One with the AOC and one just with the 
regular USCP, but you need to tie them together to get the true 
costs.
    Chief Morse. Well, first I want to say that our base 
overtime--in other words, what USCP uses to do our mission each 
day--if you look at the last three fiscal cycles, you will see 
that has stabilized and that is something that has been managed 
very closely by us. And at the request of the committees and 
their concerns, we wanted to make sure that happened. And we 
did.
    In addition to the increases, once again we have the 
training increase that we're asking for, because the number of 
officers that we have, the utility that we have, does not meet 
the mission, so there's a gap. And in that gap is an overtime 
gap.
    One of the things that is very similar to overtime related 
to AOC projects is the Library of Congress reimbursable events. 
So with the overtime related to AOC projects, I believe it 
simply made it easier to reimburse versus perhaps overrun into 
other fiscal years of the project delays and things of that 
nature.
    So what we have done is we have simply mirrored and are 
mirroring our memorandum of understanding with the AOC, to 
mirror that with the memorandum of understanding with the 
Library of Congress so that the transfer of funds will happen 
efficiently and, in fact, when the work is actually 
accomplished.
    But the other overtime is related to some of the other 
initiatives and things that are beyond our control. For 
instance, the $1.6 million associated with the Inauguration, 
the money that is associated with backfill overtime until we 
would be able to bring on 17 new personnel to fill the roles in 
those two new initiatives that we briefed on.
    So the overtime increases are not core or base, but they 
are related to the Inauguration, some training initiatives that 
we have deferred and believe that we can't defer any longer, 
and they are related to the backfilling of personnel for those 
two initiatives.
    Senator Nelson. Well, in the case of the Architect and the 
AOC projects, who has the final say in determining overtime 
requests? Would it be you or the Architect? Or is it done 
jointly or some other way?
    Chief Morse. It depends on what the project is, and we 
would assess the level of security that would need to be 
provided. And certainly, that can be adjusted, so that gives us 
a level of flexibility throughout the project to adjust that 
level of security.
    And you know, the planning of it and things of that nature 
makes it more flexible. And I would say or hope to say that it 
would help us manage that easier.
    So we would give them an assessment of what it takes to 
secure that facility and provide that, and then we would tell 
them how much it costs. And through the process, we would be 
reimbursed for that.
    Senator Nelson. Okay.
    Senator Hoeven.
    Senator Hoeven. I have concluded my questions for the 
Chief. Again, I want to thank not only the Chief but all three 
of you for. We have more work to do here, but you have all done 
good work.
    Tell all your folks we really appreciate the job you do. 
Thank you.

             <greek-l>USCP deg.RADIO MODERNIZATION PROJECT

    Senator Nelson. Let me add my appreciation as well, but I 
have one more question, and that is about how are we doing on 
the radio modernization project. Maybe just a quick update.
    Chief Morse. Okay, I will be very quick, but I do have to 
thank people, because our successes so far have been because of 
our partnerships. I have to thank the Capitol Police Board for 
their direction and support throughout this project; the 
Architect of the Capitol, Stephen T. Ayers, who is here today 
supporting me; the House Sergeant at Arms, Paul Irving, who is 
also behind me, supporting me.
    We recently went to NAVAIR and reaffirmed our partnership 
and thanked them for their efforts. I just wanted to thank Rear 
Admiral Randy Mahr, USN and Vice Admiral David Architzel, USN 
for all the support in this project.
    And also good friends at the Government Accountability 
Office (GAO), Dr. Hai Tran has been incredibly supportive of us 
throughout this process and has helped us in so many ways with 
respect to the technical difficulties of a project of this 
magnitude.
    Currently, we finished our construction and build-out of 
our primary and secondary mirror sites. There are a couple 
punch-list items, that are left, but they are prepared to take 
on the technology once that order is complete.
    Outdoor infrastructure is at least 98-percent complete. Our 
indoor infrastructure, depending on which area you are 
referring to, could be anywhere between 54 and 65 percent 
complete, and on target to be completed in time for receiving 
the technology.
    We have two final procurements. One we call the larger of 
our procurement, which is the technology and the handhelds, 
along with a smaller request for proposal that is out there.
    But we want to thank the subcommittee for giving us the 
flexibility to use the money, any savings that we derive from 
the hard work of the people that I just thanked, for other 
areas of the project.
    And I feel like right now we are in a very good place with 
this project, and I think that going live--and the definition 
of going live is--testing is complete, it is turned on, the 
officers are trained, our dispatchers are trained, and the 
system is operational, will be in the spring or summer of 2013.
    And we have done some great work here and great success. 
And like I said, I feel like we're in a really good spot, and 
it is because of all the hard work of those people that support 
us, so I want to thank you for that.
    Senator Nelson. Well, thank you for the update. With all 
the people you had to thank, I think it was obviously a timely 
question for me to ask.
    I thank them as well. We understood the nature of this 
project, multiyear, very expensive, but very necessary. So we 
appreciate the progress that is being made.
    Before we conclude, is there anything else that any of the 
three of you might want to add to what we have asked or what we 
didn't ask? Is there anything else?
    Mr. Gainer. No.
    Senator Nelson. Well, you have our best wishes and our 
gratitude for what you have been able to do. And of course, we 
wouldn't be doing our job if we didn't ask you to continue to 
find these ways to work together and improve the quality of the 
service at the same time watching the costs of delivering them.

                         CONCLUSION OF HEARINGS

    Senator Nelson. So thank you so very, very much. I 
appreciate it.
    We're recessed.
    [Whereupon, at 4:05 p.m., Thursday, March 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
